<html>
<title> - INVESTING IN A SKILLED WORKFORCE: MAKING THE BEST USE OF TAXPAYER DOLLARS TO MAXIMIZE RESULTS</title>
<body><pre>[Senate Hearing 110-960]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-960
 
   INVESTING IN A SKILLED WORKFORCE: MAKING THE BEST USE OF TAXPAYER 
                      DOLLARS TO MAXIMIZE RESULTS

=======================================================================



                                HEARING

                               BEFORE THE

            SUBCOMMITTEE ON EMPLOYMENT AND WORKPLACE SAFETY

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

   EXAMINING A SKILLED WORKFORCE, FOCUSING ON MAKING THE BEST USE OF 
                  TAXPAYER DOLLARS TO MAXIMIZE RESULTS

                               __________

                           SEPTEMBER 23, 2008

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate




                  U.S. GOVERNMENT PRINTING OFFICE
44-728                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
TOM HARKIN, Iowa                     JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland        LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico            RICHARD BURR, North Carolina
PATTY MURRAY, Washington             JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island              LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     ORRIN G. HATCH, Utah
BARACK OBAMA, Illinois               PAT ROBERTS, Kansas
BERNARD SANDERS (I), Vermont         WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma

           J. Michael Myers, Staff Director and Chief Counsel

        Ilyse Schuman, Minority Staff Director and Chief Counsel

                                 ______

            Subcommittee on Employment and Workplace Safety

                   PATTY MURRAY, Washington, Chairman

CHRISTOPHER J. DODD, Connecticut     JOHNNY ISAKSON, Georgia
TOM HARKIN, Iowa                     RICHARD BURR, North Carolina
BARBARA A. MIKULSKI, Maryland        LISA MURKOWSKI, Alaska
HILLARY RODHAM CLINTON, New York     PAT ROBERTS, Kansas
BARACK OBAMA, Illinois               WAYNE ALLARD, Colorado
SHERROD BROWN, Ohio                  TOM COBURN, M.D., Oklahoma
EDWARD M. KENNEDY, Massachusetts     MICHAEL B. ENZI, Wyoming (ex 
(ex officio)                         officio)

                   William C. Kamela, Staff Director

                  Glee Smith, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                               __________

                               STATEMENTS

                      TUESDAY, SEPTEMBER 23, 2008

                                                                   Page
Murray, Hon. Patty, Chairman, Subcommittee on Employment and 
  Workplace Safety, opening statement............................     1
Isakson, Johnny, a U.S. Senator from the State of Georgia, 
  opening statement..............................................     3
Scott, George A., Director, Education, Workforce, and Income 
  Security Issues, U.S. Government Accountability Office, 
  Washington, DC.................................................     3
    Prepared statement...........................................     5
Lewis, Elliot P., Assistant Inspector General, Office of Audit, 
  U.S. Department of Labor, Washington, DC.......................    18
    Prepared statement...........................................    20
Orrell, Brent R., Deputy Assistant Secretary, Workforce 
  Investment System, Employment And Training Administration 
  (EYA), U.S. Department of Labor, Washington, DC................    24
    Prepared statement...........................................    25

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Brown, Hon. Sherrod, a U.S. Senator from the State of Ohio, 
      prepared statement.........................................    43
    Response by Brent R. Orrell to questions of:
        Senator Murray...........................................    44
        Senator Brown............................................    60

                                 (iii)


   INVESTING IN A SKILLED WORKFORCE: MAKING THE BEST USE OF TAXPAYER 
                      DOLLARS TO MAXIMIZE RESULTS

                              ----------                              


                      TUESDAY, SEPTEMBER 23, 2008

                                       U.S. Senate,
Subcommittee on Employment and Workplace Safety, Committee 
                 on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
room SD-430, Dirksen Senate Office Building, Hon. Patty Murray, 
chairman of the subcommittee, presiding.
    Present: Senators Murray and Isakson.

                  Opening Statement of Senator Murray

    Senator Murray. Good morning. This hearing of this 
subcommittee will come to order.
    Today's hearing examines just how well the Department of 
Labor is managing public dollars intended to pay for workforce 
development. I want to thank all of our witnesses for being 
here today, and I would also like to thank Senator Isakson for 
working with me on a bipartisan basis to hold this hearing. As 
always, I really appreciate your work on this subcommittee.
    A few years ago, a Congressional Research Service report 
sparked several investigations into Labor's management 
practices with regards to grants under the President's new 
demand-driven initiatives. A series of audits by the Labor 
Department's inspector general, as well as the report from the 
Government Accountability Office, confirmed what CRS found. 
Labor's management of public workforce dollars was questionable 
at best.
    Beginning in 2001, the Employment and Training 
Administration at DOL began issuing grants under the umbrella 
of this new initiative. The process was meant to reshape the 
public workforce system created largely by the Workforce 
Investment Act of 1998.
    By 2007, ETA had issued nearly $900 million in grants under 
these initiatives, but the investigators found it did so with 
unclear connections to legislative authority and requirements 
for the use of these funds, unclear explanations for awarding a 
significant amount of funds noncompetitively, unclear 
description of the purposes of these grants were meant to 
serve, and an unclear process for accountability, both for the 
grant recipients and for the Department of Labor.
    The workforce development community, Congress, and the 
American taxpayer deserve better from our Government agencies, 
and that is why we are having this hearing here today. We want 
to understand why the Department failed to make clear 
connections between the more than $900 million they invested in 
these projects and their value for workers and taxpayers. We 
want to know what actions the Department has taken to correct 
these problems, what remains to be done, and how the next 
administration can be a better steward of taxpayer dollars and 
Congress's trust.
    There are some who are more than willing to overlook the 
agency's actions. After all, these are only experimental grant 
projects, and the intent behind the initiative sounds laudable.
    The initiatives--specifically, the High-Growth Job Training 
Initiative, Community-Based Job Training grants, and the 
Workforce Innovation and Regional Economic Development 
Initiative--seem to share a common approach, partnering the 
existing publicly funded workforce system with key members of 
the business, education, and economic development communities.
    But when we compare that to the almost $1.7 billion that 
has been slowly drained from the public workforce system at the 
recommendation of this Administration, Congress must ask the 
Department what kind of return on investment the American 
taxpayer and worker get for their $900 million in grants under 
the agent's marquee workforce programs? Will it ever be able to 
prove their value, as compared to existing employment and 
training programs? And why did the Department think so little 
of its signature programs that it failed to strategically plan 
for or adequately evaluate their effectiveness?
    With scarce public funds available, leveraging resources 
from other groups interested in job training is an idea that I 
think we can all agree is promising. Unfortunately, the 
Department likely will never be able to fully prove the 
effectiveness of these programs to policymakers or to 
taxpayers. In the end, the Department's lack of transparency 
adds up to what some would say is nothing more than a slush 
fund for the agency.
    It leaves a cloud over the public's ability to clearly 
understand the intent behind these grants and their value to 
taxpayers, workers, and industry. And it does little to develop 
new knowledge about how we can improve the current workforce 
system so that it better connects to regions where many 
industries, investors, workers, schools, R&D entities, and 
others join forces to create competitive advantages and more 
jobs.
    As we look forward to a new administration, it is our goal 
to understand what can be done better. After all, this is money 
that is supposed to be used on policies and practices that help 
our economy. And taxpayers should expect that the Government 
will make smart investments with their money and that it will 
be held accountable for how it uses those dollars.
    Today, I am looking forward to hearing from our witnesses 
about this important issue. We are joined by George Scott. He 
is the director of education, workforce, and income security 
issues at the Government Accountability Office. Elliot Lewis is 
the assistant inspector general at the Labor Department. And 
Brent Orrell, who is deputy assistant secretary in the 
Employment and Training Administration at Labor.
    Again, I would like to thank all of you for being here 
today.
    And with that, before we hear from our first witness, I 
will turn it over to recognize Senator Isakson for his opening 
statement.

                  Opening Statement of Senator Isakson

    Senator Isakson. Well, thank you very much, Chairman 
Murray.
    And welcome to all of our guests who are here to testify 
today.
    When Congress passed the Workforce Investment Act in 1998, 
it created a new comprehensive workforce investment system. 
Part of WIA, as it is called, provided authority for the 
Employment and Training Administration to design demonstration 
and pilot projects.
    The Bush administration has developed and implemented three 
demand-driven initiatives designed to address the 21st century 
workforce--high growth, community based, and WIRED. All seek to 
partner the Government workforce system with business 
executives, education and training providers, and State 
economic development agencies.
    Since 2001, the Department of Labor has awarded 
approximately 430 grants, totaling almost $1 billion in these 
three initiatives. Certainly, we all share the goal of the 
programs to prepare workers with the skills they need to 
succeed in an ever more globalized labor market. Business 
leaders in Georgia and across the Nation often tell me of the 
need for workers with 21st century skills.
    Just as Congress asked future administrations to create new 
and innovative workforce training programs, we also urged them 
to continually evaluate the impact of these programs. The GAO 
and OIG reports allow us to revisit the effectiveness of 
employment and training grants. Federal dollars are scarce. 
Monitoring and oversight of DOL grantees is necessary to ensure 
the efficient use of the taxpayers' money.
    Moreover, if taxpayers are going to invest their money in 
these programs, they deserve to have a way to measure the 
results. Requiring outcome data statistics measuring the 
effectiveness of how employment and training grant money is 
utilized provides measurable results and is simply the right 
thing to do.
    I remain a huge proponent of transparency in government. 
Transparency as to program funding is essential to ensure 
public confidence in the agency and in the Government and the 
programs it recommends. With regard to noncompetitive grants, 
the decision-making process used to determine who receives 
awards should be well documented. Transparency, sunshine, and 
disclosure ought to be a cornerstone of each agency's standard 
operating procedure.
    I thank you, Chairman Murray, for calling the hearing, and 
I look forward to hearing the testimony of our witnesses.
    Senator Murray. Thank you very much, Senator Isakson.
    We will begin with Mr. Scott and your testimony.

 STATEMENT OF GEORGE A. SCOTT, DIRECTOR, EDUCATION, WORKFORCE, 
  AND INCOME SECURITY ISSUES, U.S. GOVERNMENT ACCOUNTABILITY 
                     OFFICE, WASHINGTON, DC

    Mr. Scott. Madam Chair and Ranking Member Isakson, I am 
pleased to be here today to discuss the Department of Labor's 
high-growth, community-based, and WIRED grant initiatives.
    As you know, federally funded training and employment 
services under the Workforce Investment Act are delivered 
through the One-Stop system. Since 2001, Labor has spent almost 
$900 million on these grant initiatives to address what it 
perceived as shortcomings in the One-Stop system.
    My testimony summarizes the key findings from our May 2008 
report, which discusses the purpose of the grant initiatives 
and whether Labor will be able to determine their impact, the 
extent to which the grant award process was adequately 
documented, and steps Labor is taking to monitor grantee 
compliance.
    In summary, according to Labor officials, the grant 
initiatives were designed to shift the focus of the public 
workforce system toward the training and employment needs of 
high-growth, in-
demand industries. Labor, however, will be challenged to assess 
the impact of these efforts.
    The grant initiatives were not fully integrated into 
Labor's strategic plan or overall research agenda, making it 
unclear what criteria Labor will use to evaluate their 
effectiveness. Furthermore, the Department lacks data that will 
allow it to compare outcomes for grant-funded services to those 
of other federally funded employment and training services.
    We recommended that Labor take steps to ensure that it 
could evaluate the impact of the initiatives. However, Labor 
indicates that the initiatives have their own evaluations and 
does not plan to include them in its broader assessment of the 
impact of employment and training services.
    While grants under all three initiatives are now awarded 
competitively, more than 80 percent of high-growth grants, 
totaling over $263 million, were awarded without competition. 
Labor cannot document the criteria it used to select the 
noncompetitive grants or whether these grants met statutory 
requirements. The noncompetitive award process and the lack of 
documentation of key decisions raises questions about whether 
the grants selected were the best possible projects.
    In response to a report from its inspector general, Labor 
took steps to strengthen the noncompetitive process. Based on 
our review, we recommended that Labor identify and document 
compliance with statutory requirements for noncompetitive 
grants. In response to our recommendation, Labor has now 
modified its review forms used in its noncompetitive process to 
include such documentation.
    Another issue related to the grant awards process was that 
meetings Labor held to identify solutions for high-growth 
industry workforce challenges did not include the vast majority 
of local workforce investment boards. We found that only 26 of 
the roughly 650 local workforce boards were included in these 
key meetings with Labor. Ultimately, these meetings also served 
as incubators for grant proposals.
    Labor officials said that they went to great lengths to 
include workforce system participants, but found only a few 
boards operating innovative, demand-driven programs. Despite 
this concern, being present at the meetings could have been 
beneficial to workforce boards. Broader participation of such 
key stakeholders is important, given that these boards are 
central to the workforce system.
    Finally, we found that Labor provided some monitoring for 
grantees under all three initiatives and uses a risk-based 
monitoring approach for the high-growth and community-based 
grants. This monitoring strategy involves conducting site 
visits based on a number of factors, including the grantee's 
risk level and availability of resources.
    At the time of our work, Labor had monitored about half of 
the high-growth grants and over one quarter of the community-
based grants. However, there was no risk-based monitoring 
approach for WIRED, and we recommended that Labor establish 
such monitoring. Labor has now documented steps it has taken to 
implement a risk-based monitoring process for WIRED and plans 
to develop a schedule to review the grants.
    In conclusion, Labor has taken steps to address two of the 
three recommendations in our recent report. It has outlined 
steps to better document compliance with requirements for 
noncompetitive grants and initiated the process for risk-based 
monitoring of WIRED grants. However, we have not yet assessed 
the sufficiency of these efforts.
    While Labor has plans underway to evaluate the grant 
initiatives, it is important that Labor take steps to determine 
to what extent, if at all, these initiatives improve employment 
outcomes. In light of the challenges Labor will face in 
assessing the impact of these efforts, continued oversight is 
warranted.
    This concludes my statement, and I would be happy to 
respond to any questions you or other members of the 
subcommittee may have at this time.
    Thank you.
    [The prepared statement of Mr. Scott follows:]
                 Prepared Statement of George A. Scott
                       Highlights of GAO-08-1140T
                         why gao did this study
    Since 2001, Labor has spent nearly $900 million on the High Growth 
Job Training Initiative (High Growth), Community-Based Job Training 
Initiative (Community Based), and the Workforce Innovation in Regional 
Economic Development (WIRED). This testimony addresses: (1) the intent 
of the grant initiatives and the extent to which Labor will be able to 
assess their effects; (2) the extent to which the process used 
competition, was adequately documented, and included key players; and 
(3) what Labor is doing to monitor individual grantee compliance with 
grant requirements. This testimony is based on GAO's May 2008 report 
(GAO-08-486) and additional information provided by the agency in 
response to the report's recommendations. For that report, GAO reviewed 
Labor's strategic plan, documents related to evaluations of the 
initiatives, internal procedures for awarding grants, relevant laws, 
and monitoring procedures, and conducted interviews.
                          what gao recommends
    In May 2008, GAO recommended that Labor take steps to ensure that 
it can evaluate the initiatives' impact, document compliance with 
statutory program requirements for noncompetitive grant awards, and 
develop and implement a risk-based monitoring approach for WIRED 
grants. Labor documented steps to implement the last two 
recommendations. This statement contains no new recommendations.
                                 ______
                                 
 Employment and Training Program Grants (Labor Has Outlined Steps for 
  Additional Documentation and Monitoring but Assessing Impact Still 
                           Remains an Issue)
                             what gao found
    According to Labor officials, the grant initiatives were designed 
to shift the focus of the public workforce system toward the training 
and employment needs of high-growth, in-demand industries, but Labor 
will be challenged to assess their impact. Under the initiatives, Labor 
awarded 349 grants totaling almost $900 million to foster this change. 
However, the grant initiatives were not fully integrated into Labor's 
strategic plan or overall research agenda, so it is unclear what 
criteria Labor will use to evaluate their effectiveness. Labor lacks 
data that will allow it to compare outcomes for grant-funded services 
with those of other federally funded employment and training services. 
GAO recommended that Labor take steps to ensure that it could evaluate 
the initiatives' impact, but its response to our recommendation 
suggests that conditions remain much as they were when GAO did its 
audit work.
    While grants under all three initiatives are now awarded 
competitively, the initial noncompetitive process for High Growth 
grants was not adequately documented. Community-Based and WIRED grants 
have always been awarded competitively, but more than 80 percent of 
High Growth grants were awarded without competition. Labor could not 
document criteria used to select the noncompetitive High Growth grants 
or whether these grants met internal or statutory requirements. In 
response to the report recommendation, Labor modified review forms used 
in its noncompetitive process to include documentation of statutory 
requirements; however, GAO has not evaluated the sufficiency of these 
changes. Another issue related to the process was that meetings Labor 
held to identify solutions for industry workforce challenges did not 
include the vast majority of local workforce investment boards.
    Labor provides some monitoring for grantees under all three 
initiatives and uses a risk-based monitoring approach for the High 
Growth and Community-Based grants. However, when GAO conducted its 
audit work there was no risk-based monitoring approach for WIRED, and 
therefore recommended that Labor establish one. In response to the 
report recommendation, Labor documented steps it has taken to put a 
monitoring approach in place for WIRED grants. GAO has not reviewed the 
sufficiency of these steps.

           No. of Grants and Funds Awarded Competitively and Noncompetitively, Fiscal Years 2001-2007
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                    Competitively                     Totals  by
                   Grant initiative                                    awarded     Noncompetitively     grant
                                                                        amount      awarded amount    initiative
----------------------------------------------------------------------------------------------------------------
High Growth..........................................        166           $31.8           $263.8         $295.6
Community Based......................................        142           250.0                0          250.0
WIRED................................................         41           324.0                0          324.0
                                                      ----------------------------------------------------------
  Total..............................................        349          $605.8           $263.8         $869.6
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of U.S. Department of Labor grants data.
Note: Total dollar amount varies from Labor's reported figure due to rounding.

    Madam Chairman and members of the subcommittee, I am pleased to be 
here today to discuss the High Growth Job Training (High Growth), the 
Community-Based Job Training (Community Based), and the Workforce 
Innovation in Regional Economic Development (WIRED) initiatives. Since 
2001, the Department of Labor (Labor) has spent almost $900 million on 
these three employment and training grant initiatives to address what 
it perceived as shortcomings in the one-stop service delivery 
system.\1\ My testimony today focuses on (1) the intent of the grant 
initiatives and the extent to which Labor will be able to assess their 
effects; (2) the extent to which the process used competition, was 
adequately documented, and included key players; and (3) what Labor is 
doing to monitor individual grantee compliance with grant requirements. 
My testimony today is based primarily on findings from our May 2008 
report,\2\ and additional information provided by the agency in 
response to the report's recommendations. Those findings were based on 
multiple methodologies including a review of Labor's strategic plan, 
documents related to evaluations of the initiatives and their purpose, 
internal procedures for awarding grants, relevant laws, and monitoring 
procedures. We also interviewed relevant Labor officials and persons 
with recognized workforce and training expertise. We conducted that 
performance audit from May 2007 to May 2008 in accordance with 
generally accepted government auditing standards.
---------------------------------------------------------------------------
    \1\ Federally funded training and employment services are delivered 
through what is known as the one-stop system, which was developed under 
the Workforce Investment Act (WIA) of 1998 and is governed by State and 
local workforce investment boards. Sixteen categories of programs, 
funded by four Federal agencies, deliver their services through this 
system. Under WIA, Labor has general responsibility and oversight of 
the one-stop system.
    \2\ GAO, Employment and Training Program Grants: Evaluating Impact 
and Enhancing Monitoring Would Improve Accountability, GAO-08-486. 
(Washington, DC: May 7, 2008.)
---------------------------------------------------------------------------
    In summary, according to Labor officials, the grant initiatives 
were designed to shift the focus of the public workforce system toward 
the training and employment needs of high-growth, in-demand industries, 
but Labor will be challenged to assess their impact. The grant 
initiatives were not fully integrated into Labor's strategic plan or 
overall research agenda, making it unclear what criteria Labor will use 
to evaluate their effectiveness, and Labor lacks data that will allow 
it to compare outcomes for grant-funded services to those of other 
federally funded employment and training services. We recommended that 
Labor take steps to ensure that it could evaluate the impact of the 
initiatives. Labor's response to our recommendation suggests that 
conditions remain much as they were when we did our audit work. While 
grants under all three initiatives are now awarded competitively, more 
than 80 percent of High Growth grants were awarded without competition. 
Moreover, Labor could not document criteria used to select the 
noncompetitive High Growth grants or whether these grants met internal 
or statutory requirements. In response to a report from its Inspector 
General, Labor took steps to strengthen the noncompetitive process, but 
these procedures did not explicitly require documentation of compliance 
with statutory program requirements. In response to our recommendation, 
Labor modified its review forms used in its noncompetitive process to 
include such documentation. We have not reviewed the sufficiency of 
these changes. Another issue related to the process was that meetings 
Labor held to identify solutions for industry workforce challenges did 
not include the vast majority of local workforce investment boards, 
even though WIA makes these boards central to the workforce system. 
Finally, Labor provides some monitoring for grantees under all three 
initiatives and uses a risk-based monitoring approach for the High 
Growth and Community-Based grants. When we conducted our audit work, 
there was no risk-based monitoring approach for WIRED, and we 
recommended Labor establish one. In response to our recommendation, 
Labor documented steps it has taken to put a monitoring process for 
WIRED in place. We have not reviewed the sufficiency of these steps.
                               background
    When it was enacted in 1998, WIA created a new, comprehensive 
workforce investment system designed to change the way employment and 
training services are delivered. Under WIA, each State designates local 
workforce investment areas across the State. Each local area is 
governed by local workforce investment boards that make decisions about 
the number and location of one-stop career centers, where partner 
programs make their services and activities available. Local boards are 
required to promote employers' participation in the workforce 
investment system and assist them in meeting hiring needs. Training 
services provided must be directly linked to occupations in demand in 
the local area. WIA requires States and localities to track the 
performance of WIA-funded activities and Labor to hold States 
accountable for their performance in the areas of job placement, 
employment retention, and earnings change.
    The Employment and Training Administration (ETA) oversees the High 
Growth, Community-Based, and WIRED grant initiatives. The vast majority 
of these grants are awarded under a provision of WIA,\3\ which provides 
authority for demonstration, pilot, multiservice, research, and 
multistate projects, and a provision of the American Competitiveness 
and Workforce Improvement Act (ACWIA),\4\ which provides authority for 
job training grants funded by the H-1B visa program.\5\ \6\
---------------------------------------------------------------------------
    \3\ 29 U.S.C. Sec. 2916.
    \4\ 29 U.S.C. Sec. 2916a.
    \5\ This program imposes a fee on employers that hire foreign 
workers to fill positions in specialized professions such as computer 
technology.
    \6\ The High Growth Job Training Initiative was funded under both 
WIA and ACWIA provisions; the Community-Based Job Training Grants were 
funded under the WIA provision, and WIRED grants were funded under 
ACWIA. The High Growth grants were awarded under WIA as pilots and 
demonstrations. The WIA provision requires that grants provide direct 
services to individuals, include an evaluative component, and are made 
to entities with recognized expertise. The ACWIA provision requires 
Labor to identify industries and economic sectors projected to 
experience significant growth. In addition, the ACWIA provision 
requires Labor to use 
H-1B funds to award grants to entities to provide job training and 
related activities, ensure that grants are equitably distributed 
geographically, and ensure that training activities funded by such 
grants are coordinated with the workforce investment system.
---------------------------------------------------------------------------
    Labor is required to conduct impact evaluations of its programs and 
activities carried out under WIA, including pilot and demonstration 
projects.\7\ While impact evaluations make it possible to isolate a 
program's effect on participants' outcomes, there are several ways to 
conduct them, including experimental and quasi-experimental methods.\8\ 
In 2004 \9\ and 2007,\10\ GAO recommended that Labor comply with WIA 
requirements to conduct an impact evaluation of WIA services to 
determine what services are most effective for improving employment-
related outcomes. Labor agreed with our recommendation. In December 
2007, the agency announced it had begun a quasi-experimental 
evaluation--an impact evaluation that does not use a control group--of 
the WIA Adult and Dislocated Worker programs, with a final report 
expected in November 2008.
---------------------------------------------------------------------------
    \7\ This includes activities carried out under section 171.
    \8\ In evaluating the impact of programs, outcome data from the 
program are compared with a baseline. Considered the most rigorous 
method for conducting impact evaluations, the experimental method 
randomly assigns participants to two groups--one that receives a 
program service (or treatment) and one that does not (control group). 
The resulting outcome data on both groups are compared, and the 
difference in outcomes between the groups is taken to demonstrate the 
program's impact. In a quasi-experimental approach, program 
participation is not randomly assigned, but outcome data for 
individuals who participated in a program are compared with others who 
did not.
    \9\ GAO, Workforce Investment Act: States and Local Areas Have 
Developed Strategies to Assess Performance, but Labor Could Do More to 
Help, GAO-04-657 (Washington, DC: June 1, 2004).
    \10\ GAO, Veterans' Employment and Training Service: Labor Could 
Improve Information on Reemployment Services, Outcomes, and Program 
Impact, GAO-07-594 (Washington, DC: May 24, 2007).
---------------------------------------------------------------------------
    Federal law recommends, but does not require, that all grants be 
awarded through competition. The Federal Grant and Cooperative 
Agreement Act encourages competition in grant programs, where 
appropriate, to ensure that the best possible projects are funded.\11\ 
In addition, Labor's own guidance governing procurement and grant 
operations--the Department of Labor Manual Series--states that 
competition is recommended, unless one or more of eight exceptions 
apply.\12\ Further, a guide on improving grant accountability developed 
by the Domestic Working Group Grant Accountability Project recommends 
grants be awarded competitively because competition facilitates 
accountability, promotes fairness and openness, and increases assurance 
that grantees have the systems in place to efficiently and effectively 
use funds to meet grant goals.\13\
---------------------------------------------------------------------------
    \11\ 31 U.S.C. Sec. 6301(3).
    \12\ Department of Labor Manual Series 2-836(G)--Exclusions and 
Exceptions to Competitive Procedures for grants and cooperative 
agreements.
    \13\ The Domestic Working Group Grant Accountability Project, Guide 
to Opportunities for Improving Grant Accountability, October 2005. The 
group was composed of representatives from Federal, State, and local 
audit organizations, including Labor's inspector general.
---------------------------------------------------------------------------
    Effective monitoring is also a critical component of grant 
management. The Domestic Working Group's suggested grant practices 
state that financial and performance monitoring is important to ensure 
accountability and the attainment of performance goals. Labor monitors 
most grants through a risk-based strategy based on its Core Monitoring 
Guide. A key goal is to determine compliance with specific program 
requirements. In addition, entities receiving Labor grants are subject 
to the provisions of the Single Audit Act if certain conditions are 
met.\14\ A single audit is an organization-wide audit that covers, 
among other things, the recipient's internal controls and its 
compliance with applicable provisions of laws, regulations, contracts, 
and grants.
---------------------------------------------------------------------------
    \14\ OMB Circular A-133, which implements the Single Audit Act (31 
U.S.C. Sec. Sec. 7501-7507), requires nonfederal entities that expend 
$500,000 or more in Federal funds to have a single or program-specific 
audit conducted for that year.
---------------------------------------------------------------------------
 grants are intended to change the workforce system, but labor will be 
                  challenged to evaluate their impact
    According to Labor officials, the grant initiatives are designed to 
change the focus of the public workforce system to emphasize the 
employment and training needs of high-growth, high-demand industries, 
but Labor will be challenged in assessing their impact. For the three 
grant initiatives, Labor awarded 349 grants totaling almost $900 
million that were intended to bring about this change by identifying 
the workforce and training needs of growing, high-demand industries; 
engaging workforce, industry, and educational partners to develop 
innovative solutions to workforce challenges, such as worker shortages; 
leveraging a wide array of resources to fund the solutions; and 
integrating workforce and economic development to transform regional 
economies by creating good jobs. However, 7 years after awarding the 
first grant, Labor will be challenged to evaluate the effect of the 
grants. We recommended that Labor take steps to ensure that it could, 
but its response to our recommendation suggests that conditions remain 
much as they were when we did our audit work.
Labor Said the Grants Are Designed to Make the Workforce System More 
        Focused on High-Growth, High-Demand Industries
    According to Labor officials, the High Growth, Community-Based, and 
WIRED initiatives are designed to collectively change the focus of the 
workforce investment system by giving greater emphasis to the 
employment and training needs of high-growth, high-demand industries. 
They characterized High Growth as a systematic change initiative 
designed to make the system more demand-driven (i.e., focused on the 
needs of growing and high-demand industries) and to make the system's 
approach to workforce development more strategic by engaging business, 
industry, and education partners to identify workforce challenges and 
solutions.\15\ As a related effort, the Community-Based grants were 
designed to build the training capacity of community colleges for high-
growth, high-demand occupations. The goal of third grant initiative, 
WIRED, was to ``catalyze'' the creation of high-skill and high-wage 
opportunities for workers within the context of regional economies, to 
test models for integrating workforce and economic development, and to 
demonstrate that workforce development is a key driver in transforming 
regional economies. From 2001 through 2007, Labor awarded 349 grants 
totaling almost $900 million for these initiatives (see Table 1).
---------------------------------------------------------------------------
    \15\ According to Labor, the High Growth initiative included 
several key steps prior to awarding the grants and is ongoing through 
dissemination of grant results. Key steps included: identification of 
high-growth, high-demand industries; industry scans to understand the 
size, trends, and scope of each industry; industry executive forums to 
hear workforce challenges; workforce solutions forums to develop 
solutions to address these challenges; investments in workforce 
solutions (i.e., grants) for industry-identified challenges and follow-
on competitive opportunities; and dissemination strategies for High 
Growth products.

 Table 1.--Total Number and Amount of Grants Awarded by Labor, 2001-2007
------------------------------------------------------------------------
                                                  No. of
                Grant initiative                  grants      Amount
------------------------------------------------------------------------
High Growth....................................      166    $295,522,793
Community Based................................      142     250,000,000
WIRED..........................................       41     323,999,944
                                                ------------------------
  Total........................................      349    $869,522,737
------------------------------------------------------------------------
Source: GAO analysis of U.S. Department of Labor grants data.

    Labor officials said a number of indicators show that the 
initiatives are changing the system. According to Labor, they have seen 
a ``system-shift'' in the approach to implementing workforce solutions 
through an increase in demand-driven topics at conferences since the 
roll out of the initiatives. Labor said this shift has been driven by 
partnerships between the workforce investment system, business, 
industry, and educators using the High Growth framework. Labor also 
said it is seeing demand-driven strategies in State and local strategic 
plans and in States using their own money to fund High Growth-like 
projects. Labor pointed out that the system has evolved to the point 
where high performing local workforce boards with demand-driven 
practices are mentoring lesser performers. Lastly, Labor said the 
content on its Web site, Workforce3 One, was also evidence of change. 
For example, Labor held an interactive seminar broadcast on this site 
to train participants to use an online tool to share curricula 
developed through the initiatives.
    However, experts identified a number of challenges States face in 
pursuing demand-driven practices. These included insufficient funding, 
limited flexibility in how funds can be used, statutory requirements to 
target services to certain groups of workers, and the need to respond 
to local economic conditions. Commenting on workforce boards' ability 
to form strategic partnerships, one expert noted that there are no 
funds to support such endeavors and no performance standards to measure 
them. With regard to regional economic development, experts said boards 
are structured around local areas, not regions, regional economies are 
highly variable, regional governance structures can make achieving buy-
in difficult and that rural areas can be particularly challenged in 
pursuing regional approaches.
Seven Years After Awarding the First Grant, Labor Will Be Challenged to 
        Evaluate Their Impact
    Despite the money invested and emphasis placed on these 
initiatives, Labor did not fully integrate them into its strategic plan 
or ETA's research plan from the start. The Government Performance and 
Results Act states that strategic plans shall contain strategic goals 
and objectives, including outcome-related, or performance goals, and 
objectives for an agency's major functions and operations.\16\ However, 
the strategic plan includes performance goals only for the Community-
Based initiative. High Growth and WIRED--the two initiatives where 
Labor spent the most money--are mentioned in the strategic plan, but 
not specifically linked to a performance goal; therefore, it is unclear 
what criteria Labor will use to evaluate their effectiveness. Moreover, 
the data needed to assess the performance of these initiatives are not 
specified. Labor officials said the strategic plan did not address the 
initiatives because it focuses on budget issues. Just as the 
initiatives are not fully integrated into the strategic plan, neither 
are they fully integrated into ETA's research plan, which cites plans 
for future evaluations, but it does not specify an assessment of their 
impact. In responding to recommendations made in our May 2008 report, 
Labor said only that it would consider inclusion of the initiatives in 
its next 5-year research agenda due for revision in 2009.
---------------------------------------------------------------------------
    \16\ 5 U.S.C. Sec. 306.
---------------------------------------------------------------------------
    Not fully incorporating the initiatives into its strategic or 
research plans may have limited Labor's ability to collect consistent 
outcome data. Labor said that, prior to 2005, it consistently collected 
data from grantees on the number of participants enrolled in and 
completing training funded under High Growth--the only one of the three 
grant initiatives operating at that time. However, it did not collect 
performance outcomes similar to those being collected for its other 
training and employment services.\17\
---------------------------------------------------------------------------
    \17\ While acknowledging that reporting practices for High Growth 
were not established fully at the initiative's outset, officials said 
this was because the nature of the initiative posed inherent challenges 
in developing a common reporting and performance model: each grant was 
different, with different training models for different populations; 
some grants were for training, others were for capacity building. Labor 
said that as it became clear that more rigorous procedures for 
reporting were needed, it took the necessary steps to address the 
problem.
---------------------------------------------------------------------------
    Labor will face challenges in obtaining the data necessary to make 
meaningful comparisons. In 2005, Labor instituted what were called 
common measures to assess the effectiveness of one-stop programs and 
services. The common measures include participant employment outcomes, 
earnings, and job retention after receiving services. At the time, 
Labor could not require High Growth and Community-Based grantees to 
provide data on the common measures because it did not have Office of 
Management and Budget (OMB) approval. In anticipation of OMB approval, 
starting in 2006, Labor included information on the common measures in 
all new solicitations for High Growth and Community-Based grants, 
notified grantees of its goal for standardizing performance reporting, 
and provided technical assistance to help grantees prepare for it. 
Labor also encouraged grantees to work with local workforce system 
partners to leverage their experience in tracking and reporting 
performance outcomes. According to Labor, it has an OMB approved 
reporting format in place and expects data collection to begin in early 
program year 2008. However, because some of the first grantees have 
already completed their projects, obtaining information about workers 
that have left the program may prove difficult and costly. According to 
Labor, it can collect common measures for WIRED grantees, but it has 
not yet done so.\18\
---------------------------------------------------------------------------
    \18\ Labor developed a proposed approach to collect and report the 
common measures for WIRED grants using the existing State WIA 
performance system, but, as of November 2007, it had not yet collected 
them.
---------------------------------------------------------------------------
    As a result, Labor may not have consistent data for individuals 
participating in the programs funded under the grant initiatives. In 
addition, it may lack data that will allow it to compare outcomes for 
individuals served by grant-funded programs with those served by 
employment and training programs offered through the one-stop system. 
Having comparable outcome data is important because the goal of an 
impact evaluation is to determine if outcomes are attributable to a 
program or can be explained by other factors.
    Labor has some plans underway to evaluate the initiatives but may 
face challenges drawing strong conclusions from them. Labor has 
conducted an evaluation of the implementation and sustainability of 20 
early High Growth grantees. It is now evaluating the impact of the 
training provided by High Growth grantees. Labor anticipated the final 
report in December 2008, but now expects it in spring 2009. Labor 
experienced a number of challenges in evaluating the initiatives. These 
include having to limit its evaluation to only 6 grantees of 166, 
because only 6 had sufficient participants to ensure a statistically 
significant evaluation. They also include problems gaining access to 
workers' earnings data and inconsistent outcome data from grantees.
    Labor officials said they plan to conduct a comprehensive 
evaluation of the Community-Based initiative. The first phase of the 
evaluation will examine the extent to which the Community-Based grants 
addressed the stated workforce objectives and challenges funded 
projects were intended to address, as well as document the role of 
business and the workforce investment system in the overall success of 
the grants, according to Labor. This phase will also include an 
examination of the feasibility of performing an impact evaluation and 
will be completed in late 2008. Depending on the results of this phase, 
Labor officials said an impact evaluation will begin in 2009.
    For its evaluation of the WIRED initiatives, Labor says it is 
examining the implementation and cumulative effects of WIRED 
strategies, including change in the number and size of companies in 
targeted high-growth industries and whether new training led to job 
placement in the targeted industries. It contracted with the Berkeley 
Policy Associates to conduct the evaluation for the first 13 grantees, 
and a final report is expected by June 2010. It also contracted with 
Public Policy Associates to similarly evaluate the 28 remaining WIRED 
grantees.
    Labor officials said these initiatives are not included in the 
agency's broader WIA impact study. According to Labor, none of the 
three initiatives is considered to be a research project or designed to 
compare participant outcomes with the participant outcomes achieved 
under WIA. Labor said it does not plan to include them in the 
assessment of the impact of WIA services because the initiatives have 
their own independent evaluations.
   the initial noncompetitive process was not adequately documented 
                    and did not include key players
    While Labor now awards grants under all three grant initiatives 
competitively, initially almost all High Growth grants were awarded 
without competition. Labor also did not document the criteria for 
selecting noncompetitive High Growth grants or whether they met Labor's 
internal requirements or the requirements of the laws under which the 
grants are authorized. In response to recommendations we made in our 
May 2008 report, Labor said it had modified its noncompetitive process 
so it now includes documentation of statutory program requirements. We 
have not evaluated the sufficiency of the modified forms for ensuring 
statutory compliance. Another issue with the process was that meetings 
Labor held to identify workforce solutions did not include most of the 
State and local workforce investment boards.
All Three Types of Grants Are Now Awarded Competitively, but the Vast 
        Majority of High Growth Grants Were Awarded Without Competition
    The Community-Based and the WIRED grants have always been awarded 
through a competitive process but, until 2005, Labor did not award High 
Growth grants competitively even though Federal law and Labor's 
internal procedures recommend competition. While Labor had discretion 
in awarding High Growth grants without competition, the extent to which 
it did so raises questions about how Labor used this method of awarding 
grants. Competition facilitates accountability, promotes fairness and 
openness, and increases assurance that grantees have systems in place 
to meet grant goals. Yet Labor chose to award 83 percent of the High 
Growth grants, which represented almost 90 percent of the funds, 
without competition between fiscal years 2001 and 2007 (see Table 2). 
Congress required that High Growth grants funded by H-1B fees be 
awarded competitively for fiscal years 2007 and 2008.\19\ Prior to that 
time, there were no provisions requiring Labor to award High Growth 
grants competitively.
---------------------------------------------------------------------------
    \19\ This requirement did not apply to grants awarded under the WIA 
provision authorizing High Growth grants.

 Table 2.--No. of High Growth Grants and Funds Awarded Competitively  and Noncompetitively between Fiscal Years
                                                  2001 and 2007
                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                    No. of                           No. of                    Summary of grants
          Fiscal year           noncompetitive    Funds awarded   competitive  Funds awarded   and funds awarded
                                    grants      noncompetitively     grants    competitively   noncompetitively
----------------------------------------------------------------------------------------------------------------
2001..........................              1             $2.8              0             0   100 percent of
                                                                                               grants and funds
2002..........................              7             14.7              0             0   100 percent of
                                                                                               grants and funds
2003..........................             15             30.3              0             0   100 percent of
                                                                                               grants and funds
2004..........................             37             77.4              0             0   100 percent of
                                                                                               grants and funds
2005..........................             55             86.7             12           $12   82 percent of
                                                                                               grants and 88
                                                                                               percent of funds
2006..........................             21             50.5              0             0   100 percent of
                                                                                               grants and funds
2007..........................              1              1.4             17          19.8   6 percent of
                                                                                               grants and 7
                                                                                               percent of funds
                               ---------------------------------------------------------------------------------
  Total.......................            137       $263.8 \1\             29     $31.8 \1\   83 percent of
                                                                                               grants and 89
                                                                                               percent of funds
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of U.S. Department of Labor grants data.
Notes: The fiscal year was calculated based on the start date of the grant. Labor awards grants by program year
  rather than fiscal year, which is from July 1 through June 30 of each year.
\1\ Total dollar amount varies from Labor's reported figure due to rounding.

    Labor said that it used a noncompetitive process to promote 
innovation. They also said that they awarded grants without competition 
to save the time it would have taken to solicit grants through 
competition. In hindsight, they said they could have offered the High 
Growth grants competitively earlier because they recognized that the 
number of noncompetitive awards created a perception that the process 
was unfair. They said, however, that they always intended to award 
later grants competitively.
    In contrast to the High Growth grants, the Community-Based and 
WIRED initiatives have always been awarded through competition. These 
funding opportunities were announced to potential applicants through a 
solicitation for grant application that listed the information that an 
application must include to compete for funding. These applications 
were then reviewed and scored by a knowledgeable technical panel. These 
solicitations were also reviewed by Labor attorneys for compliance with 
procurement and statutory program requirements for awarding grants, 
according to officials.
Labor Did Not Document the Criteria for Selecting Noncompetitive High 
        Growth Grants or Whether They Met Labor's Internal Requirements 
        or Requirements of the Law
    Because the initial High Growth process was noncompetitive, 
documenting the decision steps was all the more important to ensure 
transparency. However, Labor was unable to provide documentation of the 
initial criteria for selecting grantees. As a result, it did not meet 
Federal internal control standards, which state that all transactions 
and other significant events need to be clearly documented and that the 
documentation should be readily available for examination.\20\ In 
addition, it was unable to document that it met the statutory 
requirements for the laws authorizing the grants. Finally, according to 
Labor's Inspector General, it did not adequately document that it had 
followed its own procedures for awarding grants without competition.
---------------------------------------------------------------------------
    \20\ GAO, Internal Control: Standards for Internal Control in the 
Federal Government, GAO/AIMD-00-21.3.1 (Washington, DC: November 1999).
---------------------------------------------------------------------------
    Labor did not document the criteria used to select the early 
noncompetitive High Growth projects. Labor officials told us there were 
no official published guidelines specific to High Growth grants, only 
draft guidelines, which were no longer available. In addition, Labor 
officials told us that generally they were looking for grantees that 
pursued partnerships and leveraged resources, but that attributes they 
sought changed over time. Labor published general requirements for 
noncompetitive grants in 2005 and updated them in 2007. Officials said 
these were not requirements, only guidelines for the kinds of 
information Labor would find valuable in evaluating proposals.
    In addition, while Labor said that it had discretion to award high 
growth grants non-competitively under the WIA provision authorizing 
demonstrations and pilot projects \21\ and under ACWIA before 2007, 
they could not document that the grants fully complied with the 
requirements of these provisions. For example, WIA requirements include 
providing direct services to individuals, including an evaluative 
component, and being awarded to private entities with recognized 
expertise, or to State and local entities with expertise in operating 
or overseeing workforce investment programs.\22\ Officials said that 
they were certain they had ensured that the projects met all statutory 
requirements but acknowledged they did not document that the 
requirements were met.
---------------------------------------------------------------------------
    \21\ 29 U.S.C Sec. 2916.
    \22\ 29 U.S.C Sec. 2916(b)(1) and 29 U.S.C Sec. 2916(b)(2)(B).
---------------------------------------------------------------------------
    Labor's Inspector General found the agency did not always document 
that it followed its own procedures or always obtained required review 
and approval before awarding grants noncompetitively. Labor officials 
said most of the noncompetitive grant proposals were presented to 
Labor's Procurement Review Board \23\ for review and approval allowed 
under exceptions for proposals that were unique or innovative, highly 
cost-effective, or available from only one source.\24\ However, in 
2007, Labor's Inspector General reviewed a sample of the noncompetitive 
High Growth grants awarded between July 2001 and March 2007 and found 
that 6 of the 26 grants, which should have undergone review, were 
awarded without prior approval from the review board. Furthermore, they 
found that Labor could not demonstrate that proper procedures were 
followed in awarding the High Growth grants without competition.\25\
---------------------------------------------------------------------------
    \23\ Labor's Procurement Review Board is responsible for reviewing 
various acquisition activities, including most unsolicited grant 
proposals, and recommending approval or disapproval to the Department's 
Chief Acquisitions Officer.
    \24\ Department of Labor Manual Series 2-836(G)--Exclusions and 
Exceptions to Competitive Procedures for grants and cooperative 
agreements. There are five additional exceptions listed for awarding 
noncompetitive grants: (1) a noncompetitive award is authorized or 
required by statute; (2) the activity is essential to the satisfactory 
completion of an activity presently funded by DOL; (3) it is necessary 
to fund a recipient with an established relationship with the agency 
for a variety of reasons; (4) the application for the activity was 
evaluated under the criteria of the competition for which the 
application was submitted, was rated high enough to have been selected 
under the competition, and was not selected because the application was 
mishandled; and (5) the Secretary determined that a noncompetitive 
award is in the public interest.
    \25\ U.S. Department of Labor Office of Inspector General--Office 
of Audit, High Growth Job Training Initiative: Decisions for Non-
competitive Awards Not Adequately Justified, 02-08-201-03-390 (Nov. 2, 
2007).
---------------------------------------------------------------------------
    Although they were unable to provide documentation, Labor officials 
said they used considerable rigor in selecting grant recipients under 
the noncompetitive process. Similar to a competitive process, the 
noncompetitive grant proposals were highly scrutinized and reviewed to 
ensure they made best use of scarce resources. They said that, in most 
cases, staff created abstracts to highlight strengths and weaknesses, 
and multiple staff and managers participated in reviews and decision-
making. In addition, Labor officials strongly disagreed with the 
majority of the Inspector General's findings. They said they followed 
established procurement practices as required, but agreed that 
additional documentation would be valuable.
    In response to the Inspector General's report, Labor took steps to 
strengthen the noncompetitive process. These included developing 
procedures to review noncompetitive grant proposals for criteria 
including support of at least one of ETA's strategic goals and 
investment priorities. The procedures also required ETA to document 
that required procedures are followed and that required review and 
approval is obtained before awarding grants noncompetitively. However, 
the newly developed procedures did not explicitly identify the 
statutory program requirements for which compliance should be 
documented. In response to a recommendation in our May 2008 report, 
Labor provided modified forms used in the noncompetitive process to 
include statutory program requirements and said that grant officers and 
program officials must confirm that the proposed grant is in compliance 
with these requirements. We have not evaluated the sufficiency of the 
modified forms for ensuring statutory compliance or reviewed how grant 
and program officers confirm compliance using the forms.
Labor's Process for Identifying Industry Workforce Challenges Did Not 
        Include the Majority of Workforce Investment Boards
    The vast majority of workforce boards--which oversee the workforce 
investment system--were not included in the meetings that served as 
incubators for grant proposals. After identifying 13 high-growth/high-
demand sectors,\26\ Labor held a series of meetings between 2002 and 
2005 with industry executives and other stakeholders to identify 
workforce challenges and to develop solutions to them.\27\ According to 
Labor, they first held meetings with industry executives--executive 
forums--for 13 sectors to hear directly from industry leaders about the 
growth potential for their industries and to understand the workforce 
challenges they faced. Second, they hosted a series of workforce 
solutions forums for 11 of the sectors, which brought together industry 
executives (often those engaged in human resources and training 
activities) with representatives from education, State and local 
workforce boards, or other workforce-related agencies.\28\ However, a 
review of Labor's rosters for the solutions forums shows that while 
there were more than 800 participants, 26 of the almost 650 local 
workforce boards nationwide were represented, and these came from 15 
States. (See Fig. 1.)
---------------------------------------------------------------------------
    \26\ Labor identified a 14th sector--Homeland Security--in 2005 and 
did not hold an executive or solutions forum for this sector, according 
to officials.
    \27\ Labor conducted industry scans of the size, trends, and scope 
of certain industries to understand the industries and any known 
challenges. In this process, they identified high-growth/high-demand 
industries that have a high-demand for workers. Officials said that 
they did not intend to identify all high-growth industry sectors in the 
economy, but to provide a framework for the process to be used at the 
State and local levels.
    \28\ Solutions forums were not held for the information technology 
and retail sectors.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Further only 20 of the 50 States had their State workforce 
investment board or other agency represented (see Table 3).\29\
---------------------------------------------------------------------------
    \29\ Some States had representatives from the State workforce 
investment board participating, and some States had a workforce-related 
agency such as those involved in employment and/or economic 
development.

                     Table 3.--Industry Sector Solutions Forums and the No. of Participants
----------------------------------------------------------------------------------------------------------------
                                                                                                State workforce
                                                            Total no. of     Local workforce    investment board
            Industry sector solutions forum               participants at    investment board    or other State
                                                          each  solutions     participation          agency
                                                               forum                             participation
----------------------------------------------------------------------------------------------------------------
Advanced manufacturing.................................                 61                  3                  0
Aerospace..............................................                 40                  1                  0
Automotive.............................................                216                  6                  9
Biotechnology..........................................                 29                  4                  6
Construction...........................................                 86                  5                  2
Energy.................................................                 26                  0                  1
Financial services.....................................                 99                  3                  4
Geospatial technology..................................                 41                  1                  2
Health.................................................                155                  6                 10
Hospitality............................................                 57                  3                  3
Transportation.........................................                 19                  2                  2
                                                        --------------------------------------------------------
  Total................................................                829             34 \1\             39 \2\
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of U.S. Department of Labor data on solutions forums participants.
\1\ The numbers for local workforce investment board participation do not total 26 because 2 workforce
  investment boards participated in more than one solutions forums; the remaining 24 participated in only one.
  Also, some local workforce investment boards had more than one representative.
\2\ The numbers for State workforce investment board or other State agency participation do not total 20 because
  several States attended more than one forum and some States had more than one agency represented.

    Labor officials said they went to great lengths to include 
workforce system participants in solutions forums. Officials said they 
asked State workforce agencies to identify a State coordinator to 
interface with Labor, work collaboratively with industry partners, and 
identify potential attendees for executive and solutions forums. 
Further, the State coordinators were to help Labor communicate with the 
workforce system about High Growth activities and were kept updated 
through routine conference calls and periodic in-person meetings, 
according to Labor. Labor officials also said the Assistant Secretary 
and other senior officials traveled frequently, speaking to workforce 
system partners at conferences to gather information about innovative 
practices. Labor officials said, even with these efforts, they found 
only a few workforce boards operating unique or innovative demand-
driven programs.
    However, most workforce board officials we spoke to in our site 
visits reported becoming aware of the meetings and the grant 
opportunities after the fact, even though they were pursuing the kinds 
of innovative practices the meeting was supposed to promote. Some State 
board officials said that they were often unaware that grants had been 
awarded, and at least one local workforce board said it became aware of 
a grant only when the community college grantee approached it for 
assistance in getting enough students for their program. In addition, 
officials in States we visited said they had been developing and using 
the types of practices that Labor was seeking to promote at the 
meetings.
    Being present at the meetings could have been beneficial to 
workforce boards. Labor officials acknowledged that when meeting 
participants suggested a solution to an employment challenge that they 
deemed innovative and had merit, they encouraged them to submit a 
proposal for a grant to model the solution. In addition, officials said 
that, in some cases, they provided applicants additional assistance to 
increase the chances that the proposal would be funded.
    labor uses a risk-based monitoring approach for high growth and 
 community-based grants and has documented steps for monitoring wired 
                                 grants
    For all three grant initiatives, Labor has a process to resolve 
findings found in single audits, collects quarterly performance 
information, and provides technical assistance as a part of monitoring. 
In addition, it has a risk-based monitoring approach for High Growth 
and Community-Based grants.\30\ When we conducted our audit work, there 
was no risk-based monitoring approach for WIRED. In response to our 
recommendation, Labor has documented steps it has taken to put a 
monitoring approach in place for WIRED grants.
---------------------------------------------------------------------------
    \30\ Labor's risk-based monitoring strategy differs from single 
audits. Entities receiving Labor grants are subject to the provisions 
of the Single Audit Act if certain conditions are met. The Single Audit 
Act established the concept of the single audit to replace multiple 
grant audits with one audit of a recipient as a whole. As such, a 
single audit is an organization-wide audit that covers, among other 
things, the recipient's internal controls and its compliance with 
applicable provisions of laws, regulations, contracts, and grants. In 
contrast, Labor's risk-based approach focuses on the readiness and 
capacity of the grantee to operate the grant including compliance with 
laws, regulations, and specific program requirements.
---------------------------------------------------------------------------
Labor Has a Process to Ensure Grantees Resolve Findings in Single 
        Audits, Collects Quarterly Performance Information, and 
        Provides Technical Assistance
    Labor said it has a process to work with grantees, including High 
Growth, Community Based, and WIRED to resolve findings in single 
audits. However, Labor's Inspector General reported that Labor does not 
have procedures in place for grant officers to follow up with grantees 
with past due audit reports to ensure timely submission and thus proper 
oversight and correction of audit findings. The Inspector General 
recommended that Labor implement such procedures, and Labor has done 
so, but the finding remains open because Labor's Inspector General has 
not yet determined if the procedures adequately address the 
recommendation.\31\
---------------------------------------------------------------------------
    \31\ U.S. Department of Labor--Office of Inspector General, report 
prepared by KPMG LLP, Management Advisory Comments Identified in an 
Audit of the Consolidated Financial Statements for the Year Ended 
September 30, 2007, 22-08-006-13-001 (Washington, DC: Mar. 20, 2008).
---------------------------------------------------------------------------
    As part of its monitoring, Labor requires High Growth, Community-
Based, and WIRED grantees to submit quarterly financial and performance 
reports. Financial reports contain information, such as total amount of 
grant funds spent and amount of matching funds provided by the grantee. 
Performance reports focus on activities leading to performance goals, 
such as grantee accomplishments and challenges to meeting grant goals. 
Labor officials said they review these reports and follow up with 
grantees if there are questions. Labor officials acknowledge, however, 
that they are still working to ensure the consistency of performance 
reports provided by High Growth and Community-Based grantees and are 
working with OMB to establish consistent reporting requirements. In 
addition, while the finding was not specific to these three grants, 
Labor's Inspector General cited high error rates in grantee performance 
data as a management challenge.\32\ Labor is taking steps to improve 
grant accountability, such as providing grantee and grant officer 
training.
---------------------------------------------------------------------------
    \32\ This observation was based on audits of three Labor grantees 
during fiscal year 2007.
---------------------------------------------------------------------------
    All grantees receive technical assistance from Labor on how to 
comply with laws and regulations, program guidance, and grant 
conditions. For example, Labor issued guides for High Growth and 
Community-Based grantees that include information on allowable costs 
and reporting requirements. In addition, Labor officials said they 
trained national and regional office staff to address grantees' 
questions and help High Growth and Community-Based grantees obtain 
assistance from experts at Labor and other grantees. Labor officials 
said they hold national and regional High Growth and Community-Based 
grantee orientation sessions for new grantees, present technical 
assistance webinars and training sessions focused on specific high-
growth industries, assist grantees with disseminating grant results and 
products, such as curricula, and set up virtual networking groups of 
High Growth grantees to encourage collaboration.
    Labor officials told us they have teams who provide technical 
assistance to each WIRED grantee including weekly contact. During these 
sessions, Labor staff work with WIRED grantees on grant management 
issues, such as costs that are allowed using grant funds. Labor staff 
provide additional assistance through conference calls, site visits, 
and documentation reviews. In addition, Labor officials said they have 
held five webinars on allowable costs and provided grantees with a 
paper on allowable costs in July 2006, which was updated in July 2007. 
Finally, Labor officials explained that they made annual site visits 
for the first 13 WIRED grantees in spring and summer of 2007 to discuss 
implementation plans and progress toward plan goals. In addition, Labor 
staff said they have reviewed the implementation of the remaining WIRED 
grants to ensure that planned activities comply with requirements of 
the law. However, none of these reviews resulted in written reports 
with findings and corrective action plans.
    Labor has spent $16 million on contracts to provide technical 
assistance, improve grant management, administration, and monitoring, 
and to assist Labor with tasks such as holding grantee training 
conferences. The larger of these contracts focus on providing technical 
assistance to WIRED grantees. For example, one contract valued at over 
$2 million provides WIRED grantees assistance with assessing regional 
strengths and weaknesses and developing regional economic strategies 
and implementation plans. Another grant, valued at almost $4 million, 
provides a database and geographic information system \33\ that WIRED 
grantees can use to facilitate data analysis and reporting, among other 
things.
---------------------------------------------------------------------------
    \33\ A geographic information system is a computer application used 
to store, view, and analyze geographical information, especially maps.
---------------------------------------------------------------------------
    While these monitoring and technical assistance efforts are useful 
to help grantees manage their grants, they do not provide a risk-based 
monitoring process to identify and resolve problems, such as compliance 
issues, in a consistent and timely manner.
Labor Provides Risk-Based Monitoring for High Growth and Community-
        Based Grants and Has Documented Steps for Monitoring WIRED 
        Grants
    Labor uses a risk-based strategy to monitor High Growth and 
Community-Based grant initiatives. For these initiatives, it selects 
grantees to monitor based on indications of problems that may affect 
grant performance. Labor's risk-based approach to monitoring most 
grants reflects suggested grant practices. Suggested grant practices 
recognize that it is important to identify, prioritize, and manage 
potential at-risk grant recipients for monitoring given the large 
number of grants awarded by Federal agencies. Through this process, 
Labor staff determine if grantee administration and program delivery 
systems operate, the grantee is in compliance with program 
requirements, and information reported is accurate.
    Labor's risk-based monitoring strategy involves conducting site 
visits based on grantees' assessed risk-levels and availability of 
resources, among other things.\34\ These site visits include written 
assessments of grantee's management and performance and compliance 
findings and requirements for corrective action. For example, Labor's 
site visit guide includes questions about financial and performance 
data reporting systems, such as how well the grantee maintains files on 
program participants.\35\
---------------------------------------------------------------------------
    \34\ Labor's grant monitoring plans are to reflect any program-
specific monitoring requirements as well as specific requirements for 
on-site visits to grantees with new grants and those rated ``at-risk'' 
through the risk assessment process.
    \35\ Employment and Training Administration, U.S. Department of 
Labor, Core Monitoring Guide (Washington, DC: April 2005).
---------------------------------------------------------------------------
    Labor has monitored about half of the High Growth grants and over 
one-quarter of the Community-Based grants. Labor officials said these 
monitoring efforts have resulted in a number of significant findings 
which have generally been resolved in a timely manner. (See Table 4.) 
For example, during a November 2006 site visit of a Community-Based 
grantee, Labor identified three findings: incomplete participant files, 
failure to follow internal procurement procedures, and missing grant 
partnership agreements. Similarly, during a site visit in spring 2006 
to a High Growth grantee, Labor found that the grantee did not 
accurately track participant information and reported incorrect 
information on expenditures, among other things. As of September 2007 
Labor said these findings had been resolved (see Table 4).

Table 4.--Status of Risk-Based Monitored Grants as of September 30, 2007
------------------------------------------------------------------------
                                                        High   Community
                        Status                         Growth    Based
------------------------------------------------------------------------
Findings resolved....................................      38        13
Findings not yet resolved............................      10         5
No findings..........................................      31        21
                                                      ------------------
  Total monitored....................................      79        39
------------------------------------------------------------------------
Source: GAO analysis of U.S. Department of Labor grants monitoring data.

    As another part of Labor's risk-based monitoring strategy, Labor's 
internal requirements specify that Labor staff are to make site visits 
to all new grantees, including High Growth, Community Based, and WIRED, 
within 12 months of beginning grant activity and to new grantees rated 
as ``at risk'' within 3 months. Labor officials said they consider 
``new grantee'' site visits to be orientation visits and had not made 
visits to most new grantees. They said they broadly interpret this 
requirement to include a variety of methods of contact and generally 
use teleconference and video conference training sessions rather than 
site visits, based on the availability of resources. For example, Labor 
calls each new Community-Based grantee to schedule new grantee 
training. Labor is taking steps to update its internal requirements to 
better reflect the purpose of the new grantee monitoring.
    According to Labor, in response to a recommendation we made in our 
May 2008 report, it has initiated the process for monitoring the 
financial and administrative requirements of the WIRED grants. Labor 
says it developed a WIRED Supplement to the Core Monitoring Guide which 
it is using to conduct reviews of WIRED grants. Labor also stated that 
it is developing a schedule of reviews that will provide for the 
monitoring of all WIRED grants prior to September 30, 2008, to be 
followed by reviews of remaining WIRED grants.
    Labor said the monitoring reviews are being conducted by four teams 
of ETA staff, consisting of experienced Regional Office financial 
staff, National Office staff, and the Federal Project Officers assigned 
to the grant. All of the teams have been provided training to maximize 
the results of the initial review. ETA will utilize standard procedures 
for issuance and resolution of any monitoring report issues.
    While Labor has said it has taken steps to implement our 
recommendation on documentation and monitoring, we have not assessed 
the sufficiency of those efforts. Labor has said it is taking steps to 
ensure that it can evaluate the impact of the initiatives, and this is 
an area that warrants continued oversight.
    Madam Chairman, this completes my prepared statement. I would be 
happy to respond to any questions you or other members of the 
subcommittee may have at this time.

    Senator Murray. Thank you very much, Mr. Scott.
    Mr. Lewis.

  STATEMENT OF ELLIOT P. LEWIS, ASSISTANT INSPECTOR GENERAL, 
   OFFICE OF AUDIT, U.S. DEPARTMENT OF LABOR, WASHINGTON, DC

    Mr. Lewis. Madam Chair and members of the subcommittee, I 
appreciate the opportunity to discuss the OIG's audits of the 
Employment and Training Administration's High-Growth Job 
Training Initiative.
    I will summarize my full statement and ask that it be 
entered into the record in its entirety.
    Successfully meeting the employment and training needs of 
citizens with programs funded by Federal grants requires 
picking the best service providers, making expectations clear 
to grantees, ensuring that success can be measured, providing 
active oversight, evaluating outcomes, and disseminating and 
replicating proven strategies and programs. Our audits have 
found that ETA has weaknesses managing its grants to this end.
    I will focus my testimony on our two most recent audits 
that assess the ETA's grant-making procedures and performance 
of high-growth grants of presidential initiative. Our first 
audit reviewed the grant-making process for a sample of 39 
grants totaling $70 million, which were awarded 
noncompetitively between fiscal years 2003 and 2007.
    We found that ETA could not demonstrate that it followed 
proper grant-making procedures for 90 percent of the grants in 
our sample. We found that ETA did not adequately justify its 
decisions to award noncompetitively 10 grants. Conflict of 
interest certifications were not documented for 19 of 39 
grants, and matching requirements of $34 million were not 
carried forward in grant modifications.
    ETA could not show that it met Department of Labor policy 
governing noncompetitive awards. ETA indicated that it 
developed its own procedures to review the grants awarded 
noncompetitively, however could not provide documentation to 
justify why certain proposals were funded while others were 
not. Thus, ETA could not demonstrate it made the best decisions 
in awarding grants to achieve the goals of the high-growth 
initiative.
    Further, although ETA asserted that grantees' commitments 
to provide matching funds were part of the justification for 
the noncompetitive award in the first place, ETA did not ensure 
the $34 million in required matching funds were carried forward 
when 9 grants were modified. As a result, the programs and 
levels of service provided may have been significantly reduced 
from what was intended in the original grant.
    We made eight recommendations to ETA to improve its process 
for awarding grants noncompetitively. Chief among these 
recommendations was that ETA take steps to ensure that 
competition is encouraged for discretionary grant awards, award 
decisions are adequately documented, and matching requirements 
are carried forward in grant modifications.
    ETA generally agreed with our recommendations. However, ETA 
asserted that it would limit its verification of matching 
requirements to only active grants. The OIG strongly believes 
that ETA should verify matching requirements for all grants 
because a closeout of an award does not end ETA's right to 
later recover funds.
    Our second audit reviewed 10 grants to determine whether 
the grantees accomplished the goals of the grants, whether the 
required matching funds were provided, and whether the grants 
resulted in expanded system capacity for employment and 
training.
    We found that grantees failed to achieve major performance 
goals or that it was impossible to determine success because 
goals were not clear. For example, one grantee placed only 58 
percent of its participants in jobs. Two did not complete 
required products, and one grantee never provided its finished 
product to ETA.
    We found that grantees did not provide $20.5 million in 
required matching funds partly because they couldn't provide 
documentation they had done so. We also found that ETA 
disseminated unproven training and employment strategies and 
products.
    ETA took exception with our position that it was 
inappropriate to disseminate products without a formal 
evaluation of their quality, stating that it was not necessary 
or valuable to evaluate every high-growth deliverable, and it 
does not have the expertise or resources to evaluate every 
product. Rather, ETA stated that its approach was to let 
business and industry determine the value of the products 
disseminated.
    The lack of clarity and, in certain cases, the failure by 
grantees to accomplish their goals calls into question the 
rigor of ETA's reviews, its assessment of the proposals, and 
the merit of ETA's decision to award the grants. This is of 
particular concern since the ETA awarded the grants 
noncompetitively.
    We recommended that ETA improve its grant writing, 
solicitation, and award process by developing a process that 
ensures that grant agreements delineate clear, concise, and 
measurable objectives, improve grant monitoring and closeout by 
adhering to its policy that each grant be monitored on an 
ongoing basis to identify and correct problems, and enhance the 
effectiveness of high-growth grant program by evaluating grant 
results prior to dissemination to the workforce investment 
system and using the results of the evaluation to ensure that 
the most successful strategies are replicated.
    ETA generally disagreed with our findings and 
recommendations. However, on September 12, the ETA provided a 
comprehensive action plan in response to our report. We are 
analyzing this plan to determine which recommendations are 
addressed by the plan.
    Madam Chair, in closing, much can be learned from ETA's 
shortcomings in administering the high-growth initiative. To 
meet the needs of the 21st century workforce, it is essential 
that ETA strengthen its grant-making procedures and its 
monitoring of grantees receiving Federal funds to provide 
critical employment and training services.
    I would be pleased to answer any questions you or the 
subcommittee members may have.
    [The prepared statement of Mr. Lewis follows:]
                 Prepared Statement of Elliot P. Lewis
    Madam Chair, and members of the subcommittee, I appreciate the 
opportunity to discuss the Office of Inspector General's (OIG) audits 
of the High Growth Job Training Initiative (HGJTI ). As you know, the 
OIG is an independent entity within the Department of Labor (DOL); 
therefore, the views expressed in my testimony are based on the 
findings and recommendations of my office's work and are not intended 
to reflect the Department's position.
                               background
    Since its inception in 1913, the core mission of the Department of 
Labor has been ``to foster, promote and develop the welfare of working 
people, to improve their working conditions, and to advance their 
opportunities for profitable employment.'' The Department's Employment 
and Training Administration (ETA) is charged with the latter. As you 
know Madam Chair, ETA utilizes grants to States, local governments and 
nonprofit organizations as its primary means to provide the services to 
accomplish this mission.
    Successfully meeting the employment and training needs of citizens 
in programs funded by Federal grants requires picking the best service 
providers, making expectations clear to grantees, ensuring that success 
can be measured, providing active oversight, evaluating outcomes, and 
disseminating and replicating those strategies and programs that have 
been proven to be successful. OIG audits have found that ETA has 
weaknesses in managing its grants to this end.
                  high growth job training initiative
    Madam Chair, as requested by the subcommittee, I will focus my 
testimony on our two most recent reports that assessed ETA's grant-
making procedures and the performance of grants awarded under the High 
Growth Job Training Initiative. As you know, we conducted these audits 
at the request of Senator Tom Harkin, Chairman of the Subcommittee on 
Labor, Health and Human Services, and Education and Related Agencies.
    This Presidential initiative was created to prepare workers for 
employment in high-growth areas such as health care, financial 
services, and biotechnology. ETA stated that one of the objectives of 
this initiative was to reach beyond those organizations that typically 
receive Federal grants in order to ``bring new ideas to the table'' and 
to obtain innovative approaches and strategies.
    Between July 1, 2001, and March 31, 2007, ETA awarded non-
competitively 133 (87 percent) high growth grants totaling $235 
million. We conducted two audits of the HGJTI grants. The objective of 
the first audit was to determine whether ETA followed proper procedures 
in awarding these grants without competition. The objective of the 
second audit was to determine whether grantees accomplished the goals 
of the grants and whether the grants resulted in expanded system 
capacity for employment and training.
         non-competitive grant awards not adequately justified
    Our first audit reviewed the grant-making process for a statistical 
sample of 39 grants, totaling $70 million, which were awarded from 
fiscal year 2003 through fiscal year 2007. We concluded that ETA could 
not demonstrate that it followed proper grant-making procedures for 90 
percent of its grants in our sample which ETA awarded non-
competitively. These grants totaled $57 million. Specifically, we found 
that decisions to award 10 non-competitive grants in our sample were 
not adequately justified; reviews of grant proposals were not 
consistently documented; required conflict of interest certifications 
were not documented; and matching requirements of $34 million were not 
carried forward in grant modifications.
    Our specific findings follow.
                                findings
Decisions to Award 10 of the 39 Grants Non-Competitively Were Not 
        Adequately Justified
    We found that ETA could not demonstrate that its decisions to award 
10 grants non-competitively were adequately justified. Moreover, they 
could not demonstrate that they met the Department's own policy 
governing sole source awards. This policy states that, with limited 
exceptions, competition is the appropriate method for awarding 
discretionary grants. We also found that ETA awarded 6 grants without 
obtaining the required prior approval from the Procurement Review 
Board, an independent board within the Department whose primary 
function is to review non-competitive acquisitions.
    ETA developed their own procedures to review grants awarded non-
competitively. ETA indicated that they did not compare proposals, but 
instead evaluated each proposal on its own merits. However, ETA could 
not provide documentation to justify why proposals that were funded 
were selected to receive awards.
Required Conflict of Interest Certifications Were Not Documented
    We found that ETA did not maintain required conflict of interest 
certifications. DOL policy requires that ETA maintain conflict of 
interest certifications for all non-competitive awards to reduce the 
bias, or appearance of bias, in selecting applicants for awards. The 
certification indicates independence from personal, external, or 
organization impairments to independence. Program officials responsible 
for requesting that a grant be awarded under ``other than full and open 
competition'' are required to sign the conflict of interest 
certification. ETA did not have this documentation for 19 of the 39 
grants in our sample.
Matching Requirements of $34 Million Were Not Carried Forward in Grant 
        Modifications
    We found that $34 million in required matching funds were not 
carried forward when ETA did grant modifications. Commitments by 
grantees to provide matching funds were part of the justification for 
the sole source procurement in the first place. Therefore, it was 
critical for ETA to carry forward these requirements. As a result, the 
programs and levels of services actually provided under the grant may 
have been significantly reduced from those intended in the original 
grant agreements.
                            recommendations
    In this audit, we made eight recommendations to ETA to improve 
management controls over its process for awarding grants.
    We recommended that ETA review all high growth initiative grants 
with matching requirements to ensure that these requirements are 
maintained. ETA's response stated that it would limit its review to 
active grants and grants in the close-out phase. We disagreed with 
ETA's response to this recommendation. The OIG believes that ETA should 
review all high growth initiative grants, including grants that have 
already been closed out to ensure that grantees provided all required 
matching funds as promised and as required as conditions for being 
awarded the grant. The close-out of an award does not end the 
Department's right to disallow costs and to recover funds if it later 
determines that grantees did not meet their grant requirements. 
Therefore, it is important for ETA to review grants that have already 
been closed out.
    We also recommended that ETA ensure that:

    <bullet> Policy is established for documenting all decision and 
discussions that lead to actions by DOL officials that affect how and 
to whom grant funds are distributed.
    <bullet> Any future grants awarded non-competitively be properly 
justified and based on appropriate Department of Labor Manual Series 
(DLMS) exceptions.
    <bullet> Decisions to exempt proposals from Procurement Review 
Board review are properly researched, valid, and documented.
    <bullet> Agency officials are fully trained and aware of the 
procurement procedures for non-competitive awards, including 
documenting the decisionmaking process.

    In its response, ETA stated that it has implemented new processes 
for documenting decisions related to grant making and for documenting 
the basis for a grant meeting a DLMS exception for a non-competitive 
award. In addition, ETA reported that it has developed a process for 
documenting its recommendation to exempt proposals from a review by the 
Procurement Review Board.
    We are currently awaiting supporting documentation from ETA 
regarding these actions. Once the OIG receives this documentation, we 
will determine whether ETA has sufficiently addressed our 
recommendations.
    Finally, we recommended that ETA ensure that:

    <bullet> Competition is encouraged when awarding discretionary 
grants.
    <bullet> A separate document for conflict of interest 
certifications is completed and maintained.
    <bullet> Matching requirements of $34 million are carried forward 
in future grant modifications for those grants in our audit sample.

    In its response to our audit report, ETA has implemented new 
policies to address these three recommendations, and we consider these 
three recommendations closed.
  value of high growth job training initiative grants not demonstrated
    Madam Chair, phase two of our audit effort regarding this 
initiative was a performance audit of 10 grants from our original 39 
grant audit sample. Specifically, we designed our audit to answer three 
questions:

    1. Did grantees accomplish their grant objectives?
    2. Were additional matching funds or leveraged resources provided 
by grantees as required?
    3. Did HGJTI grants result in expanded system capacity for skills 
training and competency development?

    We concluded that grantees failed to achieve major performance 
goals or that it was impossible to determine success because the goals 
were not clear. We also concluded that matching funds were not always 
provided by grantees as required and that ETA disseminated unproven 
training and employment strategies and products.
    A discussion of our specific findings follows.
                                findings
Grant Objectives Were Often not Clear
    We found that 7 grantees either did not meet all of their 
objectives or we could not determine whether their objectives were met. 
Specifically, we found that objectives in 6 of the 10 grants in our 
sample were so unclear that we could not determine whether the grantee 
delivered the performance they were funded to produce.
    The grantees' failure to accomplish their grant objectives, and the 
lack of clarity of the grant objectives in some cases, calls into 
question the rigor of ETA's review and assessment of the proposals, and 
the merit of ETA's decision to award the grants. This is of particular 
concern because ETA decided to award these grants non-competitively.
    We determined that grantees did not meet objectives with respect 
to: training and placement goals; product completion; product delivery 
and required tracking of outcomes. Examples of these shortcomings 
follow:

    <bullet> Three grantees did not meet their training and placement 
goals. For example, one grantee was required to place at least 2,500 
job seekers, but could only demonstrate that it placed 1,443 or 58 
percent of the required number.
    <bullet> Two grantees did not complete products required by their 
grant agreements. In one instance, the grantee did not provide a 
bilingual web portal that was to assist Hispanic job seekers to train 
for employment as skilled automotive technicians.
    <bullet> One grantee never provided ETA its finished product, a 
training process to upgrade worker skills for advanced manufacturing 
jobs. This occurred despite the fact that ETA conducted on-site 
monitoring of the grantee and had completed the close-out process.
    <bullet> Two grantees did not track the outcomes of the 
participants as required by the grants. For example, one of these 
grantees was required to track student completion rates in pre-LPN 
classes designed to better participants' chances of success in the LPN 
program. However, since the grantee did not track outcomes, ETA did not 
obtain potentially useful information about how to improve student 
outcomes for the LPN program.

    In addition, ETA did not adequately monitor 6 of the 10 grants we 
reviewed, and 3 of the grants did not perform well. It is important to 
note the four grants that did receive oversight by ETA also had 
performance issues. In addition, of the eight grants that completed 
ETA's close-out process, five had performance issues.
Grantees did not Provide $20.5 Million in Required Matching Funds and 
        Leveraged Resources
    We also found problems with grantees not fulfilling requirements to 
provide additional matching or leveraged resources. Specifically, the 
justification for non-competitively awarding 9 of the 10 grants that 
had matching or leveraged requirements was based, in part, on the 
grantees' commitment to provide additional resources of $42.1 million. 
However, we found that grantees did not provide $20.5 million of those 
funds; therefore, the level of services provided by the grantees was 
significantly reduced from the levels indicated in the original grants.
ETA did not Evaluate the Usefulness of Grant Products Before 
        Disseminating Them
    We found that ETA did not evaluate high growth initiative grants to 
determine the usefulness of the grants' products and activities before 
it decided to continue or disseminate them. With one exception this 
occurred because the grant agreements did not require an evaluation to 
determine the success of grant strategies and because ETA's policy was 
to disseminate grant results without first assessing their 
effectiveness. As a result, ETA disseminated unproven strategies for 
expanding system capacity for skills training and competency 
development.
                            recommendations
    We recommended that ETA:

    <bullet> Improve the grant writing, solicitation and award process 
by developing a process that ensures that grant agreements delineate 
clear, concise, and measureable objectives that can be used to measure 
the success of grant performance.
    <bullet> Improve grant monitoring and close out by adhering to its 
policy that each grant be monitored on an ongoing basis so that 
problems are identified and corrective action implemented, and 
providing ETA grant monitors with the training and tools, such as 
access to the Grant e-management system, that will assist them in 
fulfilling their responsibilities.
    <bullet> Enhance the effectiveness of HGJTI by evaluating grant 
results prior to dissemination to the workforce investment system, and 
using the results of those evaluations to ensure that the most 
successful strategies are replicated.

    In its response to our report, ETA generally disagreed with how we 
evaluated grant performance. ETA strongly disagreed with our finding 
that they did not provide sufficient oversight. They took exception 
with our position that it was inappropriate to share knowledge gained 
and products developed without a formal evaluation of the quality of 
the products. Moreover, ETA stated that it does not have the expertise 
or resources to evaluate every product. ETA further stated that it was 
not ``necessary or valuable to evaluate every High Growth deliverable'' 
before sharing it with the workforce system. ETA cited that its 
approach was to let key constituents such as ``business and industry,'' 
determine the value of the products it disseminated.
    In its response, ETA pointed out that the OIG examined only 10 
grantees in its audit as part of their disagreement with our overall 
findings. However, it is important to note that ETA has contracted for 
a study to evaluate the effectiveness of this initiative that would be 
limited to reviewing only 6 grantees.
    On September 14, ETA provided a comprehensive action plan in 
response to our final report. From our cursory review of this response, 
it appears that ETA intends to implement a number of our 
recommendations. We are reviewing and analyzing ETA's plan to determine 
which recommendations can be considered resolved and which will remain 
open. From our initial reading of this plan, it appears that ETA 
continues to maintain that strategies and products developed under 
these grants should be disseminated without first assessing their 
effectiveness. We believe this undermines the objectives of this 
initiative and is in conflict with the President's Management Agenda 
mandate that agencies be ``citizen-centered'' and ``result-
oriented.''
                               conclusion
    Much can be learned from this initiative that can be carried 
forward to improve ETA's discretionary grant program. In order to meet 
the employment and training needs of workers in the 21st century, it is 
critical that ETA ensure that it selects the best service providers, 
makes goals and expectations clear to grantees, ensures that success 
can be measured, provides active oversight of its grantees, evaluates 
outcomes, and disseminates and replicates only those strategies and 
programs that have been proven to be successful.
    This concludes my statement. I would be pleased to answer any 
questions you or the other subcommittee members may have.

    Senator Murray. Thank you very much.
    Mr. Orrell.

   STATEMENT OF BRENT R. ORRELL, DEPUTY ASSISTANT SECRETARY, 
     WORKFORCE INVESTMENT SYSTEM, EMPLOYMENT AND TRAINING 
 ADMINISTRATION (ETA), U.S. DEPARTMENT OF LABOR, WASHINGTON, DC

    Mr. Orrell. Madam Chairwoman, Senator Isakson, good to be 
with you this morning.
    I am pleased to have the opportunity to testify today on 
the Employment and Training Administration's management of 
grants under the President's demand-driven workforce 
development initiatives--the High-Growth Job Training 
Initiative, Community-Based Job Training Grants, and the 
Workforce Innovation and Regional Economic Development, or 
WIRED, Initiative.
    The high-growth initiative began as a strategy to transform 
the public workforce system into a demand-driven system that 
framed its workforce strategies and service delivery models on 
a firm understanding of the jobs of the 21st century and the 
skills workers need to get good jobs with career pathways.
    This approach required new types of partnerships with 
businesses and industry and education, as well as new ways of 
doing business. We consulted with business and industry in 14 
sectors to understand their workforce challenges, formed a wide 
array of strategic partners to think creatively about solutions 
to those challenges, and invested in innovative solutions.
    ETA chose to award the first round of high-growth 
investments noncompetitively because it allowed us to identify 
the most innovative solutions that were directly tied to the 
specific workforce challenges that each industry identified. In 
making these selections, ETA used a comprehensive review 
process to evaluate the unsolicited proposals that emerged from 
the overall consultation process and made sole-source awards 
consistent with the Department of Labor policies and procedures 
governing noncompetitive awards and Federal procurement rules.
    It has been ETA's intent to move to a fully competitive 
investment model from the beginning, and currently, all High-
Growth Job Training Initiative grants are awarded 
competitively. Our work with the high-growth grantees 
highlighted the need to build educational capacity to train 
workers and the important role that community colleges play in 
workforce development.
    The primary purpose of the community-based job training 
grants is to build the capacity of community colleges to train 
workers in the skills required to succeed in high-growth, high-
demand industries. The grants were also designed to help 
strengthen the partnership between the public workforce 
investment system and community colleges.
    ETA's WIRED initiative is based on the principle that 
talent development and having skilled workers drives economic 
growth and competitiveness. The goal for WIRED is to help 
regions transform and integrate their workforce investment, 
economic development, and education systems to support overall 
economic growth through sustained collaborative partnerships 
among a wide array of partners with a shared regional vision 
and plan for economic growth and talent development strategy to 
drive it.
    The subcommittee asked that I testify concerning the 
reports issued by the Government Accountability Office and the 
Office of the Inspector General on ETA's grant management 
activities under these initiatives. The first of the OIG 
reports concern the justification for noncompetitive award 
grants under the high-growth initiative. The second related to 
the value of selected high-growth grants.
    ETA has provided detailed responses to the findings in both 
reports. In June 2008, ETA submitted a comprehensive package 
documenting the corrective actions ETA has completed or planned 
concerning the first audit. On September 11, 2008, the OIG 
responded that it considers three of the recommendations 
closed, three others resolved but not closed, and one 
recommendation unresolved. ETA is compiling additional 
information for the OIG so that all recommendations can be 
resolved and closed.
    A similar corrective action plan in response to 
recommendations in the second OIG report was submitted to the 
OIG on September 12. While ETA did not agree with all the 
findings in the OIG reports, we do believe the audits were 
helpful in pointing out areas where the processes for 
documenting sole-source grants, making decisions could be 
strengthened.
    To help promote a clearer understanding of ETA's commitment 
to fostering innovation in the public workforce system, we have 
also met with the OIG to discuss the strategic nature of this 
approach. These discussions have helped the agency in 
responding to concerns raised by the OIG and their audits of 
the high-growth initiative.
    Additionally, we recently shared a draft competitive grant 
solicitation with the OIG, and they provided us with useful 
comments on ways to clarify those areas that focus on 
innovative activities, as well as specific grant requirements 
such as grant matches.
    In 2008, the GAO released its report on employment and 
training grants under these initiatives. The issues identified 
and recommendations made by the GAO were similar to those made 
by the OIG. ETA submitted its detailed views on the findings 
and recommendations in the report, which were printed as an 
appendix in the report. We have also submitted our statement of 
executive action in response to the recommendations in the 
report.
    As indicated in our letters to the GAO, we did not agree 
with every conclusion in the report, but we believe the actions 
we are taking will help us determine the impact of the three 
initiatives, ensure the best possible projects are selected in 
the future, and improve accountability.
    Madam Chairwoman and Senator Isakson, I hope that the 
information I provided in my written testimony on specific 
steps that ETA is taking in regard to both the OIG and GAO 
recommendations is helpful in response to your interest, and I 
would be happy to take questions.
    Thanks.
    [The prepared statement of Mr. Orrell follows:]
                 Prepared Statement of Brent R. Orrell
    Madam Chairwoman, Ranking Member Isakson, and members of the 
subcommittee, I am pleased to have the opportunity to testify today on 
the Employment and Training Administration's (ETA) management of grants 
under the President's demand-driven workforce development initiatives.
    I wish to begin by providing you with some background on our 
initiatives. ETA has strived to transform the public workforce 
investment system into a demand-driven system that aligns with the new 
economic realities of the 21st century. Such a system would catalyze 
and leverage all available resources to prepare workers with the skills 
they need to succeed in a global labor market. It would also respond to 
businesses' need for skilled workers and the talent demands of regional 
and State economies in order to strengthen our national economy. ETA 
has undertaken three key initiatives to foster demand-driven approaches 
across the workforce investment system and increase opportunities for 
education and skills training. These are the High Growth Job Training 
Initiative (HGJTI), Community-Based Job Training Grants (CBJTG), and 
the Workforce Innovation in Regional Economic Development (WIRED) 
Initiative.
    Through the HGJTI, ETA has awarded over $298 million to 167 
partnerships among employers, education programs, and the workforce 
investment system. These innovative projects train workers in the skill 
and talent needs of high-growth, high-demand industries in our Nation's 
economy. Since 2002, over 105,000 individuals have completed training 
through these grants, and there are currently more than 65,000 enrolled 
in training. ETA is excited that this year we have established the 
capacity to utilize wage record data to measure aggregate employment 
and retention performance outcomes on behalf of High Growth and 
Community-Based grantees. The absence of this capacity had made it 
extremely difficult to track outcomes for these grants.
    Our work with the HGJTI grantees highlighted the need to build 
educational capacity to train workers in high-growth industries and the 
important role that community colleges play in workforce development. 
Community colleges are well positioned to prepare workers for high-
demand occupations. Not only are community colleges an accessible and 
affordable choice for many Americans, but they also work directly with 
employers to provide training for incumbent workers, and are flexible 
and adaptable to the needs of their local and regional labor markets. 
The primary purpose of the CBJTG is to build the capacity of community 
colleges to train workers in the skills required to succeed in high-
growth, high-demand industries. The grants are also designed to help 
strengthen the partnerships between the public workforce investment 
system and community colleges. To date, ETA has competitively awarded 
211 CBJT grants totaling $375 million. Through these grants, nearly 
25,000 individuals have completed training, and over 80,000 are 
currently receiving training.
    The Department launched the WIRED Initiative in February 2006 to 
emphasize the critical linkages between workforce and economic 
development in regional economies. The WIRED Initiative seeks to help 
regions transform their workforce investment, economic development, and 
education systems to support overall regional economic growth by 
fostering collaborative partnerships among universities, businesses, 
government, workforce and economic development organizations, and other 
key regional partners. Under the WIRED Initiative, the Department has 
competitively awarded $325 million of H-1B fee revenues and is 
providing expert assistance to 39 regions across the Nation to 
implement strategies that will create high-skill and high-wage 
opportunities for American workers. Training and employment services 
are focused on high-growth industries within each region.
    Not only are these three initiatives training individual workers, 
but they are also supporting key foundational elements of the Workforce 
Investment Act; for example, promoting strong collaboration between the 
public workforce investment system and other strategic partners; 
creating a strong role for business; and encouraging customer choice 
and accessibility of training opportunities. This is reinforced by ETA 
policy guidance and technical assistance to the public workforce 
investment system. We have learned that broad partnerships result in 
innovative workforce solutions and the ability to leverage many more 
resources to address workforce challenges. The initiatives also 
recognize the fundamental importance of engaging employers as strategic 
partners to define skill needs, develop curriculum, engage in the 
education and training process, and leverage the significant resources 
employers invest routinely in workforce development.
    Each of these initiatives is designed to enhance, challenge, and 
highlight the role of the workforce system in supporting the delivery 
of quality education and relevant workplace training. All three 
initiatives emphasize the workforce system's integral partnership with 
education, economic development, and industry.
    There are a number of activities that ETA is carrying out in order 
to disseminate the learning, promising practices, results, and 
deliverables from these initiatives more broadly to the public 
workforce investment system and other stakeholders. Specifically, ETA 
has designed technical assistance strategies to support the preparation 
and packaging of results, products, and promising practices--what we 
refer to as ``workforce solutions''--that result from these grants. 
Deliverables from each grant vary and include: competency models, 
career ladders or lattices; curriculum; outreach materials; and program 
management and implementation tools. At this time, ETA is tracking 
1,300 workforce solutions across our HGJTI and CBJTG grants, with plans 
to add solutions developed through WIRED grants. We anticipate over 350 
new solutions will be ready for dissemination later this year. There 
are a number of ways that ETA distributes the solutions and lessons 
learned that resulted from the grants and encourages learning among 
grantees, industries, communities of practice, peer networks, and the 
public workforce investment system more broadly:

    <bullet> First, we distribute information and promising practices 
through Workforce \3\One (www.workforce3one.org), a Web-based technical 
assistance portal, and our doleta.gov site. These sites offer the 
public workforce investment system and its strategic partners access to 
a wide array of learning opportunities, including webinars, podcasts, 
and newsletters, as well as serve as the central repository for HGJTI 
and CBJTG workforce solutions.
    <bullet> We also inform grantees about approaches that other 
grantees have implemented through the administration and management of 
grants provided by our Federal Project Officers. Federal Project 
Officers are responsible for helping to ensure appropriate expenditure 
of funds and monitoring the progress of HGJTI, CBJTG and WIRED grants.
    <bullet> ETA participates in national conferences where we 
highlight workforce solutions from HGJTI, CBJTG, and WIRED grantees. At 
these conferences, local, State, and national workforce leaders have 
the opportunity to dialogue directly with grantees to learn how to 
replicate demand-driven strategies. This last July, at our agency's 
annual conference, Workforce Innovations, over 3,000 conference 
attendees received a catalogue of over 300 workforce solutions.
    <bullet> ETA supports regular grantee meetings and conference calls 
across HGJTI and CBJTG grantees according to their industry focus. 
Through these conference calls and meetings, grantees are able to share 
strategies, promising approaches, and solutions with one another 
according to their particular industry workforce needs and challenges.
    <bullet> We have issued a Training and Employment Notice (TEN) in 
July 2008 that announced the availability of new HGJTI and CBJTG 
workforce solutions to the public workforce investment system, and 
discussed the types of solutions developed; how they add value to One-
Stop Career Centers, community colleges, and other organizations; and 
how the solutions can be accessed, applied, and shared across the 
public workforce system community.

    I'd like to give you several examples of results of these grants. 
Calhoun Community College, a CBJTG grantee in Alabama, is using its 
Alternate Health Education Asynchronous Delivery (AHEAD) program to 
offer students training for new career opportunities in nursing, 
surgical technology, radiography, and clinical laboratory technology. 
The program is designed to increase the community college partners' 
capacity by offering an extended consortium of healthcare programs 
through shared resources and Web-based instruction. Through this grant, 
Calhoun Community College developed the Delayed Progression Nursing 
Program. This redesigned nursing program provides an alternative 
learning format using video streaming technology that allows students 
to view lecture content on the Internet or by podcast. Several regions 
across the country have adapted workforce solutions developed by 
Calhoun Community College. For example, Central Alabama and Southern 
Union Community Colleges adopted Calhoun's Delayed Progression Nursing 
Program in its entirety, modifying the education schedule to meet the 
needs of working adults. In addition, the expanded enrollment at 
Calhoun Community College has led to an increased number of healthcare 
professionals ready to respond to industry workforce needs.
    In California, the San Diego Workforce Partnership and its partner, 
BIOCOM, have worked to define avenues for young people to explore 
whether biotechnology is the right career path for them. Through a 
HGJTI grant, they established a clearinghouse on the biotechnology 
industry, coordinated student internships, and developed teacher 
externships for San Diego region's biotechnology community. As a 
result, 57 students completed hands-on internships; 30 high school 
science teachers have had externships at area biotechnology employers; 
and 139 career counselors in area high schools, community colleges, 4-
year universities, and One-Stop Career Centers have experienced 
training sessions in biotechnology. Additionally, the project has had 
even greater scope: 5,670 high school students have been exposed to new 
biotechnology curriculum, and 45,175 high school and college students 
have interacted with career and guidance counselors who have 
participated in biotechnology training.
     eta's management of grants under the demand-driven workforce 
                              initiatives
    The subcommittee asked that I testify concerning the reports issued 
by the Government Accountability Office (GAO) and the Office of the 
Inspector General at the Department of Labor (OIG) on ETA's management 
of grants issued under the President's demand-driven workforce 
development initiatives. I will address each of these reports in turn, 
beginning with the OIG reports.
             office of the inspector general audit reports
    The first of the OIG reports was issued in November 2007, 
concerning the justification for non-competitive award of grants under 
the HGJTI. The second report was issued in April 2008, concerning the 
value of selected HGJTI grants. ETA has provided detailed responses to 
the findings in both reports. In addition, in January 2008, ETA 
submitted to the OIG a Corrective Action Plan outlining the steps ETA 
is taking to address each of the recommendations in the November 2007 
audit report. In June 2008, ETA submitted a comprehensive package 
documenting the corrective actions ETA has completed or planned 
concerning this audit. On September 11, 2008, the OIG responded that it 
considers all but one of the recommendations resolved. ETA is compiling 
additional information for the OIG so that the remaining recommendation 
can be resolved. I would be pleased to provide the Corrective Action 
Plan to the subcommittee. A similar Corrective Action Plan in response 
to recommendations in the April 2008 OIG audit report was submitted to 
the OIG on September 12, 2008. I will be pleased to provide this plan 
to the subcommittee.
    ETA is extremely proud of the HGJTI. This initiative began as a 
strategy to transform the public workforce investment system into a 
demand-driven system--one that framed its workforce strategies and 
service delivery models based on a firm understanding of the jobs of 
the 21st century and the skills workers need to get good jobs with 
career pathways. This approach required new types of partnerships with 
business and industry and education as well as new ways of doing 
business. The High Growth initiative involved: extensive consultation 
with business and industry in 14 industry sectors to understand 
workforce challenges and skill needs; solutions forums with a wide 
array of strategic partners including the workforce system, business 
and industry, educators and others to think creatively about innovative 
solutions to those challenges; and, finally, investments in those 
innovative solutions.
    ETA chose to award the first round of High Growth investments non-
competitively for one very important reason. It allowed us to identify 
the most innovative solutions that were directly tied to the specific 
workforce challenges that industry identified--issues such as the need 
for competency models and career ladder strategies, the need to engage 
untapped labor pools, the need for qualified instructors, and so on. In 
making these selections, however, there was a comprehensive review 
process internal to ETA to evaluate the unsolicited proposals that 
emerged from the overall consultation process. ETA made sole-source 
awards consistent with the statutory authority under the Workforce 
Investment Act, Department of Labor policies and procedures governing 
non-competitive awards and Federal procurement rules. It was ETA's 
intent from the early phases of the HGJTI to move to a fully 
competitive investment model, and ETA began that process in Program 
Year 2004. Currently, all HGJTI grants are awarded through a 
competitive process.
    While ETA did not agree with all of the findings in the two OIG 
reports, we do believe the audits were helpful in pointing out areas 
where our grant-making processes could be strengthened. In particular, 
we believe the steps taken by ETA in response to the OIG report 
recommendations will enhance our grant solicitation and grant award 
management practices. I will briefly summarize some of the specific 
steps ETA is taking to respond to the OIG recommendations.
    ETA has completed most of the actions associated with the 
recommendations in the November 2007 OIG report and we are working to 
implement the outstanding actions over the course of the coming year. 
We continue to award the vast majority of grants through the 
competitive award process (including all grants under the HGJTI), and 
use the non-competitive process on an extremely limited basis, 
following the appropriate Federal and Departmental guidelines and the 
provisions in the Department's annual appropriations act and in the 
Workforce Investment Act. We have also instituted additional operating 
procedures to ensure rigorous documentation of the award decisionmaking 
process. This process further underscores our commitment to ensure that 
there are no conflicts of interest involving decisionmakers and grant 
awardees. When grant awards are made non-competitively based on the 
Federal standards for sole-source awards, we are using a standardized 
process to document the justification of such requests made by ETA to 
the Department's Procurement Review Board. Similarly, we have 
implemented a process to ensure that requests to exempt proposals from 
the Department's Procurement Review Board review are properly 
researched, validated, and documented, as recommended by the OIG. All 
of ETA's executives have received training on these revised operating 
procedures regarding non-competitive awards. When grant agreements 
include a match requirement, we have taken appropriate action to ensure 
that all match requirements are monitored to make sure this commitment 
is fulfilled, regardless of grant modifications or extensions of 
performance periods.
    The OIG's second report was issued in April 2008 and included 
several recommendations on ways to improve the grant solicitation and 
award process and the grant monitoring and closeout procedures, and to 
enhance the effectiveness of the HGJTI. ETA has taken a number of steps 
that should help address OIG's concerns. For example, ETA has improved 
the guidance provided in grant solicitations to prospective grant 
applicants on the need to articulate clearly projected outcomes and 
deliverables in their applications. ETA has also provided training to 
all grant officers to ensure that all deliverable products will be 
provided to ETA. As in the first OIG report, ETA continues to ensure 
that all matching and leveraged fund requirements are incorporated into 
grant agreements. We have also improved processes to require that 
grants acknowledge the source of the grant funds and the corresponding 
requirements associated with them, e.g., H-1B visa fees.
    With respect to OIG's recommendations to improve grant monitoring 
and closeout, ETA is continuously training grant staff and revising 
grants management guidance materials to ensure each grant is monitored 
periodically in order to identify potential problems and to provide 
corrective action as necessary. This training and guidance ensures that 
ETA staff are aware of matching and leveraged fund requirements from 
other Federal sources, and that grantees meet established grant 
requirements prior to grant closeout. We are also expanding the use of 
ETA's electronic grant management system--a monitoring tool that has 
been enhanced to include risk-based management, quarterly desk reviews, 
and other management tools--to all grant management staff. This 
expansion is expected to be complete in December 2008.
    The OIG made recommendations regarding questioned costs in three 
HGJTI grants. ETA is following its normal audit resolution procedures 
concerning these questioned costs, and is working to reconcile these 
issues and close out the grants.
    The OIG expressed concerns with our ability to evaluate the 
effectiveness of the HGJTI, with specific emphasis on products and 
results. As I described earlier today and in our written response to 
the OIG, ETA's approach has been to work closely with grantees to 
package their results for broad dissemination and to share all of the 
products that have been developed with grantees and the workforce 
system. We consider the HGJTI grants to be a wealth of learning that 
produced specific products and approaches for potential replication, 
and believe there is value in each grant's results. So, unless the 
products are clearly deficient or contain inappropriate material, such 
as a political endorsement, all products are posted online, and 
stakeholders are able to determine their value and use in the 
marketplace. However, responding to OIG's recommendation, future 
solicitations will require that grantees secure reviews of products 
developed through their grants and submit the results of this review to 
ETA to consider when sharing the product. While the OIG recommended 
that ETA evaluate all products that had been posted online to date, ETA 
does not plan to retroactively evaluate each product due to capacity 
and resource constraints. Instead, we will address this recommendation 
by posting revised and more specific disclaimer language to our 
Internet Web sites where we make these products available. Finally, 
responding to the OIG's recommendation to implement a process of 
continuous evaluation of the effectiveness of the HGJTI, ETA is 
conducting an independent evaluation of this initiative.
    The HGJTI evaluation began in July 2006. Through the evaluation, 
the Department seeks to learn more about how the projects grantees 
developed and how those projects were implemented. The evaluation will 
include a rigorous net-impact analysis of outcomes and impacts of 
training provided by specific HGJTI grantees. This evaluation is a 
three-step process. The first report, published in July 2007, 
summarized the major implementation lessons that emerged from the early 
grantees and documented the extent to which projects continued after 
the grant period ended. The second report is scheduled to be released 
in the fall of 2008 and will document the initiative and describe the 
structure and implementation of selected grantee projects. The final 
report is scheduled to be released next spring and will analyze the 
early impacts of training on participants' employment and earnings 
outcomes.
          gao report on employment and training program grants
    In May 2008, GAO released its report on employment and training 
grants under the HGJTI, CBJTG, and WIRED Initiative. The issues 
identified and recommendations made by the GAO were similar to those 
made by the OIG in their November 2007 and April 2008 reports. ETA 
submitted its detailed views on the findings and recommendations in the 
report, which are printed as an Appendix in the report. We have also 
submitted our ``Statement of Executive Action'' in response to the 
recommendations in the report, which I will be pleased to provide to 
the subcommittee. As indicated in our letters to the GAO, we did not 
agree with every conclusion in the report, but we believe the actions 
we are taking to address GAO's recommendations will help us to 
determine the impact of the three initiatives, ensure that the best 
possible projects are selected in the future, and improve 
accountability.
    The GAO recommended that the Department take steps to ensure that 
the initiatives are evaluated so that strong conclusions about their 
impact can be drawn. We agree, and intend to evaluate these programs. 
There are ongoing independent evaluations of all three efforts.
    I have already discussed the HGJTI evaluation. The CBJTG evaluation 
began this summer. The purpose of this evaluation is to develop an in-
depth understanding of key differences and similarities across CBJTG 
grantees. DOL expects an interim report in the spring of 2009 and a 
final report in the winter of 2010. We anticipate that the evaluation 
will include a survey of all grantees, and expect it to be rich with 
valuable information. ETA will be pleased to share the results of the 
CBJTG evaluations with you as they become available, and like all of 
our evaluation reports, they will be available online at 
www.doleta.gov.
    ETA currently has two evaluations of the WIRED Initiative underway. 
The first evaluation began in November 2006 and focuses on the first 
set of 13 WIRED grantees or Generation I. The second evaluation began 
in November 2007 and focuses on the 26 grantees that were awarded 
during the second and third rounds, or the Generation II and III 
regions. Both evaluations will provide a comprehensive understanding of 
the implementation and cumulative effects of WIRED strategies, 
including transformations of the regional economies and the region's 
public workforce investment systems. The Department released the first 
interim report of the WIRED Generation I evaluation in June 2008. We 
anticipate release of final reports for both of these evaluations to 
occur in 2010.
    To further support the evaluations of all three initiatives, the 
Department has also taken action to ensure the collection of consistent 
performance outcome data by requesting that all HGJTI, CBJTG, and WIRED 
grantees provide data that reflects how the programs have assisted job 
seekers in getting jobs, retaining jobs and improving earnings. These 
measures are the ``Common Measures'' utilized by ETA's employment and 
training programs. As of this summer, all HGJTI and CBJTG grantees are 
collecting and reporting outcomes against the Common Measures and all 
WIRED grantees will begin to do so.
    Like the OIG recommendation, the GAO recommended that ETA better 
document the statutory program requirements when awarding 
noncompetitive grants. ETA has modified two required forms that are 
used during the process of awarding a noncompetitive grant. These 
modifications ensure that the assigned Grant Officer and Program 
Official confirm that the proposed sole source grant is in compliance 
with relevant statutory requirements, including the requirements of the 
authorizing act that permits grant awards and the appropriations act 
from where the funds will come, and any congressional report language 
that provides further guidance or clarification of congressional 
intent.
    GAO recommended that the Department develop and implement a risk-
based monitoring approach for the WIRED Initiative and a schedule for 
its use. In response, the Department initiated monitoring reviews of 
WIRED grantees to ensure that they are complying with financial and 
administrative requirements. The reviews of WIRED Generation I grants 
will be completed by September 30, 2008, and will be followed by 
reviews of the WIRED Generation II and III grants. The monitoring 
reviews are conducted by teams of ETA staff comprised of experienced 
Regional Office and National Office staff, and the regional Federal 
Project Officers assigned to each grant. In their reviews, the teams 
are using a supplement to ETA's Core Monitoring Guide, issued on June 
2, 2008, that meets the specific needs and requirements of WIRED grants 
and includes review strategies for both the State Grantee and Regional 
Lead organizations. The Department will utilize standard procedures for 
issuance and resolution of any monitoring report issues.
    Madam Chairwoman and members of the subcommittee, I hope that the 
information I have provided is helpful and responds to your interests. 
As I have indicated, more detailed information may be found in the 
materials we have submitted. We appreciate the subcommittee's efforts, 
and those of the GAO and OIG, to ensure that the investments of the 
demand-driven workforce development initiatives are well managed, meet 
their objectives, and are cost-effective. This concludes my prepared 
testimony and at this time I would be pleased to answer any questions 
that you may have.

    Senator Murray. Thank you very much to all three of you for 
your testimony.
    During this year's Labor/HHS appropriations subcommittee, I 
asked Secretary Chao about one of the Department's five 
critical priorities in budget and policy planning, and I quote: 
``increasing the competitiveness of America's workforce.'' We 
also heard the secretary and many other administration 
officials talk about the Department's efforts to support the 
President's ``results-driven agenda.''
    Now, to me, ``results'' really implies that you are able to 
measure the impact and effectiveness of programs that are 
supported by the Department. And yet when the GAO released a 
report which finds that for almost $900 million spent under the 
President's demand-driven workforce agenda, the employment and 
training agency failed to establish any kind of benchmark that 
would allow you to adequately monitor whether all of these 
grants met the statutory requirements they were awarded under 
or, in fact, allow you to measure the performance of the 
programs that receive the funding.
    Now, I initiated this report, along with Senator Kennedy 
and Senator Enzi, after we learned that the Employment and 
Training Administration awarded 87 percent of its High-Growth 
Job Training Initiative grants noncompetitively over the last 6 
years. And I find the GAO's report's findings particularly 
troubling, given that the agency intended to use these grants 
to shift the focus of the Nation's workforce development 
system.
    Because there was very little planning by the agency on the 
front end, it is nearly impossible now to compare these 
initiatives to the other programs under Workforce Investment 
Act. And it means that proving that your initiatives are more 
successful in ``increasing the competitiveness of America's 
workforce'' is really out of the question.
    In fact, GAO found that the Department failed to even 
integrate these initiatives fully into its strategic plan. And 
in my opinion, that really fails to live up to that results-
driven agenda that we kept hearing about.
    So, I would like you--Mr. Orrell, if you could talk to us 
about how you planned to demonstrate the effectiveness of the 
President's demand-driven job agenda training for each of those 
three initiatives?
    Mr. Orrell. Thank you very much for the question.
    I would like to just start out by saying that all three of 
the initiatives are being subjected to broad and long-range 
evaluations to look at their effectiveness.
    The High-Growth Job Training Initiative is currently being 
evaluated by the Urban Institute with its partners, Johns 
Hopkins University and Capital Research Corporation. They are 
conducting a national evaluation of the high-growth initiative, 
which has two major components--an implementation analysis and 
an analysis of early incomes and impacts of training in six of 
the grant programs.
    The first report on the implementation and sustainability 
of 20 early High-Growth Job Training Initiative grants was 
released in June 2007. The second, more in-depth, 
implementation analysis was released in mid-June. And a final 
report is expected in late 2008 and will present analysis of 
the early outcomes and impacts of job training in six of the 
grant programs.
    On the Community-Based Job Training Initiative, ETA began a 
comprehensive evaluation of the community-based initiative 
beginning in July of this year.
    Senator Murray. Mr. Orrell.
    Mr. Orrell. Yes.
    Senator Murray. In six of the--you said in six of the 
programs----
    Mr. Orrell. Right.
    Senator Murray. There were----
    Mr. Orrell. It is a sample of six of the grants that were 
funded through the high growth.
    Senator Murray [continuing]. And there were over 100? There 
were over 100. So what were you going to do with the other 95-
plus?
    Mr. Orrell. We are evaluating in-depth six of the grantees, 
which is very similar, actually, to the sample that the OIG 
looked at in terms of its in-depth analysis of the high-growth 
grantees, trying to really dig deeply into those grants, figure 
out which strategies were effective in helping the American 
workers link to high-growth, high-wage industries.
    Senator Murray. Was that planned initially that you were 
only going to do six of the many, or this is an outgrowth of 
the questions the committee has been asking?
    Mr. Orrell. Let us see, this has been underway for several 
years prior to the--I believe, prior to the GAO and OIG 
investigations. It had always been planned to be evaluated.
    Senator Murray. Mr. Scott, would you like to comment on 
that at all, what you just heard?
    Mr. Scott. Madam Chair, our understanding is that the 
Department has had some trouble in terms of looking at--being 
able to only look at 6 of the 100--approximately 166 grantees 
because only the 6 grantees had sufficient participants to 
ensure statistically significant evaluation. That was based on 
the information we have received.
    Senator Murray. So, Mr. Orrell, the six that you chose, 
were those because they were the only ones that you could find 
any outcomes on?
    Mr. Orrell. That isn't my understanding of why those six 
were chosen. I think they were chosen because they would give 
us an interesting cross-section of the types of grants that 
were funded by the Department.
    With regard to the number of participants that have taken 
part in the high-growth initiative, so far, over 250,000 
American workers have either received training, completed 
training, or are in the process of being trained through our 
grantees--
    Senator Murray. How were those six picked? That is----
    Mr. Orrell. The six, I believe, were picked by the Urban 
Institute and Johns Hopkins University, who we have contracted 
to do the evaluation.
    Senator Murray. Senator Isakson.
    Senator Isakson. Thank you, Madam Chairman.
    Mr. Scott, you said 80 percent of the high-growth grants 
were noncompetitive. Is that right?
    Mr. Scott. Yes.
    Senator Isakson. Was that totally at the discretion of the 
Department to make them noncompetitive? Was there no direction 
in the legislation as to whether or not there was any 
competition?
    Mr. Scott. My understanding is the Department had the 
discretion in terms of awarding the grants noncompetitively.
    Senator Isakson. Do you know of any statutory requirement 
in general, in terms of noncompetitive grants, that exist 
today? In the existing statutory authority, granting or 
limiting noncompetitive grants by any Department. Do you know 
of any?
    Mr. Scott. I am not qualified to answer that question, sir.
    Senator Isakson. Well, neither am I, but I am going to try 
and find out the answer because that would be an interesting 
one to find the answer to.
    Mr. Lewis, at the bottom of page 6 in your printed 
testimony, after your three recommendations, there is a 
paragraph I am going to ask Mr. Orrell some questions about. 
But I wanted to know if these were your words or these were 
written by somebody else in terms of the opening statement? 
Page 6 at the last paragraph?
    While you are looking, Mr. Orrell, let me ask, these are 
the words in his report. It says, ``ETA strongly disagreed with 
our findings that they did not provide sufficient oversight.'' 
Then it goes on to say, ``Moreover, ETA stated that it does not 
have the expertise or the resources to evaluate every 
product.''
    And then it says, ``ETA further stated that ``it is not''--
and I quote--``necessary or valuable to evaluate every high-
growth deliverable before sharing it with the workforce 
system.'' And then it says, ``ETA cited that its approach was 
to let key constituents such as business and industry determine 
the value of the products it disseminated.''
    That response says that the Department doesn't think it has 
the ability or the personnel, I guess, to evaluate the 
programs. And so, it is going to determine evaluations based on 
what business and industry tell it. Am I hearing that correct?
    Mr. Orrell. Two things with regard to that. The decision--
we have all these grants out there that are producing a number 
of products, over 1,300 products so far. And they range from 
curriculums to strategies for linking workers to high-growth, 
high-wage industries. A wide variety of products are intended 
to help re-direct the broader workforce system toward the 
demands of high-growth, high-wage industries.
    Evaluation is such--if you are talking about rigorous 
evaluation, it would not be possible to put every single one of 
those products through a rigorous, scientific evaluation to 
determine its effectiveness. That doesn't mean that the 
products haven't been screened.
    What we typically look for are things that hold promise in 
terms of strategies that we think when the products come in, we 
look at the products, does it seem to hold promise for helping 
the workforce system or industry or education or the economic 
development authorities to link workers to high-wage, high-
growth jobs?
    And when we determine through that screen that they are--or 
that they do hold promise, then they are posted for the public 
to review and to make decisions about whether to use those 
products or not. I would think from a public policy, public 
trust standpoint, when we have invested this much money, it 
probably wouldn't make sense to not publish these things, but 
to put them out so that people can look at them and see what 
the public dollars are purchasing.
    Senator Isakson. OK. I understand you referenced curriculum 
as some of the grants, and I understand that an evaluation of a 
grant for curriculum would be a subjective evaluation probably 
at best. But a lot of these grants are, in fact, directly for 
training to subsequently employ people. Is that not correct?
    Mr. Orrell. They are both. The purpose of the grants----
    Senator Isakson. Some of them are specifically for that 
purpose.
    Mr. Orrell. Right. Right.
    Senator Isakson. Do you have a system in the Department now 
that you--since this doesn't have the time to make the 
evaluation, do you seek from the businesses or industries for 
whom these people are supposed to work whether or not they 
think the program has been valuable in getting them a better-
trained, qualified employee?
    Mr. Orrell. It is an interesting question. I don't know the 
answer to whether we are actually talking to the industry 
groups about the effectiveness. What we are doing is collecting 
data on entered employment, wages, and retention, which are the 
common measures, that will permit us to see how people are 
faring who have gone through these programs.
    Senator Isakson. Well, my only reason of raising the point 
is that it would seem if--were those your words, Mr. Lewis?
    Mr. Lewis. Yes. They were my words, and except where 
quoted, they had come directly from ETA's response to the draft 
report.
    Senator Isakson. My response to that is, it would seem that 
if the Department takes the position that it doesn't have the 
ability to measure the results and it seeks to get it from the 
business and industry, that it would have a system for business 
and industry to respond, to tell it whether or not it is 
getting results.
    Mr. Orrell. The head of our Office of Workforce Investment 
informs me that, yes, we talk to industry every day about 
whether they are getting the kind of employees that they need 
from these grants.
    Senator Isakson. Thank you.
    Mr. Orrell. Yes.
    Senator Murray. So you talk to them every day. Is there any 
kind of written form or evaluation or anything that comes back?
    Mr. Orrell. I don't believe there is a formal evaluation of 
that, no.
    Senator Murray. So we simply have a series of conversations 
that we are supposed to rely on?
    Mr. Orrell. We remain engaged with employers, the high-
growth, high-wage employment community to determine whether 
they are seeing the results that they would like to see in 
terms of the training provided to American workers.
    Senator Murray. Well, it is frustrating because these are 
the signature initiatives of this administration, which were 
designed to show us that there is a better way to do job 
training. And if we don't have concrete ways of showing 
taxpayers, the public and the people we represent that those 
dollars are actually making a difference, other than a series 
of conversations, we can't come back and ask for more money for 
those programs.
    Mr. Orrell. Well, as I indicated earlier, all three of the 
initiatives are subject to rigorous long-term evaluations to 
determine whether and how effective they are.
    Senator Murray. OK. Well, let me change course a little 
bit. As far as we know, the funding sources and, by 
consequence, the statutory authority for grants under these 
three initiatives haven't been made public. We have, however, 
received a helpful Excel chart of the sources provided by ETA 
to CRS during some of their investigatory work.
    So, in the interest of transparency, will you commit to 
making those funding sources public, so that we and the public 
can gain a clear understanding of the statutory requirements 
attached to the funds that you do award?
    Mr. Orrell. As far as I know, those--all of our financial 
transactions within the agency are already public. But if there 
is additional data the committee would like or CRS or any 
other--IG or GAO, we would be happy to provide it.
    Senator Murray. So you will provide us with a copy of that?
    Mr. Orrell. Yes.
    Senator Murray. You mentioned the Calhoun Community College 
CBJTG program on page 6 of your written testimony. ETA's 
October 19, 2005, press announcement for the grant states the 
grant award was for $2.5 million, with an additional $4.6 
million of leveraged resources brought to the project by eight 
employer partners, three education partners, and one workforce 
partner, for a total project of over $7 million.
    How many years of performance will the $2.5 million Federal 
investment support?
    Mr. Orrell. Two to three years typically on these grants.
    Senator Murray. Two to three years. Could you describe the 
nature of the $4.6 million in leveraged resources that is 
referenced?
    Mr. Orrell. I don't have the details in front of me, but I 
would be happy to find that and provide them to you.
    [The information requested can be found in Additional 
Material under Senator Murray's question 4b.]
    Senator Murray. If you could provide them to the committee?
    Can you tell us what was the role of the Federal 
contribution to the project? What did Federal money provide 
that private money couldn't provide?
    Mr. Orrell. Typically in these grants, and with most 
grants, the applicants lay out a strategy and a program for 
training workers. They bring their partnerships to the table to 
enable the training of workers for demand-driven occupations or 
high-growth occupations.
    The resources that the grantee brings come in both cash and 
in-kind resources. They frequently put up--in many of these 
grants, they put up their own dollars as well as bring to the 
table other resources, partnerships, and their previous 
investment in the training that they've made as a form of 
matching resources.
    Senator Murray. On this project in particular?
    Mr. Orrell. Again, I will have to get the details for you.
    Senator Murray. Can you share with the committee which 
partners actually received the Federal money, and when the 
grant is over, are they going to be able to sustain the 
project?
    Mr. Orrell. With all of the grants, across all three 
initiatives, very heavy emphasis is placed on sustainability, 
working with the grantees to make sure that when the Federal 
dollars are done, the project can continue without Federal 
support.
    Senator Murray. Can you share with the committee which of 
these partners actually received the Federal dollars?
    Mr. Orrell. Yes.
    Senator Murray. And you can get that to our committee?
    Mr. Orrell. Yes.
    Senator Murray. OK. And can you tell us how many healthcare 
workers will be in the Alabama workforce as the result of a 
$2.5 million Federal investment?
    Mr. Orrell. Don't have it here. I am sorry.
    [The information requested can be found in Additional 
Material under Senator Murray's question 4e.]
    Senator Murray. OK, and I understand that. But I would 
appreciate a written response for the record.
    Let me go back, Mr. Orrell, you said that the projects and 
products from high-growth grants went through what you call the 
screening process even though they were not evaluated. Can you 
describe for us what that screening process is?
    Mr. Orrell. As these deliverables are provided to the 
Department, our Office of Workforce Investment, which oversees 
all activities related to the High-Growth and Community-Based 
Job Training Initiatives, will look at those products, the 
curriculums, the strategies, the efforts to link workers to 
high-growth, high-wage industries. So that it comes in a 
variety of different forms.
    Different deliverables will be evaluated by content 
knowledge experts within the Department, and a decision will be 
made in looking--reading through those whether or not the 
practices that are outlined in them show promise.
    Senator Murray. Is this a written screening process? Does 
anybody supplying know what they are going to be screened on 
once they apply for Federal dollars?
    Mr. Orrell. Again, the threshold here isn't a sort of 
formal ``can you demonstrate in hard numbers whether this 
strategy provided absolute assurances of success? '' It is more 
of looking at it, seeing whether it looks promising. If it does 
look promising, then it is made available to the public.
    Senator Murray. And if there is no evaluation at the end, 
how do we know?
    Mr. Orrell. For the high-growth initiative, well, I think 
there are two ways of knowing. For instance, in the instance of 
the SEIU grant that we made for the training of LPNs, the SEIU 
has decided, based on what it regarded as the success of its 
grant, to go ahead and replicate those activities with its own 
funding.
    In my view, that is probably the highest endorsement of 
success that there is, when people are willing to take the 
products that come off of these grants and then go out and use 
them with their own funds without any Federal support. So that 
is one way of measuring whether something is successful or not.
    In broader terms, the products that are being put out there 
off of the high-growth initiative and the community-based 
initiative, I think that it is really a question of whether 
those products are seen as having sufficient value by the 
Workforce Investment Act system, other training entities, and 
educational entities. Whether those products get picked up and 
used, that is going to be one of our key indicators as to 
whether it is valuable to the people who have to, on a daily 
basis, engage American workers in preparing them for future 
employment.
    Senator Murray. Mr. Lewis or Mr. Scott, could you comment 
on that kind of evaluation and how reliable it is?
    Mr. Lewis. Sure, certainly. Going back to the example that 
was raised with the SEIU grant, we really--with something like 
that, we couldn't evaluate how good that success was. Yes, 
there was some performance under the grant. Our concern was 
that, relatively, we didn't know how good that was compared to 
other potential grants.
    Knowing that there were other proposals that weren't 
funded, I would say regardless of what was achieved under that 
grant or any of the others, we don't know if we left even 
better potential on the table because we picked that grant over 
another.
    Senator Murray. Mr. Scott.
    Mr. Scott. One of the issues, one of the concerns we 
continue to have with the Department of Labor's efforts here is 
that while clearly they are taking steps to evaluate some of 
the initiatives, at the end of the day, it is important that 
these evaluations include an assessment of impact. At the end 
of the day, we need to be assured that the investment of funds 
is actually resulting in the outcomes and providing us the 
information we need to assess to what extent, if at all, we 
should continue to fund some of these initiatives.
    So while we certainly acknowledge the Department of Labor 
is taking steps to assess the initiatives, we also believe that 
it is important to include those impact evaluations so that, at 
the end of the day, policymakers have the information they need 
to determine how best to proceed in changing the workforce 
system.
    Senator Murray. Senator Isakson.
    Senator Isakson. Madam Chairman, unfortunately, I have to 
go to another committee. So I am not going to ask any further 
questions.
    But I want to thank our witnesses for being here today and 
thank you for calling the meeting.
    Senator Murray. Absolutely. Thank you very much, Senator 
Isakson. I appreciate it.
    And I will have questions that I will submit for the record 
as well this morning. But, Mr. Orrell, let me go back to you 
again. You just heard that it is important to have impact 
evaluations. Can you comment on that?
    Mr. Orrell. We do have a net impact evaluation going on in 
the High-Growth Job Training Initiative. That report will be 
available some time between now and the end of the year. It 
is----
    Senator Murray. Due on the end of this year, are we talking 
about?
    Mr. Orrell. End of 2008, yes.
    The other thing, the other point I neglected to mention was 
that for future high-growth initiatives, in order to respond as 
fully possible as we could to the OIG and the GAO around these 
issues, we have included in the requirement for grantees that 
they have to have a contract with an outside content subject 
matter expert to evaluate the products that they are producing 
so that we do have at least a glimpse, a picture from an 
outside evaluator on each of the products that our high-growth 
initiatives are producing.
    Senator Murray. OK. I am trying to understand how this 
happened. We have a responsibility to make sure there is an 
evaluation so that we can make sure taxpayer dollars are used 
wisely. And data provided by ETA to CRS show that at least 19 
of the high-growth noncompetitive grants were fully or 
partially funded from Wagner-Peyser Act funds at a sum of about 
$17 million.
    Now this was also noted by the inspector general that these 
funds seemed to have been awarded from an authority relating to 
labor market information. Now, unfortunately, none of the ETA's 
documentation on the program--press releases, budget 
justifications--include any reference to the source of those 
funds. So could you describe for the committee the 
justification for the use of those funds for the high-growth 
grants?
    Mr. Orrell. I think I would be venturing into an area that 
I couldn't speak authoritatively about just because I wasn't 
here in this position when those decisions were made back in 
early 2000s. But I would be happy to research it and get it 
back to you.
    Senator Murray. If you could please do that and get it back 
in written comment to the committee?
    Mr. Orrell. Yes.
    [The information requested can be found in Additional 
Material under Senator Murray's question 15.]
    Senator Murray. In your written testimony on page 8, it 
states that:

          ``ETA chose to award the first round of high-growth 
        investments noncompetitively for one very important 
        reason. It allowed us to identify the most innovative 
        solutions that were directly tied to the specific 
        workforce challenges that industry identify.''

    You further state that there was a ``comprehensive review 
process internal to ETA to evaluate unsolicited proposals that 
emerged from the overall consultation process.''
    I have a couple questions about that. Do you consider 133 
noncompetitive grants totaling $235 million and spanning 6 
years to be a first round?
    Mr. Orrell. I am sorry. Say that----
    Senator Murray. To be first round?
    Mr. Orrell. I believe that is--that is the first round in 
each industry sector.
    Senator Murray. I am sorry. I don't understand what you 
mean.
    Mr. Orrell. That was the first----
    Senator Murray. There are 133 grants. It's $235 million, 
spans 6 years. Is that the first round? I am confused by what 
you are saying that this is how you are looking at the first 
round. What is the second round, if that is the first round?
    Mr. Orrell. I am not quite clear either, Madam Chairman. 
ETA funded these grants, 133----
    Senator Murray. Noncompetitive.
    Mr. Orrell. Noncompetitive grants in the first round. The 
purpose of doing that was that it was clear--I think--my 
understanding is when the administration came in, it was really 
looking at the skills gap between where American workers were 
and their skill levels and the needs of industry, there was a 
big skills gap there. And there was an effort to jump start 
this process of reorienting our Workforce Investment Act 
system.
    When I look at these grants, I look at them as kind of 
steering grants, trying to steer the system in closer alignment 
with the demand in high-wage, high-growth, industries that we 
have in this country.
    I can tell you that from my experience in the last 6 months 
of being in this job, even in the current economic times, we 
are dealing with employers across all of these high-demand, 
high-growth industries that need people now. And these grants 
were an effort to begin to equip workers now for jobs that 
currently exist and will exist in the future.
    Senator Murray. Well, I think the more specific question 
that would help us understand what you have done here is if you 
can explain to us why a noncompetitive process would identify 
more innovative projects than a competitive process?
    Mr. Orrell. Again, my understanding of how this process 
rolled out was, first, there were a series of forums with 
industry executives to try to get a handle on where the needs 
were in terms of openings in those high-growth industries, 
across 14 different sectors of high-growth industries.
    Senator Murray. And you don't think a competitive process 
would have gotten you----
    Mr. Orrell. I think, as I said, the effort was really 
focused on getting as quick a start as we could on the problem 
because we knew, based on what we were hearing from industry, 
that the demands were present in 2001, 2002, just as they are 
currently. These industries are still in need of people with 
the right skills in order to get those jobs.
    Senator Murray. Well, both the inspector general and the 
GAO found no documentation that you evaluated the proposals and 
stated that ``the ETA could not identify any ways in which the 
grants had the most innovative solutions or that they were 
measured against any industry-identified criteria.''
    So could you explain how your comprehensive review process 
that is apparently internal to ETA----
    Mr. Orrell. Right.
    Senator Murray [continuing] Was able to accomplish such an 
evaluation without leaving any documentation?
    Mr. Orrell. The review process had three different levels. 
First was a technical review, which is looking at, ``do we 
think the grant can actually achieve what it says it wants to 
achieve?'' The second was a peer review. Does this make sense? 
Does it fit within the goals that we had to equip workers for 
jobs that were currently available? And then finally was the 
review process through the Procurement Review Board that 
examines noncompetitive awards.
    So each one of these grants passed through all three of 
those gates before it was awarded. And my understanding of what 
I have read and understand from the GAO and OIG, there has 
never been a question about whether we have the authority to 
make these on a noncompetitive basis or whether we violated any 
authority in that regard. The question has been did we 
adequately document the process that we used?
    That is what we have been working to correct with the GAO 
and the OIG is making sure that we have the documentation in 
place to show that all of the steps were appropriately 
followed.
    Senator Murray. OK. Well, you stated that your goal is to 
close the skill gaps.
    Mr. Orrell. That is correct.
    Senator Murray. Which we all believe. But how do you show 
that if these noncompetitive grants were never evaluated? 
Particularly when you use pilot demonstration funds, it seems 
important that you show the purpose was actually accomplished?
    Mr. Orrell. As I said earlier in our conversation, the 
high-growth initiative, the community-based initiative, and the 
WIRED initiative are all subject to evaluation to tell us what 
degree they were successful.
    Senator Murray. Mr. Lewis or Mr. Scott, would you care to 
make any comments at this point?
    Mr. Lewis. Well, in terms of the IG's report, we did note 
that there is not an absolute requirement that every grant 
award be done competitively. We did acknowledge that it is 
permissible in circumstances to have noncompetitive awards. 
However, we do note that the preference is to do them 
competitively.
    So we are concerned that with demonstration grants in 
particular that we have done the best to look for the best 
awards to make and that that can be best done by comparing one 
award to another. And where we did have documentation of ETA's 
process, the comparison was of the award to itself, not to 
other awards or other proposals.
    Senator Murray. OK. Mr. Scott.
    Mr. Scott. Madam Chair, just a couple of comments.
    First, as we state in our written testimony, it is our view 
that while clearly the Department had the discretion to award 
these grants noncompetitively under those circumstances, 
ultimately, we believe that competition actually facilitates 
accountability, promotes fairness and openness, and increases 
the assurances that grantees have the system in place to meet 
grants. So that is sort of a bottom line sort of baseline for 
which I think the Department needs to consider--should consider 
as it goes forward.
    Second, some of the concerns we had was that given that 
these high-growth grants were initially awarded 
noncompetitively, that made it even more important that the 
Department adequately document the decision steps along the way 
so that it could provide transparency to the process. And given 
the fact that there were circumstances where they could not 
provide us the documents that we needed to assess that, I think 
that raises questions.
    And finally, on this point of evaluation, while clearly the 
Department is taking steps to evaluate some of these grantees, 
we continue to believe that evaluating is one step, but 
actually being able to assess the impact--at the end of the 
day, what are these dollars buying us--is another step that at 
this point it doesn't appear that the Department, other than on 
a limited basis on some of the high-growth grants, will be able 
to achieve. And so, that continues to be a concern for us.
    Senator Murray. OK. I think I heard Mr. Orrell say just a 
minute ago that all of the noncompetitive grants were reviewed 
by the Procurement Review Board internal to Labor.
    Mr. Scott or Mr. Lewis, is that consistent with your 
findings?
    Mr. Lewis. In our report, we noted a number that should 
have gone to the Procurement Review Board but did not go.
    Senator Murray. So----
    Mr. Orrell. It is a matter of ongoing disagreement--
actually not between ETA and the OIG, but really between the 
OIG and the Office of the Solicitor at the U.S. Department of 
Labor--as to whether a small number of these grants, fewer than 
10, should have gone to the PRB or not. Three of them were 
under the procurement threshold of $100,000. Sole-source grants 
of less than $100,000 do not have to go through the PRB.
    The second area is really the technical one, where we have 
got disagreement between the OIG and our solicitor's office as 
to whether grants made to local Workforce Investment Act system 
entities--workforce boards, State workforce agencies--qualify 
as Government entities. Under the Department's rules, grants 
going to Government entities can go on a sole-source basis 
without going through the PRB.
    Senator Murray. Is that correct, Mr. Lewis?
    Mr. Lewis. That is correct.
    Senator Murray. OK. Mr. Orrell, I want to go back to what I 
was just talking to you about earlier, because I am still 
puzzled by your statement that all of these grants were part of 
a first round of funding that span 6 or more years, and 
millions of dollars. Was there never an opportunity earlier for 
the Department to go to a competitive process?
    Mr. Orrell. The competitive processes for the high-growth 
initiative started in 2004. The first grants under--the 
noncompetitive grants were awarded in 2003. So we moved rather 
quickly--is that right? A little bit earlier than 2003?
    Oh, OK. So the 2002, 2003 grants were noncompetitive. We 
moved into a competitive format for the high-growth initiative 
in 2004.
    Senator Murray. How many were awarded then?
    Mr. Orrell. Oh, let us see. No, but how many? Yes, we will 
have to look it up.
    Senator Murray. You will have to get back to us, OK.
    Well, I have a number of other questions as well. And 
clearly, this is a busy time on Capitol Hill with a lot going 
on, and my Ranking Member already had to leave.
    I am going to submit these questions to the record, and I 
would like all of your responses back as quickly as possible. I 
particularly appreciate all of you taking time out of your 
schedules today.
    I do think that the overall intent of Congress and 
certainly of the reports that we have gotten is that we have to 
be held accountable for taxpayer dollars. We need to know where 
our dollars actually go to work. That is why Congress has been 
interested in this issue and previously issued directives 
without that, we can't go back and ask, in very tight budget 
times, for additional funds.
    Workforce training is extremely important. Closing the 
skills gap is important. We agree with the DOL on that. But if 
we can't show that the money is working, we are not going to 
get additional money, and we can't prove to the taxpayers that 
we are doing the right thing. That is why this committee is 
interested in this issue.
    Thank you very much to all of you for your testimony, and 
with that, we will adjourn for the day.
    Thank you.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Senator Brown

    Thank you, Madam Chair.
    I appreciate your solid leadership on workforce issues and 
your decision to conduct this oversight hearing.
    And I'd like to thank our witnesses for sharing their 
insights with us this morning.
    Our Nation's economic prospects hinge on the capabilities 
of our workforce. That's the bottom line. If we are not 
investing as we should in workforce development, we are 
constructing a poor foundation for our Nation's future. That's 
a fact.
    And that's why this hearing is so important. That's why the 
Department of Labor's demand-driven workforce initiatives 
deserve the attention of this committee.
    Since early 2007, I have held more than 100 roundtables 
around Ohio. One recurring theme--from workers and employers, 
business and labor, teachers and school administrators--is that 
we need to do a better job connecting workers to work.
    That not only means creating linkages between employers and 
potential employees, it means helping to equip workers with the 
skills necessary to take on new jobs in emerging industries.
    I think everyone here today understands the importance of 
good workforce training programs. We understand the role good 
workforce policy can play in developing the skilled workers 
needed, especially for in-demand industries. We also know that 
good workforce policy is a tool for regional economic 
development.
    As we consider where we are today and where we should be 
going forward when it comes to workforce policy, some 
fundamental questions come to mind:
    How do we ensure taxpayer dollars are used effectively and 
efficiently? How do we ensure accountability? How do we see 
that grants are awarded competitively? What are the defined 
goals and benchmarks policymakers and lawmakers should strive 
for? What data will help us compare outcomes for grant-funded 
training programs against other federally funded workforce 
training initiatives around the country?
    There have been problems with the Labor Department's 
execution of training grants programs. These are well 
documented by the Government Accountability Office (GAO), the 
Office of Inspector General (OIG) and Congressional Research 
Service (CRS).
    We know that High Growth Job Training Initiative (HGJTI) 
grants were awarded through a noncompetitive process. Between 
May 2002 and December 2006, nearly $287 million was awarded for 
the HGJTI grants, 90 percent of which was awarded non-
competitively.
    These are now awarded competitively.
    We know that there has been little monitoring of the WIRED 
programs, and I hope to hear today how the Department has 
corrected that process.
    I believe we need to learn from mistakes and mismanagement, 
and make sure federally funded training programs work as they 
should. I believe Congress has a responsibility to authorize 
these programs to ensure taxpayer dollars are being invested in 
them wisely, to the benefit of workers, employers, and the U.S. 
economy.
    In July, I introduced with Senator Olympia Snowe the 
Strengthening Employment Clusters to Organize Regional Success, 
or SECTORS Act.
    The bill focuses on targeted training, with multiple 
stakeholders in the same industry.
    The legislation focuses on effective skills training, but 
also emphasizes program integrity. It includes provisions to 
ensure training programs can be sustained beyond the Federal 
investment and builds in rigorous evaluation so lawmakers and 
policymakers know how tax dollars are being spent.
    I hope that the lessons learned at the Labor Department 
will help Congress to promote best practices and bypass 
pitfalls as we explore innovative skills training programs for 
the 21st century economy.
    Thank you, Madam Chair.
 Responses to Questions of Senators Murray and Brown by Brent R. Orrell
                             senator murray
    Question 1. It seems that any pilot/demo would require extra care 
in describing measurable objectives (what are you piloting?; what will 
you demonstrate?). It also seems that any noncompetitive grant would 
require extra care to show that the money was awarded appropriately 
(are there conflicts of interest?; are these the best providers?). This 
program started as both a pilot and a noncompetitive program, but it 
seems less care was taken than would be warranted even for a regular, 
competitive grant program. Since these grants are BOTH pilots/demos AND 
noncompetitive, wouldn't they necessarily warrant extra scrutiny and 
clear documentation?
    Answer 1. ETA adhered to generally applicable Federal requirements 
and met the Department of Labor's policies and procedures governing 
non-competitive awards when making grants under the High Growth Job 
Training Initiative (HGJTI). As part of those processes, ETA has a 
significant amount of documentation of the grant making process for the 
HGJTI grants that actually exceeded prior practices in ETA related to 
decisions to award non-competitive grants. ETA has now enhanced our 
documentation in response to the Inspector General's report (Report 
#02-08-201-03-390). Specifically, ETA has new processes in place for 
every phase of the review of unsolicited proposals and for making non-
competitive grants. The processes have been issued in an ETA policy 
directive and include, but are not limited to, justification for non-
competitive award, documentation of statutory authority, and rationale 
for the decision to fund. In addition, ETA has provided training on 
these enhanced procedures to relevant ETA staff.

    Question 2. Your testimony states (p. 2) there are 105,000 
completers and 65,000 current participants in HGJTI, costing nearly 
$300 million, which is a Federal cost per participant of nearly $1,800. 
This amount is remarkably lower than the cost per participant rates for 
WIA programs that are listed on page TES-31 of the fiscal year 2009 
budget justifications. Are HG students receiving training at the same 
intensity and duration as WIA programs? If so, what has been 
demonstrated in the 7 years of the programs as to how the initiative 
was able to achieve this level of efficiency?
    Answer 2. ETA has not conducted studies to compare the intensity 
and duration of training provided under the HGJTI and the Workforce 
Investment Act (WIA), or to compare the cost per participant in HGJTI 
grants and WIA. HGJTI grants are a set of demonstrations and do not 
necessarily have the characteristics of a formula-funded program. The 
training solutions demonstrated in these grants vary widely ranging 
from fast-track construction training that was utilized in response to 
Hurricane Katrina, to on-site training for incumbent workers to upgrade 
skills, to more intensive, longer term training.

    Question 3a. Similarly, on page 2, the testimony states that CBJTG 
has 25,000 completers, 80,000 participants, and costs of $375 million--
or Federal cost per participant of nearly $3,600. However, page TES-31 
of the fiscal year 2009 budget justifications state that the target 
cost per participant for CBJTG is $2,500. Why the difference?
    Answer 3a. The projected cost of $2,500 is a projection based on 
the calculation of funding divided by the projected number of 
individuals to be trained over the life of the grant.
    The calculation of $3,600 as the cost per participant as framed in 
the question is misleading in the context of the Community Based Job 
Training Grants (CBJTG) program which has two purposes: the first is to 
build the capacity of the community college to do training in high 
growth industry sectors, which ultimately enables the college to train 
many more students than those funded by the grant; and second, to 
actually do training. The portion of the grant used to build capacity 
will benefit future students in addition to those who have already 
participated or are currently participating in the program. Therefore, 
the ``cost per participant'' based upon the number to date appears 
higher than it would be if future students were considered in the 
calculation.

    Question 3b. If other measurable outcomes in addition to students 
trained is desired (e.g., curricular products, infrastructure 
capacity), then how is this comparable to other Federal programs?
    Answer 3b. The CBJTG was not intended to be comparable to other 
Federal programs. The goals were to build the capacity of community 
colleges to train individuals for careers in high-growth, high-demand 
industries in the local and/or regional economies and to actually train 
more workers in those industries to meet the demand.
    CBJTG grantees report both qualitative and quantitative outcomes. 
CBJTG grantees have provided narrative reports on a quarterly basis to 
ETA from their inception. These reports include updates on capacity 
building activities as well as progress made regarding the common 
performance measures. ETA has been issued a control number by the 
Office of Management and Budget (OMB) for the use of a standardized 
data collection form, and CBJTG and HGJTI grantees have been required 
to use that form as of July 2008. Through this system, ETA will now be 
able to calculate outcomes regarding the common measures on behalf of 
grantees through the Wage Record Interchange System.

    Question 4a. Your testimony cites (p. 6) the Calhoun Community 
College CBJTG program. ETA's October 19, 2005 press announcement for 
this grant states the grant award was for $2.5 million with an 
additional $4.6 million of leveraged resources brought to the project 
by 8 employer-partners, 3-education partners, and 1 workforce partner--
for a total project of over $7 million. How many years of performance 
will the $2.5 million Federal investment support?
    Answer 4a. This grant had an original period of performance from 
November 1, 2005-July 31, 2008. This grantee requested and was approved 
a 1 year extension until July 31, 2009.

    Question 4b. Could you describe the nature of the $4.6 million in 
leveraged resources?
    Answer 4b. Sources of leveraged funding for Project AHEAD include 
WIA Individual Training Account Vouchers, Tuition Assistance from 
regional employers and in-kind salaries and facilities from partnering 
community colleges. To date, $3,698,964 has been documented in 
leveraged funding and the grantee expects to meet the planned leverage 
of $4.6 million during the last 8 months of the project. The breakdown 
of leveraged resources is outlined in the table below.


------------------------------------------------------------------------
                                                              Leveraged
               Source                      Description        amount to
                                                                 date
------------------------------------------------------------------------
Calhoun Community College..........  Nursing, Surg-Tech,      $1,966,628
                                      CLT Program salaries,
                                      benefits, and
                                      facility usage.
Central Alabama Community College..  Nursing faculty and        $747,280
                                      supporting salaries/
                                      benefits and facility
                                      usage.
Southern Union Community College...  Radiography and            $389,319
                                      Nursing faculty and
                                      supporting salaries/
                                      benefits and facility
                                      usage.
Wallace State Community College....  Radiography and            $189,030
                                      Nursing faculty and
                                      supporting salaries/
                                      benefits and facility
                                      usage.
NW Shoals Community College........  Surg-Tech facility           $2,080
                                      salaries/benefits and
                                      facility usage.
Decatur General Hospital...........  Health Career Camp         $254,422
Huntsville Hospital................   Sponsorships.
Coffee Health Group................  Personnel Costs for
Crestwood Hospital.................   Clinical Phlebotomy.
Athens-Limestone Hospital..........  Supervisors...........
East Alabama Medical Center........  Personnel Costs for
                                      Nursing Preceptors.
                                     Personnel Costs for
                                      CLT Preceptors.
                                       ....................
WIA (U.S. Department of Labor).....  Individual Training         $54,437
                                      Accounts for student
                                      participants in
                                      Project AHEAD.
Decatur General Hospital...........  Employer Tuition/           $29,077
Huntsville Hospital................   Scholarships for
Coffee Health Group................   Project AHEAD
Crestwood Hospital.................   participants.
Athens-Limestone Hospital..........
East Alabama Medical Center........
U.S. Department of Education.......  Pell Grants...........      $66,691
                                    ------------------------------------
  Total............................    ....................   $3,698,964
------------------------------------------------------------------------


    Question 4c. What was the role of the Federal contribution to the 
project--what did Federal money provide that private sources could not?
    Answer 4c. Community colleges are frequently challenged with 
finding funding to quickly and effectively align programs with evolving 
demands of the job market. While some community colleges have been 
entrepreneurial and partnered with the private sector to support new 
programming, these contributions may not be sufficient to fund 
expensive training equipment required in technology-driven industries 
like healthcare.
    In this specific grant, the budget is allocated as follows.


------------------------------------------------------------------------
                                                                Approved
                                                                 budget
                           Category                                [In
                                                                percent]
------------------------------------------------------------------------
Personnel.....................................................       32%
Fringe........................................................       6
Travel........................................................       1
Equipment.....................................................      36
Supplies......................................................       7
Contractual...................................................       4
Other.........................................................       9
Indirect......................................................       5
                                                               ---------
  Total.......................................................      100%
------------------------------------------------------------------------


    Question 4d. Which partners actually received the Federal money? 
When the grant is over, will they be able to sustain the project?
    Answer 4d. Community college partners that received the grant 
funds:

    <bullet> Calhoun Community College;
    <bullet> Southern Union State Community College;
    <bullet> Central Alabama Community College; and
    <bullet> Wallace State Community College.

    According to the grantee, since this project builds on existing 
programs and shared resources through distance learning formats, these 
programs will continue after grant funding expires. The grantee 
attributes the fact that all partnering colleges have been able to 
increase their enrollments in nursing, radiography, and other allied 
health professions to Departmental funding. As the demand for 
healthcare workers continues to increase, the colleges will be able to 
rely on enrollment in the program(s) to maintain the equipment and 
personnel beyond the grant cycle.
    ETA has promoted the importance of both partnerships and leveraged 
resources through its solicitations and through technical assistance 
provided to these grantees. The public workforce system, employer, 
education, and community-based partners represent expertise and 
resources that are essential to the successful implementation of the 
grant and its longer-term sustainability. ETA has helped grantees learn 
and exchange with one another ideas for building and maintaining these 
partnerships in order to sustain grant activities beyond the grant.

    Question 4e. How many more healthcare workers will be in the 
Alabama workforce as a result of this $2.5 million Federal investment?
    Answer 4e. This grant will have a substantial impact on the 
healthcare workforce in Alabama both during the grant, and after the 
grant ends. There are currently 443 students enrolled in Project AHEAD 
Programs. To date, 150 students have successfully completed their 
training activities and are eligible for certification or degree. Based 
on current enrollment, the grantee estimates that 75 percent of these 
students will complete their program of study, so it's projected that 
332 healthcare workers will be employed in the Alabama workforce as a 
result of this grant.
    Further, some of the grant activities help to increase the capacity 
of the community colleges and will also impact the future healthcare 
workforce in Alabama. For example, by the end of the grant period (July 
31, 2009), it is expected that the activities will have affected:

    <bullet> 4,931 secondary students through career awareness 
programs;
    <bullet> 180 students/year in early career awareness/job shadowing 
activities at camps;
    <bullet> 27 hospitals and long-term care facilities in clinical 
site experiences;
    <bullet> 222 secondary teachers, counselors and administrators 
through training sessions;
    <bullet> 412 instructors in the Alabama community college system 
through training sessions; and
    <bullet> 201 existing healthcare professionals through continuing 
education courses each year.

    Finally, though grant funding for Project AHEAD will conclude on 
July 31, 2009, the broader impacts of the grant will continue for many 
years. For example, many of the over 5,000 high school students who 
have been reached through career awareness programs funded by Project 
AHEAD will pursue education and training in health careers. Due to the 
tremendous response from high school students to the summer Health 
Career Camps, Calhoun Community College will continue to offer these 
camps with the help of community partners. The Delayed Progression 
Nursing Program curriculum is available to all 26 community colleges 
comprising the Alabama Community College System. Enrollment in the 
Delayed Progression Nursing Program continues to grow because it allows 
students to ``keep their day jobs'' and achieve their dream of becoming 
a nurse. Through distance education equipment purchased by grant funds, 
students in rural areas now have access to healthcare programs and can 
meet workforce needs in their regions. This also reduced high start-up 
costs for community colleges by sharing resources. Through Project 
AHEAD, the College has expanded the network of clinical sites in the 
region. Calhoun will continue to work with these partners to develop 
healthcare programs in emerging technologies based on local employer 
demands. Continuing Education/Professional Development for healthcare 
workers in traditional and alternative formats was very successful. The 
College will continue to work through local employers to increase these 
offerings. Due to the success of and student demand for a flexible 
access to online education, LPNs will have the opportunity to pursue RN 
training through an online Bridge Program developed through grant 
funds. The College has approval from the Alabama Board of Nursing to 
pilot this program.

    Question 5. Your testimony states (p. 3) that WIRED ``emphasize[s] 
the critical linkages between workforce and economic development'' and 
promotes ``strong collaboration between the public workforce investment 
system and other strategic partners.'' If these linkages are both 
``critical'' and ``strong''--then why were local workforce boards not 
partners in these grants until the third round solicitation?
    Answer 5. The Workforce Innovation in Regional Economic Development 
(WIRED) initiative is another important step in the evolution of the 
demand-driven approach to reshape the public workforce system to be 
relevant in the 21st century economy. At each phase of this evolution--
HGJTI, CBJTG, and WIRED--the Department consistently conveyed the 
message that the public workforce system, particularly the employer-
driven workforce investment boards (WIBs), were essential members of 
strategic partnerships and should serve as a catalyst within their 
communities to bring other partners to the table.
    The WIRED initiative was intended to promote the development of 
regional economies that do not typically correspond to political 
jurisdictions such as State, county, and local workforce areas. The 
Department did not mandate WIBs as partners in the first WIRED 
Solicitation for Grant Applications (SGA) in order to find and attract 
partnerships that were already working toward a regional approach, 
which may not have included WIBs. However, the Department always 
expected that WIBs would be an essential component of the WIRED 
initiative, and that the membership on WIBs should represent the key 
leadership necessary to implement regionally driven activities. It 
should also be noted that the required applicants were the Governors of 
the States involved, who are the heads of the State workforce 
development system. Each WIRED region has ETA leads assigned to work in 
partnership with the region to achieve their goals. The ETA Leads for 
Generations I and II regions have worked to ensure that the workforce 
system is a strong partner at the table, and these partnerships have 
strengthened over time. The second SGA, which awarded the third round 
of grants, mandated the workforce system's role and clarified the 
importance of WIBs' involvement within the WIRED framework.

    Question 6a. On Page 4, the testimony states that ``ETA is tracking 
1,300 workforce solutions'' and states on page 5 that ETA distributed a 
catalogue of over 300 workforce solutions to over 3,000 conference 
guests. Despite this large dissemination, in ETA's response to the OIG 
audit, the Department stated that regular scrutiny of all HGJTI 
products would not be ``necessary or valuable.'' ETA also stated in 
response to the OIG that the agency lacked expertise to assess what 
grantees were developing; then, page 11 of your testimony describes a 
process of requiring grantees to secure reviews of products and share 
results with ETA. Does ETA now consider reviewing products to be 
``necessary and valuable'' and will it now only disseminate products 
that have been reviewed?
    Answer 6a. ETA continues to believe that the intended audience for 
these products has the expertise and is able to identify their value 
and use them appropriately. However, ETA has always considered 
screening of products to be important and has developed a comprehensive 
set of standard operating procedures and trained staff in verifying, 
cataloging, reviewing, and disseminating products to ensure that 
products disseminated are not clearly deficient and do not contain 
inappropriate material. These procedures enable ETA to manage the large 
volume of products created by the grantees. Products are not released 
until they have been reviewed in accordance with these procedures. ETA 
has explained to the IG that a complete evaluation of every product is 
not feasible due to resource constraints, and that the approach taken 
allows the key constituents to access the products and decide their 
value.

    Question 6b. Will there be any independent assessment of the 
grantee-secured reviews of their own products?
    Answer 6b. In future SGAs, ETA will require grantees to provide 
evidence of an independent review by subject matter experts of the 
deliverables produced through the grant activity using grant funds. The 
applicant must provide ETA with the results of the review and the 
qualifications of the reviewer(s) at the time the deliverable is 
provided to ETA. This process will provide additional and valuable 
information to ETA as part of its standard operating procedure for 
product collection, screening, and cataloging. ETA does not plan any 
independent assessment of the grantee-secured reviews.

    Question 7a. On page 10, the testimony states that a new process 
will ensure all grantee deliverables are actually provided to ETA. In 
response to the OIG, however, ETA asserted the inappropriateness of 
receiving some grantee products, arguing that these products are 
proprietary.
    Answer 7a. ETA does not fund the development of proprietary 
products. ETA does maintain the right of distribution of all products 
developed with grant funds in accordance with the Uniform 
Administrative Requirements (Specifically, 29 CFR Part 97 for State/
Local Governments and Indian; or, 29 CFR Part 95 for Institutions of 
Higher Education, Hospitals and other Non-Profit Organizations and 
Commercial Organizations, as appropriate). All grantees are made aware 
of this requirement through training and the requirement is further 
specifically addressed in the Special Clauses and Conditions to the 
Grant Agreement, signed by each grantee as a condition of receiving 
Federal funds.

    Question 7b. Has ETA changed its policy to now require it receive 
all products or could you describe the circumstances under which 
products would not be provided to ETA?
    Answer 7b. ETA has not changed its intellectual property policy. 
With respect to ownership and rights in such property, ETA is governed 
by the intellectual property provisions contained in the Uniform 
Administrative Requirements (29 CFR, Part 97) and in 29 CFR Part 95. 
Such provisions generally provide that ETA reserves a royalty-free, 
nonexclusive, and irrevocable license to reproduce, publish or 
otherwise use and authorize others to use for Federal purposes, the 
copyright in any materials developed under a grant. In accordance with 
these regulations, ETA requires that grantees using ETA grant funds for 
the development of copyrighted materials allow ETA to distribute such 
materials.

    Question 7c. When does ETA believe it is appropriate for the 
Federal Government to fund proprietary products, even from pilot and 
demonstration funds, that cannot be distributed?
    Answer 7c. ETA does not believe it is appropriate to fund the 
development of products that become the exclusive property of the 
grantee without a reservation of rights for the awarding agency. As 
stated above, ETA reserves the license rights specified in its 
regulations and assures compliance by grantees through specific clauses 
in the grant agreement and our policy on collection and distribution of 
such property. These requirements apply to all intellectual property 
developed with grant funds.

    Question 8a. On page 13, the testimony describes ETA's efforts to 
evaluate the demand-driven grants. It appears that much of the 
evaluations will be focused evaluating specific grantee strategies. 
But, since the HGJTI and CBJTG programs were funded from pilot/
demonstration authority, how will any evaluation measure the success of 
these pilots as a whole?
    Answer 8a. The success of these pilots is being evaluated through a 
thorough review of grant documents, grant deliverables and training 
outcomes in selected sites. ETA is examining the extent to which the 
grantees fulfilled their grant requirements and the extent to which the 
approaches developed under these grants were feasible, sustainable, and 
replicable.
    In addition, ETA, through the collection of both impact and 
performance data, has significant information on the outcomes of the 
HGJTI and CBJTG. This information indicates that both initiatives are 
meeting their intended goals of addressing workforce challenges in 
high-growth, high-demand industries. These goals include increasing the 
capacity of community colleges to train more individuals for 
occupations in high-growth, high-demand industries and creating a 
stronger pipeline of workers for high-growth industries by training 
more workers.
    Also, there are many indicators that the workforce investment 
system has embedded the demand-driven tenets of the HGJTI into how it 
does business. Examples are the content of WIA State and local plans; 
implementation of State-driven investments that mirror the HGJTI; and 
the content posted and featured on Workforce3 One--ETA's online 
knowledge network for employers, academic institutions, and economic 
and workforce development professionals. While the HGJTI may not be the 
only influencer of this transformation, ETA believes that it had a 
major impact and accelerated the adoption of these practices.

    Question 8b. What will ETA be looking for to determine whether 
these pilot programs were successful enough to continue?
    Answer 8b. The success of these pilot programs is being assessed 
through a thorough review of grant documents, grant deliverables and 
training outcomes in selected sites. ETA is examining the extent to 
which the grantees fulfilled their grant requirements and the extent to 
which the approaches developed under these grants were feasible, 
sustainable, and replicable. High Growth grants were generally designed 
to respond to an industry defined workforce challenge by bringing 
together strategic partners, leveraging resources, and finding an 
innovative solution that works. In addition, they were intended to 
incent long-term partnerships among the workforce system, business and 
industry, and educators in order to continuously be at the table 
addressing workforce issues. ETA has no current plans to ``continue'' 
any individual pilots with Federal funding. However, we have worked 
with grantees to ensure sustainability of the solution being modeled or 
piloted. In addition, we are sharing the innovative approaches and 
``solutions'' broadly to encourage replication where appropriate.

    Question 9. On page 19, the testimony states that ETA will be 
pleased to post its evaluations online. In the past, this committee has 
been frustrated by DOL sometimes taking literally years to release 
evaluations that were completed under contract. What will ETA do to 
ensure the HGJTI, CBJTG, and WIRED evaluations are released in a timely 
way?
    Answer 9. ETA has been working to improve its release of research 
and evaluation reports. Under ETA's recent Pilot, Demonstration, 
Research, and Evaluation Process Improvement Plan, reports approved for 
publication are disseminated via ETA's research Web site 
(www.doleta.gov) within 2 months. As a safeguard, ETA has added new 
language to all contracts indicating that all final reports submitted 
after September 2008 must be published within 6 months of the receipt 
of the final document. In addition, if ETA chooses not to publish the 
final document, the contractor may publish the document themselves 
after 9 months.
    The report for Phase I of the HGJTI evaluation and the interim 
report for the WIRED Initiative are available on ETA's Web site at 
http://wdr.doleta.gov/
research/keyword.cfm.

    Question 10a. On page 14, the testimony states that the WIRED 
evaluations will measure the cumulative effects of WIRED strategies, 
``including transformation of the regional economies.'' How do you 
intend to measure this transformation?
    Answer 10a. The evaluations focus on three critical aspects of 
regional economic transformation: (1) regional alliance-building across 
geographic and professional boundaries, and identity development; (2) 
specific organizational and programmatic strategies, in terms of 
partners, governance, co-investment, and specific business and 
workforce development initiatives; and (3) measurable progress toward 
sustainable economic transformation, as indicated by outcome metrics 
related to regional economic well-being and workforce preparedness. In 
doing so, the evaluations will document how regional organizations that 
are concerned with economic growth and building human capital come 
together in new relationships through which shared goals, co-
investment, and a renewed sense of regional purpose can develop.

    Question 10b. What measurable impact on economic development do you 
anticipate being a result of WIRED?
    Answer 10b. The WIRED evaluations are intended to provide a 
comprehensive understanding of the implementation and cumulative 
affects of WIRED strategies on the 39 participating regions. Using 
statistical methods, the study will attempt to identify the short-term 
impact of WIRED on several regional economic indicators. The 
evaluations will document early indicators of economic growth and 
development across a number of dimensions, including:

    <bullet> Number and types of new companies or partnerships formed;
    <bullet> Job retention and/or creation via growth in existing 
industries, new enterprises, or business relocating from outside the 
region;
    <bullet> Increase in average wages, overall or in targeted 
industries;
    <bullet> The extent of growth in the business services sector and 
within professional occupations such as intellectual property law and 
accounting; and
    <bullet> Success of workforce development and training programs in 
training workers and assisting them to obtain well-paying jobs (e.g., 
workforce investment system common measures).

    Question 11a. On page 6, the testimony cites the San Diego 
Workforce Partnership HGJTI program. The project's goal is to ``define 
avenues for young people to explore . . . [a] biotechnology . . . 
career path,'' and the testimony describes any career path information 
clearinghouse, high school student internships, and training services 
for high school teachers and counselors. ETA's June 7, 2004 press 
announcement for this grant states the grant award was for $2.5 
million. This was a noncompetitive award. Although not reported 
publicly, data provided to CRS by ETA show that this $2.5 million 
Federal investment stemmed from Dislocated Worker Demonstration funds, 
authorized under WIA Section 171(d). Both OIG and GAO noted that ETA 
did not document how HGJTI noncompetitive grants met statutory 
criteria. ETA asserted that, despite the lack of documentation, it did 
ensure all statutory criteria were met. In relation to this grant, how 
were the following 3 statutory criteria met?
    (i) The statute requires this funding stream is to be used for 
``the employment and training needs of dislocated workers.'' How does 
career path information for youth relate to the employment and training 
needs of dislocated workers?
    Answer 11a. The Department's appropriations acts have contained a 
proviso that funds appropriated to carry out the dislocated workers 
pilots and demonstration under section 171(d) of WIA ``may be used for 
demonstration projects that provide assistance to new entrants in the 
workforce and incumbent workers.'' We believe the development of career 
pathways in an industry sector provides significant assistance to new 
entrants in the workforce, as well as to dislocated and incumbent 
workers, in a manner that is consistent with the authority provided 
under section 171(d) as modified by the proviso identified above.
    The activities of this specific grant are outlined as follows:

    <bullet> San Diego Workforce Partnership developed a multi-purpose 
biotechnology training and resource center which serves as a national 
clearinghouse/central training resources for local businesses and 
academic institutions, focusing on the training needs of the industry's 
existing and future employers.
    <bullet> A key function of this center is to coordinate student 
internships (high-school to post-doc) and teacher externships for the 
local biotechnology community. Industry and education partners have an 
increasing need to help students (at all education levels) and entry 
level workers in getting the hands-on experience they need to enhance 
their academic study. This central ``clearinghouse'' helps students 
looking for internships, educators seeking internships for their 
students, and dislocated or displaced workers in the broader San Diego 
biotechnology community find the hands-on experiences they need to 
change careers and break into this high growth industry.
    <bullet> These internships provide hands-on, industry-standard 
learning opportunities for students ranging from the secondary to post-
doctoral level, and also provide a pathway for dislocated workers to 
transition to high-growth biotechnology careers. The externship program 
also helps provide area biotechnology employers with a needed pipeline 
of biotechnology workers.
    <bullet> This multi-use biotechnology training center introduces 
new biotechnology education and training opportunities for San Diego's 
students and workers and expanded education and training opportunities 
that reach a broader base of San Diego's students and workers.

    Question 11b. (ii). The statute requires grants from this funding 
stream that are larger than $500,000 to be subject to a peer review 
process. Was this grant subject to such a process?
    Answer 11b. The process generally involved several stages of 
review, including peer review conducted by ETA staff and management. 
The peer review process included development of an ``abstract'' to 
highlight the basics of the proposal(s) and initial observations 
regarding strengths and weaknesses, and continued with review and 
discussion among management and other ETA leadership on the merits of 
the proposals. When a proposal was identified as desirable to fund, the 
next step was to gain approval from the Department of Labor's 
Procurement Review Board (PRB), which rigorously screens proposals in 
accordance with Federal procurement laws and policies (including the 
Federal Acquisition Regulations and Department of Labor Manual Series 
(DLMS) 2-836).
    The San Diego Workforce Partnership proposal went through this peer 
review process as well as with the PRB.
    The OIG and GAO were provided with extensive information and 
considerable documentation on the processes used to select grants for 
funding.

    Question 11c. (iii). The statute requires grants from this funding 
stream to be administered by the dislocated worker office. Was this 
grant administered by the dislocated worker office?
    Answer 11c. These grant funds are administered by the Office of 
National Response, the office within ETA responsible for administering 
dislocated worker funds. Like other funds provided under section 171(d) 
of WIA to carry out projects for dislocated workers, these funds are at 
times co-managed with the assistance of other offices within ETA such 
as the Office of Workforce Investment, the Office of Financial and 
Administrative Management, and the Office of Policy Development and 
Research in order to ensure proper program integration, administration 
and the use of funds for allowable purposes.

    Question 12. On pages 10 and 14, the testimony states that in the 
future grant officers and program officials will confirm that 
noncompetitive grants are in compliance with statutory requirements. 
How will the public and Congress be informed of these decisions in a 
transparent way?
    Answer 12. The Federal Funding and Transparency Act of 2006 (FFATA) 
requires all Federal agencies to make publicly available information 
about entities that are awarded Federal grants, loans, and contracts. 
ETA is in compliance with the FFATA and will continue to publish all 
awards to USAspending.gov.

    Question 13. On page 3, the testimony states that WIRED grants are 
focused on high-growth industries within the region. Given the recently 
imposed limitation that H-1B visa fee training funds be limited to 
sectors in which H-1B visas are sought, what is ETA's plan for 
connecting a grant program focused on regional economies with a funding 
stream focused on nonimmigrant professional specialty workers?
    Answer 13. The recently imposed limitation cited does not apply to 
multi-year grants awarded prior to June 30, 2007. However, ETA has 
compared the industries on which WIRED regions are focusing with the 
industries and occupations for which H-1B visas are issued and found 
that there is a very high correlation.
    ETA does not currently have any plans to use any additional H-1B 
funds for grants focused on regional economies as the primary purpose. 
ETA does include language in SGAs for the HGJTI that requires the 
workforce solution being developed to be done so in alignment with and 
connected to a broader regional economic and talent development 
strategy. Any competitive grant awards using H-1B funds now contain 
language that ensure that funding is used to train workers in those 
industries or occupations for which H-1B visas are utilized.

    Question 14. On page 9, you state that ``ETA made sole-source 
awards consistent with the statutory authority under the Workforce 
Investment Act.'' ETA documentation provided to CRS, GAO, and OIG has 
shown that ``sole-source'' (or noncompetitive) awards were also made 
from funds authorized under the Wagner-Peyser Act and the American 
Competitiveness and Workforce Improvement Act. Please describe how the 
HGJTI grants were awarded consistent with these laws.
    Answer 14. The American Competitiveness and Workforce Improvement 
Act allows DOL to issue grants for job training and related activities 
in high growth industry sectors utilizing H-1B fee revenues. The 
authority provided is broad and HGJTI grants using H-1B fee money have 
been consistent with the statutory language.
    HGJTI grants that utilized funds authorized under the Wagner-Peyser 
Act used those funds for activities involving the development and 
dissemination of tools and products related to labor market information 
and/or career guidance information--activities that are allowable under 
the Wagner-Peyser Act. ETA used the One-Stop/ALMIS funds appropriated 
under Wagner-Peyser Act authority for these grants.
    In addition to providing for activities authorized under those 
statutes, the awards were made in a manner consistent with the 
requirements of the DLMS, including requirements relating to sole-
source awards. Please see the response to Question 19 for additional 
information on the DLMS requirements.

    Question 15. Data provided by ETA to CRS show that at least 19 
HGJTI noncompetitive grants were fully or partially funded from Wagner-
Peyser Act funds, at a sum of over $17 million. This was also noted by 
the OIG. These funds seem to have been awarded from an authority 
relating to labor market information. Unfortunately, none of ETA's 
documentation on the program--press releases, budget justifications, 
etc.--includes any reference to this source of funds. Could you please 
describe the justification for the use of these funds for the HGJTI? 
How is this use consistent with the statutory authority as described 
under Wagner-Peyser? Why has ETA not been transparent about this?
    Answer 15. As indicated in the response to Question 14, there are 
national activities relating to labor market and career guidance 
information funded under the authority of the Wagner-Peyser Act and the 
Wagner-Peyser funds used to support the HGJTI were used to carry out 
those activities. The Wagner-Peyser funded activities carried out as 
part of HGJTI were consistent with the Wagner-Peyser activities 
described in the budget justifications regarding the use of Wagner-
Peyser funds. ETA was not attempting to avoid transparency on the use 
of funds; rather, the agency exercised discretion in the use of funds 
consistent with their purposes.

    Question 16. On page 14, the testimony states that the WIRED 
grantees will soon report outcomes against the Common Measures. 
However, WIRED was funded from H-1B visa fee funds, and section 
414(c)(7) of the authorizing statute requires that such measures be 
collected. Why did ETA not choose to enforce this provision until now?
    Answer 16. ETA leadership communicated the need to collect data for 
the common measures at the onset of the initiative, both in town hall 
meetings and again in each region's grant kick-off meeting. On April 
27, 2007, a performance memo went out to WIRED regional leadership from 
the Assistant Secretary reiterating the WIRED Accountability Framework. 
Further, ETA worked with grantees to ensure that both common 
performance measures and measures appropriate to each grantee's plans 
and outcomes were implemented as part of their plans.
    It is important to note that the WIRED grants focused on many 
outcomes in addition to the outcomes directly related to the provision 
of training services and each grantee has identified the additional 
specific outcomes related to their regional vision for economic and 
talent development.

    Question 17a. On page 8, the testimony states that:

          ``ETA chose to award the first round of High Growth 
        investments noncompetitively for one very important reason. It 
        allowed us to identify the most innovative solutions that were 
        directly tied to the specific workforce challenges that 
        industry identify . . . '' You further state that there was a 
        ``comprehensive review process internal to ETA to evaluate 
        unsolicited proposals that emerged from the overall 
        consultation process.''

    Several questions emerge from this testimony. Does DOL consider 133 
noncompetitive grants, totaling $235 million and spanning 6 years, to 
be a ``first round? ''&
    Answer 17a. The HGJTI was rolled out in a phased approach, industry 
by industry, over several years time. Prior to awarding grants in each 
industry, ETA conducted a scan of the industry and hosted forums in 
order to better understand the workforce challenges of the industry and 
possible solutions to those challenges. It was always ETA's intent over 
time to move to competitive opportunities after funding initial awards 
in each industry. This process began in 2004 with a solicitation 
targeting the health care and biotechnology industry sectors. Because 
of the phased approach to working across these different industries, 
ETA continued to award non-competitive grants in the first round of 
grants in successive industry sectors as we moved to competitive 
opportunities in the second round for those industries we completed 
earlier.

    Question 17b. How does a noncompetitive process identify more 
innovative projects than a competitive process? Would not a national 
open call for innovative ideas have yielded possibly more ideas than a 
process that took place behind closed doors?
    Answer 17b. HGJTI included a broad consultative process involving a 
wide array of stakeholders and discussions in public forums. These 
forums helped ETA to understand the workforce challenges and potential 
solutions to these challenges. DOL conducted 37 ``Executive Forums'' 
with industry leaders across each of the industry sectors, reaching 815 
industry partners through the process. DOL conducted 15 ``Workforce 
Solutions Forums,'' reaching 627 strategic partners. While it may be 
true that a competitive process may have yielded more proposals, ETA 
believes its process yielded very high quality and innovative 
submissions.

    Question 17c. OIG and GAO found no documentation that you 
``evaluated'' the proposals and stated that ETA could not identify any 
ways in which the grants had the ``most innovative solutions'' or that 
they were measured against any ``industry identified'' criteria. Could 
you explain how your ``comprehensive review process internal to ETA'' 
was able to accomplish such an evaluation of proposals without leaving 
any documentation? Who conducted the ``comprehensive review process? ''
    Answer 17c. The OIG and GAO were provided with extensive 
information and documentation on the processes used to select grants 
for funding. The process generally involved several stages of review 
and input by multiple staff members and ETA leadership. The first step 
was for one or more staff members to read the proposal and develop an 
``abstract'' that included the basics of the proposal and initial 
observations regarding strengths and weaknesses. In some circumstances 
this process was applied to multiple proposals submitted from a 
specific industry sector. Meetings would then be convened that included 
managers and other ETA leadership to discuss the merits of proposals 
and to identify those we considered to be the most innovative and that 
met the industry identified workforce challenges. When a proposal was 
identified as desirable to fund, the next step was to gain approval 
from the Department's PRB, which rigorously screens proposals in 
accordance with Federal procurement policies (DLMS 2-836).
    Proposals were presented for review under the required criteria of 
[DLMS 2-836 (G)(3)] where services are available from only one 
responsible source and no substitute will suffice; or the recipient has 
unique qualifications to perform the type of activity to be funded; 
[DLMS 2-836 (G)(4)] unique or innovative and has outstanding merit; or 
[DLMS 2-836 (G)(5)] the activity will be conducted by an organization 
using its own resources or those donated or provided by third parties, 
and DOL support of the activity would be highly cost effective. Once 
approval was obtained by the PRB, the proposal was forwarded to the ETA 
grant office for funding. Standard assurances and control processes are 
applied to proposals prior to grant award.
    Although no documentation requirements existed at the time the 
grants were reviewed, the OIG and GAO suggested that ETA should have 
been more rigorous in documenting the specifics of why ETA made the 
choice to fund particular grants. ETA agreed that additional 
documentation would be valuable going forward, and, as stated above, 
ETA has taken steps to enhance its documentation processes.

    Question 18. On page 8, the testimony refers to these as 
``unsolicited proposals,'' as do ETA responses to OIG and GAO. Were 
these 133 grants really ``unsolicited? '' That is, are you stating that 
no officials from ETA were involved in soliciting grantees 
participation? How is it that 133 grantees over 6 years came to ETA 
with proposals in a high-growth framework without any invitation to do 
so? Or, alternatively, did ETA actually invite certain grantees to 
participate in the first 6 years of HGJTI? If so, how were these grant 
providers chosen over other possibilities?
    Answer 18. The HGJTI process included extensive consultations with 
industry, education, and the workforce system. The primary goal of the 
executive forums and workforce solutions forums was to develop 
potential solutions that addressed industry-identified workforce 
challenges. During the course of this process, ETA made it known 
broadly that ETA anticipated funding innovative workforce solutions and 
that ETA routinely receives and considers unsolicited proposals. As a 
result, ETA received many unsolicited proposals and concept papers in 
the course of the consultations. ETA did, on occasion, encourage 
entities to expand their concept papers into proposals if the concepts 
seemed promising. This encouragement did not guarantee a proposal would 
ultimately be funded.

    Question 19. On page 9, the testimony states that the 
noncompetitive grant process will be used on ``an extremely limited 
basis.'' Please describe under what extremely limited circumstances 
would a noncompetitive grant be justifiable?
    Answer 19. The Federal Grant and Cooperative Agreement Act of 1977 
encourages competition, where deemed appropriate, in the awarding of 
grants and cooperative agreements. According to the DLMS, competition 
is deemed appropriate in awarding discretionary grants and cooperative 
agreements unless one or more of the following exceptions apply:

    <bullet> A non-competitive award is authorized or required by the 
statute funding the program.
    <bullet> The activity to be funded is essential to the satisfactory 
completion of an activity presently funded by DOL, wherein competition 
would result in significant or real:

        i. harm (further harm) to the public good; or
        ii. expenses in excess of any potential savings to the 
        Government; or
        iii. disruption to program services; or
        iv. duplication of work at additional cost to the Government, 
        or
        v. delay in the time of program completion.

    <bullet> Services are available from only one responsible source 
and no substitute will suffice; or the recipient has unique 
qualifications to perform the type of activity to be funded.
    <bullet> The recipient has submitted an unsolicited proposal that 
is unique or innovative and has outstanding merit.
    <bullet> The activity will be conducted by an organization using 
its own resources or those donated or provided by third parties, and 
DOL support of the activity would be highly cost effective.
    <bullet> It is necessary to fund a recipient that has an 
established relationship with the agency in order to:

        i.  Maintain an existing facility or capability to furnish 
        services or benefits of particular significance to the agency 
        on a long-term basis; or
        ii.  Maintain a capability for investigative, scientific, 
        technical, economic, or sociological research.

    <bullet> The application for the activity was:

        i.  evaluated under the criteria of the competition for which 
        the application was submitted;
        ii. rated high enough to have deserved selection under that 
        competition; and
        iii. not selected for funding because the Department mishandled 
        the application.

    <bullet> The Secretary has determined that a noncompetitive award 
is in the public interest. This authority may not be delegated.

    The testimony is simply expressing ETA's intent moving forward to 
primarily award HGJTI grants on a competitive basis. Currently, H-1B 
funds may be utilized only for competitive awards. The Department of 
Labor cannot predict the exact circumstances under which this authority 
to award noncompetitive grants would be used, but has the procedures in 
place to properly document and justify award decisions made 
noncompetitively.

    Question 20. On page 10, the testimony states that ETA is providing 
improved guidance in grant solicitations regarding clearly articulated 
outcomes and deliverables. How is ETA ensuring that, likewise, there 
will be clearly articulated outcomes and deliverables when there is no 
such solicitation (that is, for noncompetitive grants)?
    Answer 20. ETA includes standard clauses in grant agreements that 
are similar to those requirements described in a solicitation. These 
clauses preserve the government's rights regarding intellectual 
property and require grantees to collect and report information on 
grant progress and accomplishments. Further, OMB approved and ETA is 
utilizing, a standard reporting format for all HGJTI grantees. In 
addition, during the grant award process, ETA endeavors to ensure 
clearly articulated outcomes and deliverables prior to grant award.

    Question 21. On pages 9 and 10, the testimony stated that you have 
changed your noncompetitive grant processes in response to the OIG and 
GAO reports and describes a new, standardized process to document the 
justification of such grants. Using a recent, actual example of a 
noncompetitive award that ETA granted, could you describe how the new 
process was used for that award?
    Answer 21. As part of the ETA corrective action plan for sole 
source selections, ETA has implemented procedures for non-competitive 
grant awards requiring inclusion of a form that documents which DLMS 
exception applies and the justification for why the subject project 
meets the exception cited. This form is completed by ETA's Office of 
Grants and Contracts Management (OGCM) for all proposals that require 
submission to the PRB and those that are exempt from PRB review. ETA 
also has developed a process requiring the completion of a 
comprehensive checklist and review form by the Program Office when 
recommending a PRB exempt proposal and one for OGCM to complete and 
sign when approving a PRB exempt proposal. Finally, ETA has developed 
and is using a conflict of interest certification form to be completed 
as part of the review and approval process for all unsolicited 
proposals. This form requires signatures from the reviewer of the 
unsolicited proposal, the manager and the Senior Executive of the 
appropriate Program Office.
    As an example, ETA received an unsolicited proposal from the 
Consortium for Entrepreneurship Education for $99,880 in Pilots, 
Demonstrations and Research funds to conduct an assessment of 
entrepreneurship resources and programs in the workforce investment 
system. After initial receipt, the proposal was routed to the Office of 
Policy Development and Research (OPDR) and a new Program Office 
checklist form was initiated for the proposal. The proposal was 
initially reviewed using the new review form by staff in the OPDR and 
was determined to have merit and to be appropriate to be considered for 
funding. The proposal was then sent to Office of Workforce Investment 
(OWI) for review. OWI concurred with OPDR's assessment that the 
proposal had merit and should be funded. Given the concurring funding 
recommendations by OPDR and OWI, represented by the signatures of the 
Administrators from these respective offices on the review form, the 
proposal was packaged for funding approval and routed to the Office of 
the Assistant Secretary for Employment and Training. Upon funding 
approval by ETA Executive Leadership, the unsolicited proposal 
checklist was closed out and the grant was awarded to the offeror.

    Question 22. It would seem to me that if the Department's intent in 
awarding grants under these initiatives was to influence the overall 
direction of the workforce investment system, it would invest time and 
forethought into comparing their success to other programs funded under 
that system. The Department chose not to do that in this case. In fact, 
you've indicated that such a comparison was never the agency's intent. 
How do you plan to show that the projects funded by these grants should 
have any impact whatsoever on our workforce investment system when they 
were not properly evaluated?
    Answer 22. First, it is important to note that both High Growth and 
WIRED are intended to influence the strategic use of existing program 
funds and new, collaborative approaches to workforce development that 
leverage other investments in workforce strategies. They are not to 
demonstrate a new program per se that would lend itself to a program-
to-program comparison.
    With regard to the HGJTI, the success of the grants is being 
evaluated through a thorough review of grant documents, grant 
deliverables and training outcomes in selected sites. ETA is examining 
the extent to which the grantees fulfilled their grant requirements and 
the extent to which the approaches developed under these grants were 
feasible, sustainable, and replicable.
    While ETA has not structured its evaluation to assess broad impact 
on the workforce investment system, there are many indicators that the 
workforce investment system has embedded the demand-driven tenets of 
the HGJTI into how it does business. Examples are the content of WIA 
State and local plans that identify priority industries and demand-
driven approaches to addressing industry-defined workforce challenges; 
implementation of State-driven investments that mirror HGJTI; the many 
anecdotal comments from workforce system partners at the State and 
local level that indicate the seed money provided through the High 
Growth grants was the catalyst for changing the way they work; the 
promising practices featured at workforce conferences nationally that 
demonstrate that demand-driven, solutions-based approaches to workforce 
development, including ETA's Workforce Innovations, and the content 
posted and featured on Workforce3One. Based on this evidence, ETA 
considers the HGJTI to have been the catalyst for this transformation.
    The CBJTG program contains many of the same features as High Growth 
grants and has reinforced demand-driven principles and strategic 
partnerships which has improved partnerships among community colleges 
and the workforce investment system.
    The results of ETA's WIRED investment are not fully available yet, 
although, similar to High Growth, there is already evidence that 
suggest the workforce investment system is beginning to adopt the 
concepts that underpin WIRED, i.e. regional approaches to economic and 
talent development. Several States have made grants similar to WIRED 
using WIA State set-aside funds. A number of regional efforts that 
mirror WIRED principles have been mounted in response to significant 
economic shocks due to plant closures, natural disasters, and the Base 
Realignment and Closure process.

    Question 23a. Why did the Department choose not to adequately 
include these three programs in its strategic plans? Were the grants 
under all 3 initiatives directly connected to a performance measure for 
the Department?
    Answer 23a. While the Strategic Plan for fiscal years 2006-2011 
included measures for CBJTGs, reporting systems, the process and 
methodology for collection, including a new process to enable matching 
with wage data, was only finalized in the last few months. As the 
reporting systems were developed, we included performance measures for 
both the CBJTG and HGJTI in the fiscal year 2009 Congressional Budget 
Justification.

        <bullet>  Performance measures for the CBJTG's include the 
        numbers of participants: enrolled and completing training, 
        receiving certifications, entering employment, retaining 
        employment, in addition to average earnings.
        <bullet>  Performance measures for the HGJTI include the totals 
        enrolled and completing training, participants entering and 
        retaining employment, in addition to average earnings.

    Guidance issued in April 27, 2007 to the WIRED grantees stipulates 
the use of the Common Measures and set expectations on leveraging the 
existing workforce investment reporting system to capture the necessary 
data.

        <bullet>  Performance measures for the WIRED grantees include 
        participants entering and retaining employment, in addition to 
        average earnings.

    Question 23b. Why did ETA choose not to adequately include the 
initiatives in its research plans, particularly when they seem to be 
signature programs for the agency?
    Answer 23b. These initiatives are included in the U.S. Department 
of Labor's Strategic Plan for fiscal 2006-2011. Please see http://
www.dol.gov/_sec/stratplan for further details. In addition, each 
initiative is addressed in the U.S. Department of Labor, Employment and 
Training Administration's 5-year pilot, demonstration and evaluation 
strategic plan for 2007-2012. For further details, please see: http://
wdr.doleta.gov/research/FullText_Documents/
ETA%20Five%2DYear%20Research%
20Plan%2Epdf.

    Question 24. As far as we know, the funding sources, and by 
consequence the statutory authority, for grants under these 3 
initiatives has not been made public. We have, however, reviewed a 
helpful Excel chart of these sources provided by ETA to CRS during some 
of their investigatory work. In the interest of transparency, you 
committed during the hearing to make these funding sources public so 
that we and the public gain a clear understanding of the statutory 
requirements attached to the grant funds you award? Please describe 
exactly when that information will be available to the public and where 
it will be located.
    Answer 24. Information relating to grant funding sources is always 
a matter of public record. Given the committee's interest and our 
promise to provide additional information, we have attached a 
spreadsheet of High Growth grantees by fund source. With respect to 
making grant award information available to the public, the Department 
is in compliance with the FFATA, will continue to publish all awards to 
USAspending.gov, and will make all records available as required by the 
Freedom of Information Act.

    Question 25a. As we discussed during the hearing, numerous grants 
were awarded non-competitively for unclear reasons. The new majority in 
Congress wasn't satisfied with that justification and required funds be 
awarded competitively in fiscal year 2007. In addition, it required 
that funds from H-1B employer fees be spent on training U.S. workers to 
meet the skills needed by employers in high growth areas who seek 
skilled temporary foreign workers. The Department has consistently 
stated that it was always its intention to move toward a fully 
competitive process. If that was always the Department's intention, why 
did it take a congressional directive to award funds competitively?
    Answer 25a. ETA did not require a congressional mandate to begin 
awarding High Growth grants competitively. The first competitive High 
Growth solicitation focusing on the health care and biotechnology 
industry sectors was published in September 2004, and grants were 
awarded in June 2005. A second set of competitive awards focusing on 
the Advanced Manufacturing industry was published in May 2006, and 
grants were awarded in October 2006. Since then we have made additional 
competitive awards in the Long Term Care industry (as a sub-set of 
health care), and the Energy and Skilled Trades sectors.

    Question 25b. Why did it take a Congressional amendment to require 
that funds spent under the Department's share of H-1B fees be spent in 
connection with ``high growth'' industries and areas in which American 
workers needed the skills demanded by those employers requesting H-1Bs?
    Answer 25b. The Department of Labor provided technical assistance 
to Congress in framing the use of H-1B fees to focus on high growth 
industries broadly when language was included in 29 U.S.C. Sec. 2916a 
to enable H-1B fees to be utilized to fund job training and related 
activities to provide workers with skills and competencies in high 
growth industry sectors broadly. Prior to the passage of appropriations 
language in 2007 that limited the use of H-1B funds for training in the 
occupations and industries for which employers use H-1B visas, ETA 
chose to utilize the broader authority provided in the earlier 
provision as part of the Administration's American Competitiveness 
Agenda.

    Question 25c. Given that the agency didn't make a major shift until 
Congress required them to do so, does the agency still stand behind its 
claim that it always intended to award grants competitively?
    Answer 25c. As previously stated, ETA did not wait for a 
congressional mandate to offer competitive High Growth awards. The 
first competitive solicitation was announced in late 2004 with a second 
competition in 2006.

    Question 26a. Typically, pilot and demonstration projects like 
those under the WIA authority under which your agency funded many of 
these grants, are meant to test out an idea or demonstrate a particular 
practice. As far as you understand it, what's the typical process for 
planning and awarding grant projects, particularly those under the 
umbrella of ``pilot and demonstration'' funding?
    Answer 26a. Under ETA's recent Pilot, Demonstration, Research, and 
Evaluation Process Improvement Plan, ETA has developed specific steps 
for planning and awarding pilot and demonstration projects. The 
planning process begins on July 1 every year with a review of:

    <bullet> ETA/DOL stated priorities (annual and long-term);
    <bullet> Recommendations contained in the ETA Five-Year Strategic 
Research Plan;
    <bullet> Requirements of any statutorily required efforts;
    <bullet> Recommendations of agencies such as GAO;
    <bullet> Requests by other Federal agencies to co-fund projects; 
and
    <bullet> Any unsolicited proposals that have merit.

    In addition, ideas relating to these projects are solicited from 
within the Office of Policy Development and Research and ETA Program 
Offices. Project ideas are then captured in a draft Research and 
Evaluation Agenda (spending plan) and submitted to ETA leadership for 
approval. Once ETA leadership has approved projects on the agendas, the 
approved projects are added to the annual Operating Plans. The 
Operating Plans are submitted to the Office of Management and Budget 
for review prior to transmittal to Congress. Once the Operating Plans 
are transmitted to Congress, they are posted on ETA's Web site at 
http://www.doleta.gov/reports/dre_oper_plans.cfm and the award process 
begins. This process includes the development and issuance of 
Solicitations for Grant Applications (SGAs). SGAs go through a multi-
level review and approval process that includes legal, program office, 
and ETA executive leadership sign-off. Upon full ETA clearance, SGAs 
are published for open competition for 45-60 days in the Federal 
Register. Submitted applications for ETA SGAs are paneled, rigorously 
reviewed and scored against the rating criteria published in the SGA. 
Top scoring proposals that meet the eligibility criteria set forth in 
the SGA are then awarded grants.

    Question 26b. How does the process that ETA used to award these 
grants, many of which were done noncompetitively and with an unclear 
connection between the funds awarded and the statutory requirements for 
the taxpayer dollars used, stand up to a transparent grant process?
    Answer 26b. ETA made awards consistent with the statutory authority 
for use of funds and DOL policies and procedures governing non-
competitive awards and applicable Federal procurement rules. ETA has 
improved processes to require that grants acknowledge the source of 
grant funds and the corresponding requirements associated with them and 
ETA will continue to make grant award information available to the 
public in compliance with the FFATA.

    Question 26c. What ideas were these grants meant to collectively 
demonstrate or test out?
    Answer 26c. These grants were designed to model a demand-driven 
approach to workforce development to ensure that workforce investments 
are tailored to the jobs and skill needs of the labor market now and 
into the future. The High Growth grants were designed to model 
partnerships between the workforce system, employers and educators to 
address the workforce challenges in high growth industry sectors, to 
address the workforce challenges in those sectors, and to provide 
education and career pathways for individuals and enable them to obtain 
21st century skills for 21st century jobs.
    WIRED was designed to demonstrate the relationship between economic 
and workforce development, based on the principle that one could not 
exist without the other, and that the workforce investment plays a 
significant role in a region's economic development strategy. WIRED 
also demonstrates the importance of life-long learning strategies and 
entrepreneurial strategies in building the competitiveness of a region. 
Finally and most importantly, WIRED set forth to showcase the 
importance of integrating the economic, education and workforce 
development systems across the traditional State, county, local, 
workforce investment area and political jurisdictions in order to grow 
and sustain a region's competitive advantage.
    CBJTG is a competitive grant program that is designed to build the 
capacity of community colleges to train workers in the skills required 
to succeed in high-growth, high-demand industries, and to help 
strengthen the partnerships between the public workforce investment 
system and community colleges.

    Question 27. You testified the intent behind these grant programs 
was to ``foster demand-driven approaches across the workforce 
investment system and increase opportunities for education and skills 
training.'' How did the agency plan ahead for the awarding of grants 
under these 3 programs to demonstrate their effectiveness?
    Answer 27. The High Growth Job Training Initiative evolved in the 
first year from a few individual early grants to the comprehensive 
approach ETA designed and implemented in each of the industry sectors. 
As the initiative grew, it became clear that we needed a structured 
reporting and performance accountability process and that an evaluation 
would be important. This resulted in a consistent quarterly reporting 
process and tracking against common measures, as well as ETA's planning 
for the evaluation that continues in progress today. Because the 
Community Based Job Training grants have many similar features to the 
High Growth grants, we utilized a similar approach to performance 
accountability and we chose to wait until the first phase of the High 
Growth evaluation was complete to design the CBJTG evaluation. With 
WIRED, ETA incorporated the evaluation process from the outset so that 
evaluators would be able to capture information on the new approach to 
regional economic and talent development as it unfolded as well as at 
the end. ETA also worked with WIRED grantees to both track common 
measures where training occurs, but to also identify and track region-
specific metrics.

    Question 28a. The Department seems to continually refer to these 
``non-competitive'' grants as ``sole-source'' awards. But, it would 
seem to me that there's a difference between those two terms--one 
indicates a choice in how grants were awarded while the other indicates 
that there is only one or a ``sole'' provider for these services. In 
your opinion, what's the difference between the two terms? Why did the 
Department choose to use the ``sole-source'' language to describe these 
grants?
    Answer 28a. Non-competitive refers to the process by which award 
decisions were made, i.e. not determined by competition. Sole-source 
refers to an award granted under the DLMS exception to competitive 
procedures for discretionary grants and cooperative agreements [DLMS 2-
836 (G)(3)]. This provision allows such an exception when: ``Services 
are available from only one responsible source and no substitute will 
suffice; or the recipient has unique qualifications to perform the type 
of activity to be funded.'' It was this justification ETA relied upon 
to justify the awards and it was frequently supported by the DLMS 
exception relating to cost effectiveness based on donated and matching 
resources. The term ``sole source'' is also commonly used, less 
precisely, to refer to any award to a single entity that did not go 
through a competitive process whether or not it is considered to be the 
``only responsible source'' under DLMS 2-836 (G)(3). Awards approved 
under DLMS 2-836 (G)(4) (which covers an unsolicited proposal that is 
unique or innovative and has outstanding merit) and DLMS 2-836 (G)(5) 
(which covers situations where an activity will be conducted by an 
organization using its own resources or those donated or provided by 
third parties, and DOL support of the activity would be highly cost 
effective) might be referred to in a short hand reference as a ``sole 
source'' and in this sense the term is interchangeable with ``non-
competitive.''

    Question 28b. Was there not more than one training provider 
available in the country to perform the services under many of these 
``sole-source'' grants?
    Answer 28b. The High Growth initiative is much more than simply 
choosing a training provider. It is about identifying innovative 
approaches to workforce development and addressing the workforce 
challenges in high growth industry sectors. The non-competitive grants 
awarded in the first round were justified under DLMS procedures which 
specify a number of allowable justifications as described above under 
the response to Question #19.

    Question 29a. The Department has a formal grant award and 
management process to help ETA earmark grants in their roles as ETA 
grantees--grantees that are characterized as noncompetitive and 
guaranteed DOL funding only after submitting an acceptable project 
proposal that is approved by ETA. This process is described in a desk 
reference that includes advice for writing an earmark grant proposal 
and for meeting financial and grants management requirements. It makes 
clear that ETA grantees, both competitive and noncompetitive, must 
follow the provisions of the law--in this case, the Workforce 
Investment Act, the regulations, and appropriations law as well as OMB 
requirements; and it provides guidance on a range of concerns, 
including:
    Linkages with the workforce investment system, stressing that it is 
``vitally important'' that earmark grantees develop linkages and 
partnerships with the workforce investment system; and
    Evaluation requirements, requiring grantees to include an 
evaluation of project results and outcomes, including identification of 
the performance measure(s) that determine whether the project was 
successful and the expected level of performance, the identification of 
any significant product such as a training curriculum or report, and 
for training and employment activities--the inclusion of WIA 
performance measure similar to those used to assess adult, youth, or 
dislocated worker program performance. In addition, each grantee is to 
produce an evaluation report, including its cost in the project budget, 
and describing the evaluation design, methodology, tasks, and who will 
perform them.
    Project sustainability: Since these non-competitive grants are 
intended to demonstrate approaches, methods, or services and products 
that will advance workforce development, each grantee is expected to 
have a plan on sustaining successful elements of grant project after 
its conclusion.
    Did ETA give any consideration to at least building upon its 
existing non-competitive grant award and management process for grants 
under the initiatives? Please explain fully. It would seem to me that 
at least there would have been some clearly articulated outcomes and 
deliverables for each of these grants.
    Answer 29a. ETA has developed and refined guidance for its 
management of the unsolicited proposal process that is similar to pre-
existing guidance for earmark grantees.
    ETA frequently provides technical assistance to those submitting 
concept papers or unsolicited proposals to help them refine their 
proposals. One important area of technical assistance includes further 
defining outcomes and deliverables. This technical assistance could 
also include information on the development and execution of capacity 
building, curriculum development, career ladders, competency models, 
and training. ETA also advises on the inclusion of necessary partners--
such as workforce system, business and industry, and education--and 
leveraging of additional resources. In addition, if a proposal is 
selected for potential funding, steps are taken in the grant making 
process to further refine grant requirements, including adherence to 
financial and administrative requirements, data collection methods and 
tracking, and structuring an effective service delivery plan and 
project management team.

    Question 29b. It appears that you set a higher bar to help non-
competitive, congressionally committed organizations complete 
applications to certain requirements and then formally review and 
document those applications. How did ETA officials justify the 
different processes and practices used for similar non-competitive 
grants?
    Answer 29b. ETA did not set a higher bar for different types of 
organizations.
                             senator brown
    Question 1a. Does DOL know how many people have received training 
(or will receive) through the WIRED and High Growth Job Training 
Initiative grants?
    Answer 1a. HGJTI.--Since 2002, over 105,000 individuals have 
completed training as a result of the High Growth Job Training 
Initiative grants, and there are currently more than 65,000 enrolled in 
training. In addition, the capacity building that has occurred as an 
outcome of many of the grants, we have enabled a much broader impact 
and the ability to train many more individuals.
    WIRED.--Since each of the 39 regions has multiple strategies and 
corresponding goals, ETA is working with WIRED regions to collect and 
validate information on the number of individuals trained and will make 
that information available to Congress.
    It is important to note that WIRED grants were awarded at three 
different times, so the data and outcome information for the second and 
third generations of grants will be available on a staggered basis as 
well.

    Question 1b. Does DOL know what kinds of training people are 
receiving?
    Answer 1b. Grantees are providing a variety of types of training. 
Some training involves a combination of classroom skills-based 
instruction along with apprenticeships and internships developed with 
employers.
    For more information about High Growth grantees' projects: http://
www.doleta.gov/BRG/HGJTIGrantees/. For more information on WIRED 
grantees' projects: http://www.doleta.gov/wired/.

    Question 1c. What skills are they obtaining?
    Answer 1c. The skills training provided varies by the grant, and 
ranges from customer service and safety and health, to robotics, 
advanced welding, and plastics engineering. In addition, some grants 
provide for remedial training that enables individuals to access 
occupational skills training, such as English as a second language or 
foundational math and science competencies.

    Question 1d. Are they getting a portable credential or industry 
certification as a result of the training?
    Answer 1d. ETA has emphasized the importance of industry-defined 
portable credentials and certifications throughout these grants, 
including through the solicitations. ETA has put in place a 
standardized performance reporting and data collection system for High 
Growth grants and is collecting information on the attainment of 
credentials and certifications as of June 30, 2008. Data will be 
available beginning in December 2008. For WIRED regions, regions have 
been reporting on this measure on an individual basis, and ETA is in 
the early stages of streamlining the collection in order to be able to 
report aggregate totals across the grants.

    Question 2. Does DOL know who is receiving training? That is, what 
kinds of workers are receiving training? Dislocated workers? Low-skill 
workers? Is DOL making efforts to ensure a full range of workers are 
being served?
    Answer 2. One of the industry identified workforce challenges that 
arose in every industry sector was the need to find better ways to 
access untapped labor pools as part of the worker pipeline, including 
those with barriers to employment. As a result, ETA focused on 
identifying grants that provided innovative solutions in this area and 
training programs implemented by HGJTI grantees that targeted widely 
varying populations. For example, some projects target entry-level 
workers, while others seek to recruit incumbent workers, unemployed or 
dislocated workers, or individuals with certain characteristics, such 
as disadvantaged youth, individuals with basic skills deficiencies, 
veterans, or minorities. Others targeted individuals who had indicated 
or demonstrated interest and potential for entry into a particular 
occupation or industry sector. Similarly, training programs implemented 
by WIRED regions reach a broad spectrum of workers in accordance with 
the use of H-1B fees as authorized under Sec. 414(c) of the American 
Competitiveness and Workforce Improvement Act of 1998 (P.L. 105-277, 
title IV), as amended.

    Question 3. What is DOL doing to ensure that all key stakeholders 
in an industry--including union representation--are represented in 
funded partnerships?
    Answer 3. Foundational strategic partnerships are a key feature of 
all three grants--HGJTI, CBJTGs, and WIRED. For both High Growth and 
CBJTGs, the foundational partnerships include, at a minimum, the 
workforce system, business and industry and education. However, 
depending on the workforce solution being implemented, other partners 
are often important and may include unions, faith-based and community 
organizations, foundations, and others. For example, one HGJTI was 
awarded to 1199 Service Employees International Union. DOL noted in 
response to the second IG report that it considers the grant to be 
successful. SEIU's model is bridging a critical link between education 
and workforce development. SEIU built on a Contextualized Literacy 
Program that combines literacy and job training for low-level health-
care workers who have been out of school for a long period of time and 
had difficulty passing entrance exams. SEIU had success in training (95 
percent) and retaining (77 percent) their students and provided an 
opportunity for individuals to enroll in Pre-LPN training that led to 
certification and degrees.
    The framework for WIRED requires a much broader set of partnerships 
and networks due to focusing on regional economies that tend to be 
larger geographically, and because WIRED is about systemically 
integrating workforce development, education, and economic development. 
Therefore, partnerships must include region-wide political leadership, 
education at all levels, business and industry, economic developers, 
the workforce investment system, foundations, and other community 
leaders and organizations that are present in the region. ETA 
continuously reinforces the need for sustained partnerships in the 
context of these grants through technical assistance and promoting peer 
to peer learning among grantees.

    Question 4a. What is DOL doing to ensure that partnerships that are 
receiving funding provide (or lead to) decent, good-paying jobs?
    Answer 4a. Increasing the skills of workers to allow them to access 
good jobs with good wages and career pathways is a fundamental goal of 
all three grant programs. A key mechanism to ensure grants focus on 
this outcome is ETA's requirement to report on entered employment, 
retention, and wages for all individuals who are trained with grant 
funds. In addition, ETA has promoted career pathways and ladders, as 
well as credentials and certificates, to help ensure that grants focus 
on getting people into careers with a clear path to next steps, as well 
as getting people recognition for skills obtained that are transferable 
across sectors.

    Question 4b. Can DOL offer assurance that no funding going out 
under these grants is subsidizing ``bad'' employers?
    Answer 4b. The grant award and administration process includes 
safeguards and oversight procedures to foster desired outcomes and 
enforce Federal standards. Applicants are subject to an award clearance 
process which may include a review of prior performance, certification 
by a certified public accountant to ensure financial capability, 
attestation that the applicant is not in arrears on Federal debt, pre-
award site visit, ETA closeout experience, and OIG audit experience. In 
addition, our Federal Project Officers and other grant management staff 
review quarterly certified financial reports, quarterly performance 
reports, and conduct site visits as scheduled or determined by need. 
Non-profit and public organizations receiving Federal funds are subject 
to annual audit requirements in accordance with OMB Circular A-133, 
Audits of States, Local Governments, and Non-Profit Organizations.

    Question 5. Under the High Growth Job Training Initiative, DOL 
determined which sectors would be targeted. Does this determination 
vary regionally and/or locally? Should the identification of high 
growth industries be determined at the local or regional level?
    Answer 5. Given that the HGJTI was designed to model how State and 
local partners could become more demand-driven by identifying the high 
growth, high demand industries in their economies, it was never DOL's 
intent to identify all high growth industry sectors in the economy. 
Rather, the intent was to provide a framework for the process to be 
used at the State and local levels, ETA strategically chose industries 
that represent a variety of different sectors of the economy, all of 
which have significant demand for workers. Industries fell into four 
categories for inclusion as high growth, high demand: (1) industries 
that are, or were at the time the grants were developed, experiencing 
high growth, such as health care and financial services; (2) industries 
that are transforming as a result of technology and innovation, such as 
advanced manufacturing; (3) emerging industry sectors such as 
biotechnology and geospatial technology; and, (4) those that are 
critical to the foundation of any economy, such as energy and 
transportation.
    In making funding decisions, ETA has required the grantees to 
demonstrate the demand for workers in the appropriate industry sector. 
As DOL has transitioned to competitive solicitations, we have focused 
more on industry sectors where nationwide shortages exist, such as 
health care, energy, and the skilled trades. In the context of CBJTGs 
and WIRED, the determination of high growth industry sectors is 
determined at the regional or local level.

    Question 6. Does DOL know if any of the grants have led to 
industry-wide improvements, such as developing long-term plans to 
develop skilled worker pipelines? How many partnerships receiving 
funding have developed industry-wide skill standards and/or career 
pathways?
    Answer 6. Early on, ETA identified the development of worker 
pipelines as a key focus area for workforce solutions. While the most 
common output across grants is curriculum, 25 High Growth and Community 
Based Job Training grantees have developed and completed 33 industry-
wide competency models and career ladders to date. These models and 
ladders have been disseminated to the public workforce system via 
workforce3one.org. We anticipate that number to grow since we are 
tracking over 1,300 workforce solutions that will be produced by active 
grantees. As these models and ladders become available, we will 
continue to disseminate them to the public workforce system and provide 
assistance to adapt and replicate these models.

    Question 7. Can any of the industries receiving funding under these 
grants demonstrate improvements to job quality through improving wages, 
benefits, and/or working conditions as a result of receiving funding? 
Have they been able to aggregate training and education needs across 
firms within partnerships? Develop industry-wide shared curriculums?
    Answer 7. Yes, ETA has funded grants that demonstrate effective 
industry collaboration and improved results for participants. For 
example:

    i. CVS Caremark is a grantee who has increased wages. CVS 
effectively placed 160 individuals in jobs through the CVS 
Apprenticeship Program and Incumbent Worker Advancement Initiative and 
107 of these individuals saw wage gains following their involvement in 
the program.
    ii. An example of shared curriculum is the National Institute for 
Metalworking Skills (NIMS), a high growth grantee that created guides 
for a training and apprenticeship program in the metalworking industry 
that provides detailed curriculums for six metalworking occupations. 
The guides help participants earn industry-recognized NIMS 
certifications. Employer partners who were involved in the development 
of the guides include Hydromat, Timken, Oberg Industries, Elray, OSMI, 
Camcraft, Promold, Alcon, Morgal Machine Tool Company, Criterion, 
DanlyIEM, Penn United, GMT, GOE, Western Air Products, Metric 
Machining, Jergens, P-K Tool and Manufacturing, and Stolle Tool.

    Question 8. Can DOL demonstrate that firms in partnerships 
receiving funding are working together to address common organizational 
and human resource challenges, such as: recruiting new workers, 
implementing effective workplace practices, retaining dislocated and 
incumbent workers, implementing a high-performance work organization, 
recruiting and retaining women in nontraditional occupations, adopting 
new technologies, and fostering experiential and contextualized on-the-
job learning? If so, how?
    Answer 8. Recognizing the unique nature of each grant in terms of 
the strategies they employ to address different workforce challenges, 
ETA works to ensure that key stakeholders are working together to 
address common organizational and human resource challenges. First, one 
of the key criteria that is used to evaluate proposals for WIRED, 
Community-Based Job Training and High-Growth Job Training Initiative 
grantees is partnership among key stakeholders. Applicants receive 
points based on the strength of the partnerships in their proposed 
statements of work. Once awards have been made, ETA staff helps ensure 
that partnerships are working together to implement projects through 
the regular support they provide to grantees as they implement their 
grants. As ETA staff assess the implementation of these grants, they 
determine if the partnerships identified in statements of work are in 
fact working together to implement the project, and can provide 
technical assistance as necessary.
    Finally, in July 2008, ETA implemented a standardized data 
collection package that High Growth and Community-Based grantees use to 
report their progress and outcomes. In terms of the results of 
partnership-based activities, grantees must provide, in narrative form, 
qualitative information pertaining to the partners roles, resources, 
knowledge, and how they contribute to results.

    [Whereupon, at 10:59 a.m., the hearing was adjourned.]

                                   

      

</pre></body></html>
